SIGAR
SPECIAL INSPECTOR GENERAL


                                                                                                         SIGAR                  Special Inspector General for   JAN 30




                                 SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | JAN 30, 2011
FOR AFGHANISTAN RECONSTRUCTION
                                                                                                                                Afghanistan Reconstruction       2011
400 Army Navy Drive
Arlington, VA 22202-4704




                                 1                                                                       QUARTERLY REPORT TO THE UNITED STATES CONGRESS
Cover Captions (clockwise from left):
Commando Radio-Kabul’s first woman disc
jockey speaks to listeners during a radio
broadcast at Camp Morehead, Afghanistan.
Funded by the United States, the station pro-
vides information on Commando operations.
It is operated by Afghans who have gradu-
ated from a U.S. training program. (U.S. Army
photo, SFC Marcus Quarterman)
Afghan quality assurance representatives
visit a waste treatment plant under construc-
tion in Kabul province, as part of a U.S. Army
Corps of Engineers training session. As of July
2010, the United States had provided $250
million to rebuild Afghanistan’s water sector.
(USAF photo, SSgt Stacey Haga)
School is in session at the Nad e Ali Central
School in Helmand province. In 2010, U.S.
programs provided 21.5 million textbooks to
students throughout Afghanistan. By the end
of 2011, the United States plans to provide
$25 million for primary school textbooks
alone. (RAF photo, SAC Neil Chapman)
A weaver in Jalalabad continues the ancient
tradition as he works on a charpoy, a versatile
daybed common throughout Afghanistan,
                                                  Young musicians perform at the first winter music academy of the Afghan National Music
Pakistan, and India. One key focus of the U.S.
                                                   Institute. The Institute was founded to revive the musical tradition in Afghanistan: under
reconstruction program is to encourage the
                                                     the Taliban, music was banned. The institute is supported by contributions from the
growth of local industry. (photo by Aimal Azem)
                                                              United States and the donor community. (U.S. Embassy Kabul photo)
SIGAR                                      Special Inspector General for
                                           Afghanistan Reconstruction
                                                                                     JAN 30
                                                                                      2011




The National Defense Authorization Act for FY 2008 (P.L. 110-181)
established the Special Inspector General for Afghanistan
Reconstruction (SIGAR).

SIGAR’s oversight mission, as defined by the legislation, is to provide for the indepen-
dent and objective
• conduct and supervision of audits and investigations relating to the programs and
   operations funded with amounts appropriated or otherwise made available for the
   reconstruction of Afghanistan.
• leadership and coordination of, and recommendations on, policies designed to pro-
   mote economy, efficiency, and effectiveness in the administration of the programs
   and operations; and prevent and detect waste, fraud, and abuse in such programs
   and operations.
• means of keeping the Secretary of State and the Secretary of Defense fully and
   currently informed about problems and deficiencies relating to the administration of
   such programs and operation and the necessity for and progress on corrective action.
Afghanistan reconstruction includes any major contract, grant, agreement, or other
funding mechanism entered into by any department or agency of the U.S. government
that involves the use of amounts appropriated, or otherwise made available for the
reconstruction of Afghanistan.

Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.
SIGAR RESULTS TO DATE
AUDITS
• 36 completed audit reports, addressing more than $16 billion in reconstruction spending
• $190 million in U.S. reconstruction funds put to better use
• 3 forensic audits currently analyzing more than $37 billion of reconstruction contract data

INVESTIGATIONS
• 105 ongoing investigations, 62 of allegations of procurement/contract fraud
• 4 convictions and more than $6 million in repayments to the U.S. government
• 464 Hotline complaints received and addressed

OPERATIONS
• Work conducted in 22 of Afghanistan’s 34 provinces




                                              JOWZJAN                      KUNDUZ              BADAKHSHAN
                                                            BALKH                    TAKHAR


                                                              SAMANGAN
                                  FARYAB                                     BAGHLAN
                                              SAR-E PUL                          PANJSHIR
                        BADGHIS                                                       NURISTAN
                                                                      PARWAN   KAPISA      KUNAR
                                                            BAMYAN                 LAGHMAN
                                                                            KABUL
           HERAT                                                   WARDAK
                                                                                     NANGARHAR
                                  GHOR                                    LOGAR
                                               DAYKUNDI
                                                                                     PAKTIYA
                                                                  GHAZNI                 KHOWST

                                            URUZGAN
            FARAH
                                                                           PAKTIKA
                                                          ZABUL


                                                                                                      Provinces where SIGAR has conducted
                                                                                                      audits and investigations
            NIMROZ                                                                                    Current SIGAR offices
                       HELMAND
                                         KANDAHAR
                                           SPECIAL INSPECTOR GENERAL            FOR

                                          AFGHANISTAN RECONSTRUCTION



    January 30, 2011


    I am pleased to submit SIGAR’s tenth quarterly report to the Congress on the U.S. reconstruction effort
in Afghanistan. This report covers SIGAR’s oversight activities and the status of reconstruction programs in
Afghanistan, for the reporting period ending January 30, 2011.
    This quarter, SIGAR issued two audit reports, initiated five new audits, and completed its mandated
contract audit plan. We learned that our 2009 audit on Commander’s Emergency Response Program (CERP)
accountability contributed to the decision by U.S. Forces - Afghanistan (USFOR-A) to return $190 million of
FY 2009 CERP funds to the Army to be put to better use. In collaboration with Afghan investigators, SIGAR
participated in negotiations that resulted in two companies repaying $22 million in wages to 4,000 Afghans
and $11 million in taxes to the Afghan government. Other joint investigations led to $500,000 in cost savings,
the recovery of $532,000 in stolen U.S. equipment, the arrest of a contractor for bribery, and the proposed
debarment of two companies. SIGAR opened 35 new investigations, bringing the number of ongoing investi-
gations to 105, 80% of which concern contract/procurement fraud and corruption.
    Over the last two years, SIGAR has grown steadily. We now have 122 full-time professionals working in
six locations: one in the United States and five in Afghanistan. Our auditors and investigators have conducted
oversight work in 22 of Afghanistan’s 34 provinces. We have produced 36 audit reports and made more than
100 recommendations, many of which have had a significant impact on aspects of the reconstruction effort.
One of our auditors received an award from the Council of Inspectors General on Integrity and Efficiency for
his anti-corruption work.
    I will be leaving SIGAR in early February, knowing that this organization will provide the effective over-
sight that is critical to protecting the more than $56 billion U.S. investment in Afghanistan from waste, fraud,
and abuse. It has been an honor to serve two Presidents of the United States. It has also been my privilege to
work with SIGAR’s excellent staff, with my colleagues in the inspector general community, with our over-
sight committees in the Congress, and with so many Afghans who are dedicated to rebuilding their country.


    Very Respectfully,




    Arnold Fields
    Special Inspector General for Afghanistan Reconstruction




                                       400 ARMY NAVY DRIVE   ARLINGTON, VIRGINIA 22202
                                   EXECUTIVE SUMMARY




SIGAR ACTIVITIES, Q1 2011
SIGAR audits this quarter found that critical reconstruction programs are at risk because of poor
planning, insufficient oversight, and the inability of the Afghan authorities to sustain them. These
audits examined Department of Defense (DoD) plans to build and sustain facilities for the Afghan
National Security Forces (ANSF) and 69 projects funded through the Commander’s Emergency
Response Program (CERP) in Laghman province.


SIGAR’s continuing collaboration with Afghan law           that DoD had not established adequate mechanisms
enforcement entities, including the Afghan Shafafiyat      to monitor and execute CERP funds. According to
Investigative Unit (ASIU), is beginning to produce         USFOR-A officials, SIGAR’s report and other reports
results. At the request of the ASIU, SIGAR participated    prompted USFOR-A to review CERP use in Afghanistan
in negotiations with two companies that agreed to pay      and to reallocate the funds.
$22 million of unpaid wages for 4,000 Afghan workers
and $11 million in unpaid taxes to the Government          SIGAR AUDITS
of the Islamic Republic of Afghanistan (GIRoA). SIGAR      During this reporting period, SIGAR published two
also participated in joint investigations that led to      audits:
$500,000 in cost savings, the recovery of $532,000 in      • Inadequate Planning for ANSF Facilities Increases
stolen U.S. equipment, the arrest of one contractor for      Risks for $11.4 Billion Program (SIGAR Audit 11-6)
bribery, and the proposed debarment of two individuals     • Commander’s Emergency Response Program in
and two companies.                                           Laghman Province Provided Some Benefits, but
   In addition to the 2 audit reports, SIGAR initiated       Oversight Weaknesses and Sustainment Concerns
5 new audits, bringing the total number of ongoing           Led to Questionable Outcomes and Potential
audits to 16. SIGAR continues to conduct forensic            Waste (SIGAR Audit 11-7)
reviews of $37.65 billion of transaction data related
                                                           Lack of Planning for ANSF Facilities
to three funds used for Afghanistan reconstruction:
the Afghanistan Security Forces Fund, the Economic         SIGAR’s audit of U.S. planning for ANSF facili-
Support Fund, and the International Control and Law        ties found that the Combined Security Transition
Enforcement Fund.                                          Command - Afghanistan (CSTC-A) intends to spend
   SIGAR also completed a comprehensive plan               $11.4 billion through FY 2012 to build nearly 900
to conduct audits of contracts, subcontracts, task         facilities across Afghanistan to support the ANSF. At
orders, and delivery orders of reconstruction activities   the end of 2010, the ANSF had a combined strength
in Afghanistan, as required by law. SIGAR’s FY 2011        of about 265,000 personnel. The international com-
audit plan expands the scope of its contract audit         munity and the GIRoA plan to increase this number to
work and emphasizes identifying opportunities to put       305,600 for FY 2011.
reconstruction funds to better use.                            Despite this considerable outlay of funds and
                                                           the large number of facilities involved, SIGAR found
FUNDS PUT TO BETTER USE                                    that CSTC-A had not developed a long-term construc-
This quarter, SIGAR learned that its September 2009        tion plan. The lack of such a plan puts the facilities
audit on CERP contributed to the decision by the U.S.      program at risk of not meeting ANSF strategic and
Forces - Afghanistan (USFOR-A) to return $190 million      operational needs.
of 2009 CERP funds to the Army. SIGAR’s audit found
                                   EXECUTIVE SUMMARY




   In addition to paying for the construction of ANSF      services to build the ANSF, develop the Afghan econ-
bases, garrisons, police stations, and training centers,   omy, and improve Afghan governing capacity. SIGAR is
CSTC-A may provide up to $800 million for operations       also conducting audits of private security contractors
and maintenance on these facilities over the next five     that provide security for reconstruction projects.
years, according to the audit. CSTC-A does not have a
long-term maintenance plan that links requirements to      New Audits
long-term construction plans.                              Since SIGAR’s last report to the Congress, it has initi-
                                                           ated five new audits:
CERP Projects in Laghman Province at Risk                  •  audit of four U.S. Agency for International
SIGAR found that 27 of the 69 CERP projects it exam-          Development (USAID) and U.S. Department of
ined in Laghman province were at risk or have ques-           State (DoS) programs in one selected province
tionable outcomes. The 27 projects at risk accounted       •  audit of USAID contracts in support of its Local
for about $49 million, or 92% of the $53 million in           Governance and Community Development projects
obligations that SIGAR reviewed. Most of this CERP         •  audit of U.S. Air Force Center for Engineering and
investment in Laghman was used for large projects,            the Environment (AFCEE) contracts for infrastruc-
such as construction of asphalt roads and new                 ture projects at the Kabul Military Training Center
facilities. The asphalt road projects, valued at about     •  audit of AFCEE contracts for construction projects
$44.6 million, are at risk because the Afghan provin-         and related work at the Afghan Defense University
cial authorities do not have the resources to operate      •  audit of the use and accountability of U.S. and
and maintain them.                                            other donor funds contributed to the Afghanistan
   In addition, SIGAR found that USFOR-A lacks a              Reconstruction Trust Fund
coordinated, results-oriented approach to determine
whether CERP projects have achieved their goals, are       SIGAR INVESTIGATIONS
being used as intended, and are being sustained.           Since SIGAR’s last quarterly report to the Congress,
Without adequate oversight and assessments of              its investigators opened 35 new cases, bringing the
results, the Afghan people may not receive the proj-       total number of ongoing cases to 105. Approximately
ects’ intended benefits, and the U.S. investment is at     86% of SIGAR’s cases focus on contract/procure-
risk of waste.                                             ment fraud and corruption, and 14% on other crimi-
                                                           nal allegations, such as theft. The SIGAR Hotline
Audit Plans                                                received 131 complaints—slightly more than
In FY 2011, SIGAR is continuing to concentrate             received last quarter.
its audit work in three high-priority areas: contract
management and oversight, efforts to build the ANSF,       LOOKING FORWARD
and anti-corruption programs. It will also continue to     Throughout this year, SIGAR auditors and investiga-
conduct audits of development assistance and               tors will remain focused on detecting and deter-
programs to build Afghan governing capacity.               ring waste, fraud, and abuse of U.S. reconstruction
   As mandated by the Congress, SIGAR has submit-          dollars. SIGAR will also be assessing the degree to
ted a separate plan for its performance audits of          which U.S. taxpayer dollars are supporting sustain-
contracts and other financial mechanisms. About one-       able programs that are helping the United States
third of SIGAR’s audits this year will target contractor   achieve its reconstruction objectives.
performance and agency oversight for contracted
TABLE OF CONTENTS




     SECTION 1
     SIGAR OVERSIGHT
      3    $190 Million of CERP Funds Put to Better Use
      4    SIGAR Audits
     19    SIGAR Investigations
     22    SIGAR Budget
     23    SIGAR Staff




     SECTION 2
     AFGHANISTAN OVERVIEW
     27    NATO Summit in Lisbon
     28    U.S. Policy Unchanged Following Review
     30    FY 2011 National Defense Authorization Act
     32    SIGAR Looking Forward




     SECTION 3
     RECONSTRUCTION UPDATE
      37   Overview
      41   Status of Funds
      53   Security
      67   Governance
      87   Economic and Social Development
     101   Counter-Narcotics
     107   Anti-Corruption
TABLE OF CONTENTS




   SECTION 4
   OTHER AGENCY OVERSIGHT
   113 Completed Oversight Activities
   118 Ongoing Oversight Activities
   129 Other Agency Investigations




   APPENDICES & ENDNOTES
   132 Appendix A: Cross-Reference of Report
                   to Statutory Requirements
   136 Appendix B: U.S. Government Appropriated Funds
   138 Appendix C: SIGAR Audits
   140 Appendix D: SIGAR Investigations and Hotline
   141 Appendix E: Abbreviations and Acronyms
   144 Endnotes
                 Building Civil Aviation Infrastructure
                 A mason ensures that bricks are lined up properly while
                 building a wall at Mazar-e Sharif International Airport in
                 December 2010. Five international airports are currently
                 under construction in Afghanistan, funded by the U.S.
                 government and its international partners. (U.S. Army
                 photo, SGT Michael Reinsch, IJC Public Affairs)




viii   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
1   SIGAR
    OVERSIGHT




        1
             SIGAR OVERSIGHT




     “Through its audit and investigative
 work over the last 18 months, SIGAR has
identified six broad issues putting the U.S.
  investment in Afghan reconstruction at
  risk of being wasted or subject to fraud
    and abuse...: inadequate contract and
    program management, need to work
   in greater partnership with the people
  of the country we are trying to rebuild,
 measuring outputs rather than outcomes,
  inability to curb corruption, insufficient
    local capacity to manage and sustain
       projects, and lack of security.”
                               —Maj. Gen. Arnold Fields (Ret.)
Special Inspector General for Afghanistan Reconstruction



             Source: SIGAR, “Testimony Before the Subcommittee on Contracting Oversight Committee on Homeland Security and Government Affairs,”
             11/18/2010, pp. 10–11.




                  2                        SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




SIGAR OVERSIGHT
This quarter, SIGAR issued 2 audit reports and announced 5 new audits,
bringing the total number of ongoing audits to 16. SIGAR continues to conduct
forensic reviews of $37.65 billion of transaction data related to three funds
used for Afghanistan reconstruction: the Afghanistan Security Forces Fund
(ASFF), Economic Support Fund (ESF), and International Control and Law
Enforcement Fund (INCLE). In addition, SIGAR completed a comprehensive
plan to conduct audits of contracts, subcontracts, and task and delivery orders
of reconstruction activities in Afghanistan, as required by law.
    Since SIGAR’s last quarterly report to the Congress, its investigators opened
35 new cases. SIGAR is now conducting 105 ongoing investigations. This
quarter, the SIGAR Hotline received 131 complaints—a slight increase since
last quarter. SIGAR also participated in joint investigations that resulted in
the payment of $22 million in unpaid wages to Afghan workers and $11 million
in unpaid taxes to the GIRoA, $500,000 in cost savings, the recovery of stolen
equipment, the arrest of one contractor for bribery, and the proposed debar-
ment of two individuals and two companies.

$190 MILLION OF CERP FUNDS PUT TO BETTER USE
This quarter, SIGAR learned that its September 2009 audit on DoD’s ability to
account the Commander’s Emergency Response Program (CERP) funds con-
tributed to the decision by the U.S. Forces - Afghanistan (USFOR-A) to return
$190 million of 2009 CERP funds to the U.S. Army, which administers the
program. SIGAR’s audit, “Increased Visibility, Monitoring, and Planning Needed
for Commander’s Emergency Response Program in Afghanistan,” found that
the Department of Defense (DoD) had not established adequate mechanisms
to monitor and administer CERP funds. Other oversight agencies, including
the U.S. Army Audit Agency, have also raised concerns about the use of CERP
funds. According to USFOR-A officials in Afghanistan, SIGAR’s report, along
with other reports, prompted USFOR-A to review CERP use in Afghanistan.
This review resulted in the decision to reallocate the funds.




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011         3
SIGAR OVERSIGHT




TABLE 1.1


COMPLETED SIGAR AUDITS AS OF DECEMBER 31, 2010
Report Identifier    Report Title                                                        Date Issued
SIGAR-Audit-11-7     Commander’s Emergency Response Program in Laghman Province             1/2011
                     Provided Some Benefits, but Oversight Weaknesses and Sustainment
                     Concerns Led to Questionable Outcomes and Potential Waste
SIGAR-Audit-11-6     Inadequate Planning for ANSF Facilities Increases Risks for $11.4      1/2011
                     Billion Program




SIGAR AUDITS
SIGAR completed two audits this quarter and also submitted to the Congress
its “Plan for Performance Audits of Contracts and Other Financial Mechanisms
to Meet the Requirements of P.L. 110-181, Section 842 (a) (3).” This plan is
described in a quarterly highlight in this section. Table 1.1 lists the audits.
    This quarter, SIGAR initiated five new audits:
 • a review of four U.S. Agency for International Development (USAID) and
    U.S. Department of State (DoS) programs in one selected province
 • an audit of USAID contracts in support of its Local Governance and
    Community Development projects
 • an audit of the U.S. Air Force Center for Engineering and the Environment
    (AFCEE) contracts for infrastructure projects at the Kabul Military Training
    Center
 • an audit of AFCEE contracts for construction projects and related work at
    the Afghan Defense University
 • an audit of the use and accountability of U.S. and other donor funds contrib-
    uted to the Afghanistan Reconstruction Trust Fund (ARTF)
For details on SIGAR’s new audits, see “New Audits Announced this Quarter,”
later in this section.

Fiscal Year 2011 Audit Plan
SIGAR’s FY 2011 audit plan expands the scope of its contract audit work and
emphasizes identifying opportunities to put reconstruction funds to better use.
As SIGAR’s ongoing forensic reviews reveal transaction anomalies, SIGAR’s
Audit and Investigations directorates will coordinate efforts to address specific
concerns about fraud, waste, and abuse.
   SIGAR continues to concentrate its audit work in three high-priority areas:
contract management and oversight, efforts to build the Afghan National Security
Forces (ANSF), and anti-corruption programs. In addition, SIGAR will continue
to conduct audits of development assistance and programs to build Afghanistan’s
governing capacity.
   Using a risk-based approach to prioritizing its work, SIGAR has established
seven main criteria to identify projects and programs to audit:




    4               SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




• the amount and magnitude of U.S. funding to known risk environments
• indications of specific risks and vulnerabilities, especially related to large
  contracts, procurements, and programs
• the opportunities to realize financial benefits to the U.S. taxpayer, given
  anticipated outcomes and deliverables
• the information provided by SIGAR’s oversight committees, U.S. agen-
  cies, U.S. Embassy Kabul, and the Government of the Islamic Republic of
  Afghanistan (GIRoA)
• the relevance to the U.S. strategy and goals in Afghanistan
• the security issues affecting the feasibility of conducting work
• the activities of other oversight agencies

Completed Audit Reports
SIGAR issued two audit reports this quarter—one focusing on the funding
and planning of facilities construction for the ANSF and one focusing on the
status of projects funded by CERP and the effectiveness of U.S. oversight of
these projects.

Audit 11-6: Security/ANSF Facilities Planning
Inadequate Planning for ANSF Facilities Increases Risks for $11.4 Billion Program
From fiscal years 2005 to 2010, the Congress appropriated about $28 billion for
the ASFF. Under the command of USFOR-A, the Combined Security Transition
Command-Afghanistan (CSTC-A) uses this funding to equip, train, base, and sus-
tain the ANSF. The ANSF includes the Afghan National Army (ANA) and Afghan
National Police (ANP). Total ANSF personnel were to reach 243,000 in October
2010; more recent plans suggest this number may increase to 400,000 by October
31, 2013. As a result, additional facilities and infrastructure are needed.
   In previous audits of construction contracts for ANA garrisons in Kunduz,
Gamberi, and Farah, SIGAR attempted to determine how the contract require-
ments were developed. However, CSTC-A was unable to document the U.S. plans
and justification for the number and types of ANA facilities, including docu-
ments delineating the size, location, and use of the garrisons. As SIGAR noted,
such planning documents are critical for CSTC-A to ensure that, as requirements
change, plans can be adapted as needed, resources can be prioritized and used to
achieve strategic goals, and potential waste can be minimized.

OBJECTIVES
This audit had the following objectives:
• Determine the U.S. funding provided or planned to be provided for the
   construction of ANSF facilities.
• Assess CSTC-A’s overall planning for the construction and maintenance of
   ANSF facilities.




        REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011            5
                                QUARTERLY HIGHLIGHT




MANDATED CONTRACT                                            of Defense (DoD) administers three of these funds—
                                                             the Afghan Security Forces Fund, the Commander’s
AUDIT PLAN                                                   Emergency Response Program, and the DoD Drug
                                                             Interdiction and Counter-Drug Activities fund. The U.S.
                                                             Agency for International Development (USAID) adminis-
The National Defense Authorization Act (NDAA) of
                                                             ters the Economic Support Fund, and the Department
2008 (P.L. 110-181) requires that SIGAR develop a
                                                             of State (DoS) manages the International Narcotics
comprehensive plan for a series of audits of con-
                                                             Control and Law Enforcement account. (For more infor-
tracts, subcontracts, task orders, and delivery orders
                                                             mation, see “Status of Funds” in Section 3.)
relating to the performance of security and recon-
struction functions in Afghanistan. During this report-      CONTRACT AWARD/MANAGEMENT ENTITIES
ing period, SIGAR submitted to Congress its “Plan for        U.S. implementing agencies use multiple organiza-
Performance Audits of Contracts and Other Financial          tions to award and manage contracts. Four DoD
Mechanisms To Meet the Requirements of P.L. 110-             organizations manage reconstruction contracts
181, Section 842 (a) (3).”                                   to train, equip, base, and sustain the ANSF: U.S.
   About one-third of SIGAR’s audits this year will          Central Command (CENTCOM) Joint Theater Support
target contractor performance and agency oversight           Contract Command (C-JTSCC),22 the U.S. Army Corps
for contracted services to realize financial benefits to     of Engineers (USACE)-Afghanistan Engineer District
the U.S. taxpayer. SIGAR is also conducting audits of        (AED),23 the Air Force Center for Engineering and
private security contractors that provide security for       Environment (AFCEE), and the U.S. Army Space and
reconstruction projects.                                     Missile Defense Command (SMDC).
   Each planned audit will address one or more of the           C-JTSCC manages contracts for U.S. Forces -
seven issues in Section 842 (h) of P.L. 110-181:             Afghanistan (USFOR-A) subcommands, including
•  the manner in which contract requirements were            most contracts for the Combined Security Transition
   developed and contracts or task and delivery              Command - Afghanistan (CSTC-A). CSTC-A distributes
   orders were awarded                                       and manages all U.S.-provided funding to support the
•  the manner in which federal agencies exercised            development of the ANSF. USACE and AFCEE man-
   control over the performance of contractors               age construction contracts for CSTC-A’s infrastruc-
•  the extent to which operational field commanders          ture projects for the ANSF. SMDC manages con-
   were able to coordinate or direct the performance         tracts for DoD’s Counter-Narcoterrorism Technology
   of contractors in an area of combat operations            Office. In addition to providing aviation support for
•  the degree to which contractor employees were             Afghanistan’s counter-narcotics office, SMDC con-
   properly screened, selected, trained, and equipped        tracts are used to construct facilities on the Afghan
   for the functions to be performed                         border to intercept narcotics shipments.
•  the nature and extent of any incidents of miscon-            USAID’s Mission in Kabul enters into and man-
   duct or unlawful activity by contractor employees         ages contracts, cooperative agreements, and grants
•  the nature and extent of any activity by contractor       to support economic development and promote
   employees that was inconsistent with the objec-           good governance. USAID’s Afghanistan-Pakistan Task
   tives of operational field commanders                     Force in Washington, D.C., reports data on contracts,
•  the extent to which any incidents of misconduct or        cooperative agreements, and grants. It also provides
   unlawful activity were reported, documented, inves-       administrative support for USAID’s Mission in Kabul.
   tigated, and (where appropriate) prosecuted                  The DoS Office of Acquisitions and Management
   Most of the $56 million that has been appropri-           (AQM) enters into contracts on behalf of DoS and is
ated for the reconstruction of Afghanistan has been          responsible for department-wide oversight for con-
divided among five major U.S. funds. The Department          tracts. In addition, two DoS bureaus—the Bureau



                                      6               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                QUARTERLY HIGHLIGHT




of International Narcotics and Law Enforcement                    developed a robust plan to assess the manage-
Affairs and the Bureau of Population, Refugees, and               ment and oversight of PSCs and their performance in
Migration—are managing reconstruction contracts.                  Afghanistan. This plan includes contract audits and
   SIGAR’s audits of selected contractors funded                  audits to identify potential systemic problems. In an
by DoD, USAID, and DoS will assess the process                    ongoing audit, SIGAR is assessing the performance
for awarding contracts; whether projects are being                and oversight of a $93 million contract between
completed within the terms of the contracts; and the              USACE and Global Strategies Group for security sup-
extent to which agencies are implementing effective               port services.
oversight to prevent waste, fraud, and abuse.

CONTRACT OVERSIGHT FOR 2011                                       TABLE 1.2
A SIGAR audit issued last quarter found that
DoD, DoS, and USAID had obligated more than                        U.S. OBLIGATIONS MADE AGAINST RECONSTRUCTION
$17.7 billion to nearly 7,000 contractors and other                CONTRACTS AND GRANTS, TOP 20 RECIPIENTS,
                                                                   2007–2009
entities during FY 2007–2009. SIGAR is using this
                                                                                                                          Awarding                 Value
audit to help prioritize its work. Table 1.2 shows the             Rank Recipient                                         Entity             ($ Millions)
20 recipients of the largest obligations of reconstruc-            1       DynCorp International                          INL, USACEa               1,988
tion funding from FY 2007 through FY 2009 and                      2       Louis Berger International, Inc.               USAID                       736
identifies the contracting authority responsible for               3       Kabuljan Construction Company                  C-JTSCC
                                                                                                                                   b
                                                                                                                                                      691
administering the contract.                                        4       Red Sea Construction Company                   C-JTSCCb                    478
    During this reporting period, SIGAR announced                  5       KBY & Bozdemir Joint Venture                   C-JTSCCb                    452
three new audits of contracts awarded to companies                 6       International Relief and Development           USAID                       392
on this list. AFCEE awarded three task orders, valued              7       Contrack International, Inc.                   USACE                       366
at $70.5 million, to AMEC Earth and Environment                    8       PAE Government Systems                         INL                         349
for construction at the Kabul Military Training Center.            9       Development Alternatives, Inc.                 USAID                       331
AFCEE also awarded a Phase III $75 million task                    10      World Bank                                     USAID                       322
order to ECC International, LLC for the Kabul Military             11      FCEC United Infrastructure Projects JV         USACE                       321
Training Center. AFCEE has awarded a cost-plus-                    12      Lockheed Martin Integrated                     SMDC                        320
fixed-fee task order, currently valued at $83 million,                     Systems, Inc.
to AMEC Earth and Environment under an indefinite-                 13      Technologists, Inc.                            USACE                       303
delivery/indefinite-quantity contract for construction             14      United Nations                                 USAID                       255

at the Afghan Defense University. USAID awarded a                  15      Chemonics International, Inc.                  USAID                       230

$232 million contract for local governance and com-                16      U.S. Training Center                           SMDC                        218

munity development to Development Alternatives, Inc.               17      ECC International, LLC                         USACE                       204
                                                                   18      ARINC Inc.                                     SMDC                        169
    SIGAR has two ongoing audits of DoD and USAID
                                                                   19      AMEC Earth and Environment                     AFCEE                       166
reconstruction contracts. One is assessing two AFCEE                                                                               b
                                                                   20      Recon International                            C-JTSCC                     159
task orders for infrastructure projects:
•   a $23.2 million project in Mazar-e Sharif by CH2M              a. Numbers affected by rounding. Value represents the total obligations for contracts,
                                                                   cooperative agreements, and grants from FY 2007 to FY 2009 reported to SIGAR by the
    Hill Constructors, Inc.                                        respective entity.
                                                                   b. C-JTSCC data was provided by JCC-I/A, which was responsible for C-JTSCC’s mission
•   a $19.0 million project in Herat by AMEC Earth and             at the time. As noted in SIGAR’s audit report, the JCC-I/A data contained a number of
                                                                   errors, including misspellings and some similar contractor names that may refer to the
    Environment, Inc.                                              same contractor. SIGAR took steps to validate and consolidate data, where appropriate;
                                                                   however, since the report was published in October 2010, further review of C-JTSCC’s
The other audit is examining USAID’s $60 million                   data revealed additional errors in its reporting, including obligation values that exceed
                                                                   actual contract values. SIGAR is working to determine the extent of the problems and will
cooperative agreement with CARE International.                     address any concerns with the agency.
    In response to growing concern in the Congress                 Source: SIGAR, Audit-11-4, “DoD, State, and USAID Obligated Over $17.7 Billion to About
and in Afghanistan over the unprecedented use of                   7,000 Contractors and Other Entities for Afghanistan Reconstruction During Fiscal Years
                                                                   2007–2009,” 10/27/2010.
private security contractors (PSCs), SIGAR has


         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011                       7
SIGAR OVERSIGHT




FINDINGS
1. CSTC-A has provided or plans to provide a total of $11.4 billion through
   FY 2012 for construction of nearly 900 ANSF facilities, including at least
   $8 billion from FY 2010 through FY 2012. In addition, up to $800 million may
   be provided for operations and maintenance over the next five years.
2. Despite the considerable funding and large number of facilities involved,
   CSTC-A has not developed a long-term construction plan, placing the facili-
   ties program at risk of not meeting ANSF strategic and operational needs.
   In a 1998 executive guide for capital asset planning, the U.S. Government
   Accountability Office, in conjunction with the Office of Management and
   Budget, identified best practices for planning the construction of capital
   assets. The guide states that a long-term construction plan is necessary to
   ensure that, as conditions change, plans can be adapted as needed, and
   resources can be prioritized and used effectively to achieve applicable
   strategic goals.
3. CSTC-A contracted with MACTEC Engineering and Consulting, Inc. to,
   among other things, develop an ANSF Comprehensive Plan for Facilities
   Development. SIGAR found that portions of the plan were out of date, and
   most ANSF facilities plans were not completed; nevertheless, this plan was
   the most complete listing and analysis of ANSF facilities that CSTC-A could
   provide. The plan addressed a number of desired elements for long-range
   capital planning, but it did not address other elements, such as identifying
   how current ANSF facilities meet Afghan security objectives, identifying
   gaps in current facilities’ ability to meet security objectives, and evaluating
   how planned facilities will help to eliminate those gaps.
4. CSTC-A also recognizes that the long-term operations and maintenance of
   ANSF facilities need to be addressed. According to CSTC-A’s 2008 Campaign
   Plan, sustainment costs may continue through 2025. However, CSTC-A does
   not have a long-term maintenance plan linking requirements to long-term
   construction plans. Such a plan would help CSTC-A identify and rational-
   ize ANSF maintenance requirements across the hundreds of completed and
   planned ANSF facilities to help ensure the most effective and efficient use of
   maintenance funding.

RECOMMENDATIONS
Without a facilities plan that reflects current requirements, CSTC-A puts its
$11.4 billion construction program for ANSF facilities at risk, including building
facilities that are inadequate for the projected number of ANSF personnel or that
do not meet the ANSF’s strategic and operational needs. To ensure that CSTC-A
maximizes the use of its funding and that facilities address ANSF strategic goals
and objectives, SIGAR recommended the following action:
• Develop a planning document that incorporates updated requirements for
   ANSF facilities; addresses the justification for and location of all ANSF facili-
   ties; determines how they meet strategic objectives for security; and discusses




   8                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




   how facilities will be shared, expanded, or constructed to meet the projected
   end-strength of 400,000 personnel by 2013. This plan should address federal
   government principles and best practices for capital decision-making.
In addition, to help ensure that these facilities are used as intended, SIGAR
recommended the following action:
• Develop a long-range operations and maintenance plan for all ANSF
   facilities.

AGENCY COMMENTS
In its comments on a draft of this audit report, CSTC-A said that long-term con-
struction planning in a war zone is difficult but noted some steps it has taken to
address SIGAR’s concerns. In addition, CSTC-A agreed with the need for a long-
range operations and maintenance plan for all ANSF facilities. CSTC-A stated it
has asked for additional resources to address this shortcoming.

Audit 11-7: Contract Performance and Oversight/CERP
Commander’s Emergency Response Program in Laghman Province Provided Some Benefits,
but Oversight Weaknesses and Sustainment Concerns Led to Questionable Outcomes and
Potential Waste
Since 2004, the Congress has appropriated nearly $2.64 billion for CERP in
Afghanistan. CERP enables commanders to fund humanitarian relief and recon-
struction projects to immediately assist the local population. In recent years,
the Congress has expressed concerns over the rapid growth of CERP funding
in Afghanistan, the use of CERP funds on large development projects, and the
capacity of the GIRoA to absorb more CERP-funded projects.
   SIGAR initiated this audit to examine the funding, outcomes, and oversight
of 69 selected CERP projects in Laghman province that were approved from
FY 2008 through FY 2010. The 69 projects selected include 24 active, 42 com-
pleted, and 3 terminated projects that represented 91% of the $58.5 million
obligated for CERP projects in Laghman during that time. The SIGAR audit
team inspected 36 of the projects, which represented $39.8 million in obligations
(nearly 75%) of the total obligated for all 69 projects.

OBJECTIVES
This audit had two objectives:
• Assess the projects’ status, including funds obligated and disbursed,
   whether the projects were meeting intended outcomes, and whether they
   were being sustained.
• Determine whether project oversight by U.S. officials was in accordance with
   applicable guidance.

FINDINGS
• SIGAR found that 27 of the 69 CERP projects examined in Laghman were
   at risk or have questionable outcomes. These projects represent about




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011          9
SIGAR OVERSIGHT




    $49.2 million (92%) of the total obligations SIGAR reviewed and may result in
    waste. About $2 million was obligated (4% for the projects selected) for
    19 projects that had generally successful outcomes.
•   Most of the CERP investment in Laghman was used for large projects,
    specifically for the construction of asphalt roads and new facilities. All
    asphalt road projects (about $44.6 million obligated) are at risk because of
    the lack of maintenance plans. These projects and groups of related infra-
    structure projects were approved without adequate assurance that
    the GIRoA had the resources to sustain them.
•   More than $3 million in obligations for new facilities projects was at risk
    because the buildings were completed but were not being used as intended,
    or because construction was ongoing and the GIRoA had not agreed to a
    business plan to sustain the facilities after completion.
•   CERP project oversight was not in compliance with applicable requirements,
    placing CERP funds at risk of questionable outcomes and potential waste.
    For example, many project files lacked sufficient documentation to substan-
    tiate payments and contained minimal evidence that project monitoring had
    occurred.
•   Two groups of related projects—an economic development effort and related
    agricultural storage projects—were large efforts that raised sustainment
    concerns. Such projects require significant amounts of CERP oversight, but
    CERP oversight officials rotate frequently and have been trained to imple-
    ment smaller projects. These projects did not appear to meet an urgent need
    or provide an immediate benefit and raised concerns about sustainment.
•   USFOR-A lacks a coordinated, results-oriented approach to determine
    whether CERP projects have achieved their goals, are being used as
    intended, and are being sustained. Without adequate oversight and assess-
    ments of results, the U.S. investment is at risk for waste, and the Afghan
    people may not receive the projects’ intended benefits.

RECOMMENDATIONS
To improve CERP oversight and promote the sustainment of CERP projects in
Laghman, SIGAR recommended that USFOR-A take the following actions:
• Develop approaches to improve construction quality and sustainment plans
   for active CERP projects, or consider terminating or de-scoping active CERP
   projects and re-obligating the funds for better use, if it is in the best interest
   of the government to do so.
• Require contractors to repair defective work for completed projects that are
   still under warranty.
• Work with GIRoA officials to develop sustainment plans for CERP projects
   that are completed and have not been sustained. Before committing to
   additional CERP projects, USFOR-A should consider identifying steps for
   Laghman provincial officials to take to sustain projects that have been trans-
   ferred to their authority.




    10              SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




   To better identify CERP-funded large development efforts and ensure sus-
tainment plans for these projects, SIGAR recommended that the USFOR-A
commander take the following action:
• Update CERP standard operating procedures to include criteria to help field
   commanders determine when groups of CERP projects should be considered
   related for project planning and approval purposes.
   To help determine whether CERP projects have met their intended
outcomes and the purposes of CERP, SIGAR recommended that CSTC-A take
the following action:
• Develop a coordinated, results-oriented approach for evaluating the effec-
   tiveness of CERP projects. Such an approach should include objective,
   quantifiable, and measurable goals; balanced performance measures to mark
   progress toward goals; criteria to define a successful CERP outcome; and
   procedures to collect, analyze, and report on performance data during the
   project and after it is completed.

AGENCY COMMENTS
In comments on a draft of this audit report, USFOR-A generally concurred with
SIGAR’s findings and recommendations. USFOR-A stated that SIGAR’s recom-
mendations will ensure a more successful CERP program while protecting U.S.
taxpayer dollars. It also outlined several actions it plans to take to address the
recommendations, but USFOR-A noted that it faces some challenges, including
the limited capacity of local contractors and the lack of funding by the govern-
ment of Afghanistan to support recurring operations and maintenance costs.

New Audits Announced This Quarter
This quarter, SIGAR announced five new audits: three contract audits, and two
program audits. These audits examine key aspects of the U.S. reconstruction
effort in Afghanistan.

Contract Audit: USAID Local Governance and Community
Development Projects
This audit will examine the performance, costs, and outcomes of USAID’s
contracts in support of its Local Governance and Community Development
projects. The audit has the following objectives:
• Determine the extent to which USAID has taken action in response to the
   May 2009 audit report issued by the USAID Office of Inspector General.
• Assess the adequacy of contract planning and requirements definition, as
   well as the development of appropriate contract language (including the
   definition of desired outcomes) to help achieve the objectives of the U.S. and
   GIRoA strategy for governance and development.
• Assess whether contracts are completed within contract terms, including
   construction plans and specifications, cost, schedule, and outcome.




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011          11
SIGAR OVERSIGHT




• Identify the elements of spending under the contracts, including direct costs,
  other direct costs, and overhead.
• Assess oversight of the contractor’s work and internal controls.
• Identify the private security companies, if any, that were hired to provide
  personnel or site security, their roles, whether they were approved by the
  GIRoA, and the effect on future work of changes in the GIRoA’s policy on
  private security contractors.

Contract Audit: Infrastructure Projects at the Kabul Military
Training Center
This audit will examine AFCEE’s management of infrastructure projects at the
Kabul Military Training Center. From FY 2007 through FY 2010, AFCEE obligated
approximately $161 million for five task orders under three indefinite-delivery/
indefinite-quantity (IDIQ) contracts at the Center. Under these contracts, AFCEE
awarded a combination of cost-plus-fixed-fee, firm-fixed-price, and time-and-
materials task orders. Work required under these task orders included planning,
construction, and oversight functions with different completion dates. This audit
has five objectives:
 • Assess the adequacy of planning and requirements definition to develop
   appropriate contract language.
 • Assess whether the projects are completed within the terms of the contract
   and construction plans and specifications, including cost, schedule, and
   outcome.
 • Assess AFCEE’s compliance with contract administration and oversight
   requirements, including AFCEE policy and regulations, contract provisions,
   and the Federal Acquisition Regulation.
 • Identify plans, if any, for the ANA to take possession of the facilities, perform
   maintenance, and pay for sustainment costs.
 • Identify the private security companies, if any, that were hired to provide per-
   sonnel or site security, their roles, and if they were approved by the GIRoA.

Contract Audit: Construction at the Afghan Defense University
This audit will examine construction projects and related activities at the Afghan
Defense University. AFCEE awarded a cost-plus-fixed-fee task order to AMEC
Earth and Environment under an IDIQ contract for construction of the Afghan
Defense University. At the time of award, the task order was valued at approxi-
mately $70 million, and the project was to be completed in June 2010. Since then,
AFCEE has issued five modifications to the task order, adding and removing
requirements, increasing the amount obligated to about $83 million, and extend-
ing the completion date through June 2011. This audit has four objectives:
 • Assess whether the project is being completed within the terms of the
   contract, including cost, schedule, and outcome.
 • Assess AFCEE compliance with contract administration and oversight
   requirements, including AFCEE policy and regulations, contract provisions,
   and the Federal Acquisition Regulation.



  12                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




• Identify plans for the ANA to take possession of the facilities, perform
  maintenance, and pay for sustainment.
• Identify which, if any, private security companies were hired to provide per-
  sonnel or site security, their roles, and if they were approved by the GIRoA.

Program Audit: Review of Four USAID and State Department
Programs in a Select Afghan Province
SIGAR is initiating an audit of four USAID and DoS programs in a province that
has not yet been selected:
 • Community-Based Stabilization Grants (USAID)
 • Performance-Based Governors’ Fund (USAID)
 • Quick Response Fund (DoS)
 • Public Diplomacy Grants (DoS)
These programs are intended to build local governing capacity and promote
development at the provincial and district levels. The province will be selected,
in part, on the basis of the amount of funds spent for these programs.
   The audit has three objectives:
 • Identify the amount and use of program funds spent in one province during
    FY 2009 and FY 2010.
 • Assess the steps the U.S. government has taken to ensure that the U.S. funds
    provided for these programs are protected and used for their intended purposes.
 • Determine the extent to which the outcomes associated with the expendi-
    ture of these funds in FY 2009 and FY 2010 helped achieve the objectives
    of the United States and the GIRoA in governance, development, and
    counter-insurgency.

Program Audit: Use and Accountability of U.S. Funds Contributed
to the Afghanistan Reconstruction Trust Fund
This audit will examine the ARTF, which is financed by contributions from the
United States and other donor nations and administered by the World Bank.
ARTF contributions flow through the Afghan national budget and are a means
whereby the United States and other donors provide development assistance
directly to the GIRoA. As of September 2010, the United States had contributed
$972 million—nearly one-fourth of all contributions to the trust fund ($4 billion
from 32 countries and international organizations). This audit is one in a series of
reviews examining U.S. and other donor assistance to support the GIRoA’s anti-
corruption capabilities, as well as internal controls over U.S. and other donor
funds provided to the GIRoA. The audit has two objectives:
• Examine the structure of the ARTF, including its relationship to the GIRoA’s
   overall budget, intended uses, and donor contributions.
• Determine the extent to which the United States, the World Bank, and the
   GIRoA have established mechanisms to adequately monitor and account for
   U.S. funds contributed to the ARTF.




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011          13
SIGAR OVERSIGHT




Ongoing Audits: Contract
During this reporting period, SIGAR has three ongoing audits examining the con-
struction, oversight, and sustainability of two infrastructure projects; a USAID
cooperative agreement with CARE International; and the performance and over-
sight of a private security contractor.

Review of U.S. Air Force Center for Engineering and the
Environment Infrastructure Projects in Mazar-e Sharif and Herat
SIGAR is examining two infrastructure projects undertaken by AFCEE. This
review has three objectives:
• Examine modifications to the task orders awarded to the prime construction
   contractors to determine whether construction at Mazar-e Sharif and Herat
   meet the terms of the task orders.
• Assess the nature and adequacy of project oversight by the quality assurance
   contractor and AFCEE.
• Evaluate efforts to ensure the sustainability of the facilities.

Review of USAID’s Cooperative Agreement with CARE
International for the Community Development Program for Kabul
SIGAR is assessing a $60 million cooperative agreement between USAID and
CARE International—the Community Development Program for Kabul—one of
four programs addressing food insecurity in major urban areas in Afghanistan.
The completion date of the one-year program was originally March 2010; how-
ever, the program has been extended to September 2011. The audit has four
objectives:
• Assess the process and procedures USAID followed to award this coopera-
   tive agreement.
• Determine whether the contract is being implemented within the cost, sched-
   ule, and outcome terms of the agreement.
• Evaluate USAID’s and CARE’s oversight of the program, including controls
   over cash disbursements.
• Assess the extent to which program goals have been achieved.

Review of Reconstruction Security Support Services from Global
Strategies Group, Inc.
This audit is examining whether USACE received the security services it needed
from the contractor at a reasonable cost. SIGAR re-scoped this audit to clarify
the objectives. The re-scoped audit has two objectives:
• Identify the services provided by Global Strategies Group (Global) and deter-
   mine whether those services were provided in accordance with the contract,
   including schedule, cost, and any modifications.
• Determine whether USACE conducted its oversight of the Global contract in
   accordance with the Federal Acquisition Regulation, USACE requirements,
   and any oversight provisions in the contract.




  14               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




Ongoing Audits: Reconstruction Programs and Operations
SIGAR has eight ongoing audits of programs and operations related to the U.S.
effort to build the ANSF, improve governance, and foster economic development.

Afghanistan’s National Solidarity Program
This audit is related to a series of SIGAR audits examining U.S. and other donor
assistance in support of the GIRoA’s anti-corruption capabilities. These audits
also assess the internal controls that Afghan public institutions can exercise to
ensure that donor assistance funds provided to the government are reasonably
protected against waste, fraud, and abuse.
   In 2003, the Afghan Ministry of Rural Rehabilitation and Development estab-
lished the National Solidarity Program (NSP) to help communities identify, plan,
manage, and monitor their own development projects. As of September 2010,
international donor contributions to the NSP totaled more than $1.4 billion. The
United States has provided about $528 million, making it the single largest pro-
vider of NSP funds. The audit has four objectives:
 • Identify U.S. and other donor assistance to the NSP and determine what the
    funds are used for.
 • Assess the level of oversight and internal controls over donor funds.
 • Determine whether the NSP is achieving its intended results.
 • Highlight key challenges facing the NSP in its third and final phase.

Afghan National Police Personnel Management
Processes and Systems
SIGAR is conducting this audit to evaluate the extent to which the ANP has
developed accurate systems for personnel accounting. This audit originally
focused on both the ANP and ANA, but SIGAR re-scoped the audit to focus only
on the ANP to avoid duplicating work being conducted by the U.S. Government
Accountability Office and to respond to the increased interest in the ANP. The
re-scoped audit has four objectives:
• Describe ANP personnel management processes and systems.
• Describe actions taken by the GIRoA and donors to implement and maintain
   ANP personnel management processes and systems.
• Identify any challenges that may impede the implementation and sustain-
   ment of ANP personnel management processes and systems.
• Identify the extent to which risks of fraud, waste, and abuse are being
   mitigated.

Accountability for Vehicles Provided to the ANSF
The United States has provided tens of thousands of vehicles to the ANSF and
plans to provide thousands more through at least 2012. Most of these vehicles
have been purchased though the Foreign Military Sales system, which is admin-
istered by the Defense Security Cooperation Agency. This audit will also provide




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011        15
SIGAR OVERSIGHT




insights on the overall ability of the ANSF to account for, track, and maintain
equipment. This audit has three objectives:
 • Examine ANSF’s vehicle requirements and the extent to which they have
   been met.
 • Assess whether CSTC-A and the ANSF can fully account for vehicles pur-
   chased with U.S. funds for the ANSF, including their numbers, types, and
   operational status.
 • Evaluate how CSTC-A ensures that the ANSF can properly safeguard,
   account for, operate, and maintain vehicles purchased with U.S. funds.

U.S. Efforts To Strengthen the Capabilities of the
Afghan Major Crimes Task Force
This audit is assessing U.S. efforts to strengthen the capabilities of the Afghan
Major Crimes Task Force (MCTF). It is related to a series of reviews examining
U.S. and donor assistance to support the GIRoA’s anti-corruption capabilities.
  The audit has three objectives:
• Identify U.S. and other donor assistance to strengthen the MCTF.
• Determine whether U.S. efforts were designed and implemented in accor-
   dance with applicable laws and regulations.
• Determine whether U.S. assistance is achieving the intended results.

U.S. and International Donor Assistance for Development of the
Afghan Banking Sector and Afghan Currency Control Systems
The Congress has expressed concerns about the stability of Afghanistan’s bank-
ing system and the bulk cash exported through Kabul International Airport. To
address congressional inquiries, SIGAR initiated an audit of U.S. assistance for
the development of the Afghan banking sector and currency control systems,
including the regulation of bulk cash flows. The audit has four objectives:
 • Examine the status and development of Afghanistan’s financial sector,
   including banking and currency control systems.
 • Identify currency control systems, policies, and activities of the GIRoA,
   including regulation of bulk cash flows into and out of the country.
 • Identify programs and activities of the United States to support the develop-
   ment of Afghanistan’s banking sector and strengthen Afghanistan’s currency
   controls.
 • Assess the extent to which these programs and activities have achieved their
   goals and have been effectively coordinated.

U.S. Assistance To Develop Afghanistan’s Agricultural Sector
A top priority of the U.S. strategy in Afghanistan is to rebuild the agriculture
sector. This audit has four objectives:
• Identify U.S. and donor assistance to Afghanistan’s agriculture sector
   through the second quarter of FY 2011.
• Identify strategies and objectives guiding U.S. assistance to develop
   Afghanistan’s agriculture sector.



  16                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




• Assess the extent to which U.S. agricultural assistance is achieving strategic
  goals and objectives.
• Evaluate the extent to which U.S. agricultural assistance is vulnerable to waste.

Implementation of the Defense Base Act Insurance Program for
Contractors in Afghanistan
The Defense Base Act (DBA) Insurance Program, administered by the U.S.
Department of Labor, requires that all federal government contractors and sub-
contractors provide workers’ compensation insurance for employees who work
outside the United States. DoD, DoS, and USAID are the principal U.S. govern-
ment entities involved with reconstruction efforts in Afghanistan. DoS, USAID,
and USACE use a single-source insurance provider; all other DoD elements allow
individual contractors to select their own DBA insurers. Over the course of this
audit, SIGAR is examining program costs, program administration, and payments
to recipients.
   The audit has four objectives:
 • Determine how the program works.
 • Using case studies, determine how much reconstruction funding has been
    spent on DBA insurance and whether funds are appropriately tracked and
    accounted for.
 • Determine whether DBA insurance on reconstruction contracts has been
    purchased as required by prime contractors and subcontractors.
 • Determine whether adequate procedures and processes are in place to help
    ensure that beneficiaries receive the benefits they are entitled to.

Implementation and Sustainability of the U.S. Civilian Uplift in
Afghanistan (Joint Audit with DoS Office of Inspector General)
The U.S. strategy in Afghanistan relies in part on the U.S. government’s ability
to deploy and sustain a civilian effort to build governance and support eco-
nomic development across the country. The number of U.S. civilian personnel
in Afghanistan has increased significantly—from 320 in early 2009 to 1,167 in
December 2010. Conducted jointly with the DoS Office of Inspector General, this
audit is a follow-on audit of aspects of the implementation of the civilian uplift,
as well as the sustainability of deploying additional civilians to Afghanistan. The
audit has two objectives:
 • Determine the costs of the civilian uplift in Afghanistan for FY 2009 and
   FY 2010 and assess U.S. agencies’ evaluation of these costs.
 • Determine U.S. agencies’ projected costs for the uplift in FY 2011 and
   FY 2012 and assess their efforts to evaluate and sustain these costs.




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011          17
SIGAR OVERSIGHT




Forensic Audits
SIGAR is conducting forensic reviews of three Afghanistan reconstruction funds
under the authority of P.L. 110-181, as amended. The legislation requires SIGAR
to investigate improper payments—such as duplicate payments or ineligible
contractors—and to prepare a final forensic audit report on programs and
operations funded with amounts appropriated or otherwise made available for
the reconstruction of Afghanistan. The reviews include examinations of DoD,
USAID, and DoS transaction data related to reconstruction funding.

Forensic Review of DoD Transaction Data Related to
Afghanistan Reconstruction
In March 2010, SIGAR initiated a review of DoD appropriation, obligation, and
expenditure transaction data related to the ASFF for fiscal years 2005 through
2009, totaling $25.23 billion. Obtaining data to perform a comprehensive forensic
review has been a challenge because SIGAR has limited visibility into the line
detail of these transactions. Based on a December 21, 2010, meeting with the
Defense Finance and Accounting Service (DFAS)—including Security Assistance
Accounting for Foreign Military Sales (FMS)—SIGAR confirmed that most of the
funds appropriated to the ASFF are transferred immediately to an FMS trust fund
account to await disbursement after they are obligated. This accounts for the
difficulty in obtaining data necessary for the forensic review. SIGAR is continuing
its efforts to obtain all relevant data and is expanding the scope to include
FY 2010 transactions.
    SIGAR is working in conjunction with various members of DFAS, including
teams responsible for FMS accounting, to help identify data owners and locate
source systems. When transaction data is obtained, it will be analyzed using
extensive data-mining and risk-scoring techniques to identify anomalies that
may indicate fraud, waste, or abuse. The results could support or lead to SIGAR
audits or investigations.

Forensic Review of USAID Transaction Data Related to
Afghanistan Reconstruction
SIGAR is reviewing USAID appropriation, obligation, and expenditure transaction
data, primarily related to the ESF, from FY 2002 to July 2010, totaling $7.4 billion
in appropriated dollars. SIGAR has completed a preliminary review of 73,272
transactions and 1,211 vendors. Forensic analysts performed a series of 19 forensic
tests to isolate anomalies; the results indicated a number of anomalous activities
and exceptions.
   SIGAR’s forensic team is examining these anomalies and working to validate
the exceptions. SIGAR auditors are performing additional electronic testing and
working with SIGAR investigators to examine relevant contract documentation,
invoices, and payment files. In addition, SIGAR is applying a risk-scoring meth-
odology to the results of this analysis and will utilize the results to determine
future, joint audit and investigative initiatives. SIGAR will continue to analyze




  18                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




new fund data. As necessary, SIGAR will conduct interviews with contract-
ing officials, vendor management, and other staff to further verify exceptions.
SIGAR will incorporate the results into ongoing investigations and audits, as
appropriate.
                                                                                        FIGURE 1.1

Forensic Review of DoS Transaction Data Related
                                                                                        SIGAR INVESTIGATIONS: STATUS OF
to Afghanistan Reconstruction
                                                                                        OPEN INVESTIGATIONS, OCTOBER 1–
SIGAR initiated a review of DoS appropriation, obligation, and expenditure
                                                                                        DECEMBER 31, 2010
transaction data related to the INCLE from FY 2002 to the present, totaling
$2.68 billion in appropriated dollars. SIGAR officially notified DoS that it would
be conducting this audit on June 24, 2010, and held an entrance conference with                                    Total: 105
DoS on August 19, 2010. Although DoS agreed to locate the correct contacts
necessary to identify and pull the appropriate data, it has not yet provided this
information to SIGAR. On December 28, 2010, SIGAR sent a letter to DoS inquir-
ing when this data would be provided. At the time this report went to press,
SIGAR had not received a response.                                                                      Preliminary          Full
                                                                                                        Investigation        Investigation
                                                                                                        52                   51
SIGAR INVESTIGATIONS
During this reporting period, SIGAR opened 35 new cases and participated in
joint investigations that resulted in the payment of $22 million in unpaid wages
to Afghan workers and $11 million in unpaid taxes to the GIRoA, $500,000 in cost                                               Assessment
savings, the recovery of stolen equipment, the arrest of one contractor for brib-                                              2
ery, and the proposed debarment of two individuals and two companies. SIGAR
investigators also continued to work closely with investigators and prosecutors
from the Afghan Attorney General’s Office to identify and prioritize appropriate        FIGURE 1.2
cases for joint investigative efforts.
   SIGAR is conducting 105 criminal and civil investigations of waste, fraud, and       SIGAR INVESTIGATIONS: NEW INVESTIGATIONS,
abuse of U.S. reconstruction dollars in Afghanistan. As of December 31, 2010,           OCTOBER 1–DECEMBER 31, 2010
SIGAR is conducting 2 assessments, 52 preliminary investigations, and 51 full
investigations. SIGAR closed 7 investigations during this quarter.                                               Total: 35
   Approximately 54% of SIGAR’s open investigations focus on contract and
procurement fraud, 26% on alleged bribery and corruption, and 20% on other
criminal allegations, such as theft. Figure 1.1 shows the status of all open investi-                          Procurement/
                                                                                                               Contract Fraud
gations. Figure 1.2 shows the new investigations by type.                                                      19
   SIGAR ended the first quarter of FY 2011 with 32 staff assigned to the
Investigations directorate. Of these, 16 special agents are assigned to                                Theft                             Other
                                                                                                       4            Public               2
Afghanistan, and 8 are based at SIGAR Headquarters.                                                                 Corruption
                                                                                                                    9
                                                                                          Assessment
SIGAR Working with Afghan Law Enforcement                                                 1
SIGAR investigators continue to work closely with Task Force 2010, which was
established to identify contractors and subcontractors who may be diverting             Source: SIGAR Investigations Directorate, 1/18/2011.

funds to the insurgency or other criminal organizations. SIGAR also collaborated
with the Afghan Shafafiyat (“Transparency”) Investigative Unit (ASIU), a joint
U.S.-Afghan investigations team that focuses on investigating, arresting, and




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011           19
SIGAR OVERSIGHT




prosecuting Afghan citizens involved in contract fraud. SIGAR is one of several
U.S. federal law enforcement agencies working in close cooperation with pros-
ecutors and investigators from the Afghan Attorney General’s Office to identify
and prioritize appropriate cases for joint investigative efforts.
   During this quarter, the ASIU adopted four SIGAR-initiated investigations
of Afghan companies and citizens alleged to have committed fraud or abuse in
connection with reconstruction projects. An ongoing ASIU investigation, involv-
ing Supreme Fuels Trading FZE and Critical Logistic Support resulted in the
recovery of $22 million in unpaid wages for 4,000 Afghan employees and $11
million in back taxes for the GIRoA. SIGAR investigators participated in numer-
ous settlement discussions with the companies. SIGAR agents and other U.S. law
enforcement representatives will receive Letters of Appreciation from the ASIU
for their support in this negotiated settlement.

Joint Investigation Results in Arrest of Contractor in India
A joint investigation conducted by SIGAR, the USAID Office of Inspector General,
the Federal Bureau of Investigation, the International Contract Corruption Task
Force, and the National Procurement Fraud Task Force resulted in the arrest of
a senior construction manager for an intergovernmental organization working
in Afghanistan. This contractor, an Australian citizen, was arrested on October
12, 2010, at the airport in New Delhi, India, and is awaiting extradition to the
United States.
   The contractor was indicted in the U.S. District Court of Columbia on August 19,
2010. The indictment, which was initially sealed by the court, was unsealed on
October 12, 2010. The indictment alleges that the contractor solicited a bribe for
awarding subcontracts funded by USAID. The maximum penalty for the bribery
charge is 10 years in prison and a $250,000 fine.

SIGAR Investigative Efforts Lead to Proposed Debarments
SIGAR received a number of complaints through SIGAR’s Hotline alleging that
two companies owned and operated by Americans—K5 Global and Bennett &
Fouch LLC—failed to pay a number of Afghan subcontractors before closing the
companies’ offices and leaving Afghanistan.
   SIGAR shared the complaints with its partners in the ICCTF in Afghanistan
and consolidated the complaints into a related criminal investigation. Based on
information that SIGAR investigators compiled, analyzed, and provided to the U.S.
Army’s Procurement Fraud Branch, proposed debarment letters were prepared
and issued on December 27, 2010, to the two companies and to two U.S. employ-
ees in management positions with the companies. The proposed debarment
action states that the companies failed to pay for work valued at $2.55 million.




  20               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




SIGAR Investigations Initiative Saves $500,000
During an ongoing investigation, SIGAR received information alleging that the
Guryak Bridge in Kunar province, which was built with U.S. reconstruction
funds, had collapsed because of substandard construction. SIGAR’s investiga-
tion determined that the bridge had been built with CERP funds under a contract
with an Afghan contractor.
   The Provincial Reconstruction Team (PRT) that had contracted for the con-
struction of the bridge was not aware that it had collapsed until SIGAR provided
them with pictures and the location. After confirming that the bridge had col-
lapsed, the PRT advised SIGAR that the bridge was no longer under warranty
and that a solicitation for repair would be issued. However, a document review
conducted by SIGAR’s Investigations and Audit directorates determined that the
bridge was still under warranty. After reviewing SIGAR’s information, the PRT
agreed to pursue the warranty issue with the Afghan contractor.
   The original amount paid for the bridge was approximately $1.68 million;
SIGAR was informed that the solicitation for the repair of the bridge would have
been valued at $500,000.
   This investigation is expanding to include another bridge in the same area that
is also in danger of collapse owing to alleged substandard construction.

SIGAR Investigations Lead to Recovery of Stolen Equipment
SIGAR is investigating what is alleged to be a large, organized ring involved in
the systematic theft of U.S. goods and equipment and warehousing of the stolen
property in and around Kabul, Kandahar, and Bagram Air Force Base. In Bagram
and throughout Parwan province, SIGAR investigators are working closely
with elements of the Army task force that is responsible for military security
operations in the Bagram Security Zone. The task force has a number of law
enforcement professionals under contract to mentor the ANP.
   This quarter, in Parwan province, elements of the ANP working with the
task force discovered two large freight containers loaded with U.S. construction
tools and machines worth $532,000, as well as several new four-wheeled utility
vehicles. The ANP made the discovery after detaining two subjects—
one Pakistani and one Afghan. SIGAR agents—together with law enforce-
ment professionals from the task force, and U.S. Army Criminal Investigation
Command—determined that the equipment was stolen U.S. property. SIGAR
agents are investigating the group suspected to be responsible for the theft of
these containers and for what is alleged to be large amounts of reconstruction
materials and other U.S.-purchased property and equipment.

Outreach of SIGAR Investigations Nets New Cases
During this reporting period, SIGAR special agents and investigative analysts
conducted fraud awareness presentations in Parwan, Nangarhar, Khowst,
Panjshir, and Kapisa provinces. These presentations are part of SIGAR’s ongoing
outreach and fraud awareness program. As a result of these presentations, one




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011        21
                                                            SIGAR OVERSIGHT




FIGURE 1.3                                                  FIGURE 1.4


SOURCE OF SIGAR HOTLINE COMPLAINTS,                         STATUS OF SIGAR HOTLINE COMPLAINTS: OCTOBER 1–DECEMBER 31, 2010
OCTOBER 1–DECEMBER 31, 2010
                                                                                                                               Total: 131
                        Total: 131

                                                                    Closed                                                                                               73
                                                              Referred Out                                         26
                          E-mail
                                                                 Assigned                                     23
                          109
                                                            Coordinationa                  9

                                                                                                       20                           40                    60                  80

                                Phone
                                                            a. Case has been reviewed, and SIGAR is obtaining additional information.
                                15
                                                            Source: SIGAR Investigations Directorate, 1/12/2011.

              Walk-in                Written (not e-mail)
              4                      3
                                                            criminal investigation was initiated, another allegation received was integrated
Source: SIGAR Investigations Directorate, 1/12/2011.        into an existing SIGAR investigation, and information received pertaining to a
                                                            security matter was referred to the appropriate U.S. agency.

                                                            SIGAR Hotline and Complaints Management System
                                                            This quarter, the SIGAR Hotline and Complaints Management System (HCMS)
                                                            received 131 complaints—an increase of 6 from the previous quarter. The num-
                                                            ber has grown for the fourth consecutive quarter. Since becoming operational
                                                            in January 2009, the HCMS has received 464 reports of alleged fraud, waste, and
                                                            abuse of U.S. funds for Afghanistan reconstruction. The sources and disposition
                                                            of the complaints received this quarter are shown in Figure 1.3 and Figure 1.4.

                                                            SIGAR BUDGET
                                                            Since 2008, when SIGAR was established, the Congress has appropriated $55.8
                                                            million to cover the organization’s operating expenses. During this period, the
                                                            Congress has nearly doubled the amount of funding for the reconstruction of
                                                            Afghanistan. From 2002 through 2008, the Congress provided $29.23 billion for
                                                            Afghanistan reconstruction; since 2008, it has appropriated an additional $26.47
                                                            billion. President Obama has asked for $16.2 billion more for Afghanistan’s
                                                            reconstruction in the FY 2011 budget request. This would bring the total U.S.
                                                            investment in the reconstruction of Afghanistan to nearly $72 billion.
                                                               To provide oversight of the expanding reconstruction effort, SIGAR has
                                                            steadily increased its staff. SIGAR’s budget request of $35.6 million for FY 2011
                                                            will enable the organization to continue to grow and provide the oversight
                                                            needed to detect and deter waste, fraud, and abuse of taxpayer dollars. Table 1.3
                                                            summarizes SIGAR’s funding through FY 2010.




                                                                22                         SPECIAL INSPECTOR GENERAL                    I   AFGHANISTAN RECONSTRUCTION
                                                                 SIGAR OVERSIGHT




TABLE 1.3


SIGAR FUNDING SUMMARY ($ MILLIONS)
Appropriation                                                                                  Public Law              Appropriated        Made Available              Expires      Amount
Supplemental Appropriations for Fiscal Year 2008, H.R. 2642                                    P.L. 110-252              6/30/2008             6/30/2008          6/30/2008              2.0
Supplemental Appropriations for Fiscal Year 2008, H.R. 2642                                    P.L. 110-252              6/30/2008             10/1/2008          9/30/2009              5.0
Consolidated Security, Disaster Assistance, and Continuing Appropriations Act, 2009            P.L. 110-329              9/30/2008             9/30/2008          9/30/2010              9.0
Supplemental Appropriations, for Fiscal Year 2009, H.R. 2346                                   P.L. 111-32               6/24/2009             6/24/2009          9/30/2010              7.2
Supplemental Appropriations, for Fiscal Year 2009, H.R. 2346                                   P.L. 111-32               6/24/2009             6/24/2009          9/30/2010             (7.2)a
Consolidated Appropriations Act, 2009, H.R. 3288                                               P.L. 111-117            12/16/2009              10/1/2009          9/30/2010            23.0
FY10 Supplemental Disaster Relief and Summer Jobs, H.R. 4899                                   P.L. 111-212              7/29/2010             10/1/2010          9/30/2011              7.2
Continuing Appropriations Act, 2011, H.R. 3081                                                 P.L. 111-242              9/30/2010             10/1/2010          9/30/2011              4.0
2nd Continuing Appropriations Act, 2011, H.J. Res. 101                                         P.L. 111-290              12/4/2010             12/4/2010          9/30/2011              0.9
3rd Continuing Appropriations Act, 2011, H.J. Res. 105                                         P.L. 111-317            12/18/2010            12/19/2010           9/30/2011              0.2
4th Continuing Appropriations Act, 2011, H.R. 3082                                             P.L. 111-322            12/22/2010            12/22/2010           9/30/2011              4.5
Total                                                                                                                                                                                  55.8
a. Congress rescinded $7.2 million of funds made available for SIGAR in 2009 (Title XI in P. L. 111-32) and then made them available again—through September 30, 2011—in P.L. 111-212 in 2010.




SIGAR STAFF
This quarter, SIGAR’s staff grew from 117 to 122. Taking into account the
President’s requests for significant increases in reconstruction funding, SIGAR
plans to continue hiring experienced auditors and investigators throughout the
coming year. Depending on its funding, SIGAR’s goal is to have 180 full-time
employees in FY 2011.
    Through its agreements with the U.S. Embassy in Kabul and USFOR-A,
SIGAR is authorized to fill 45 positions in Afghanistan: 33 at the Embassy and
12 at military bases in the field. SIGAR staff are now working at five locations in
Afghanistan. When this report went to press, SIGAR had 31 full-time positions
filled in Afghanistan. SIGAR also employs two foreign service nationals in its
Kabul office. In addition, SIGAR supports its work with staff assigned on short-
term temporary duty in Afghanistan. SIGAR typically has from 4 to 10 employees
in Afghanistan on temporary duty at any given time.




             REPORT TO THE UNITED STATES CONGRESS                      I   JANUARY 30, 2011                           23
              Training for Security
              The shura president of Pusht-e Rod district discusses
              security with the Farah Chief of Police, the Masaw Afghan
              Local Police commander, and the U.S. Task Force Arrow com-
              mander after an Afghan Local Police recruitment ceremony
              on January 1, 2011. The ceremony culminated six weeks of
              training that prepared more than 130 Afghans to secure lo-
              cal villages in the district. (ISAF photo, MSgt Brian D. Smith)




24   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
2   AFGHANISTAN
    OVERVIEW




        25
           AFGHANISTAN OVERVIEW




   “In Afghanistan, we remain focused
 on the three areas of our strategy: our
   military effort to break the Taliban’s
 momentum and train Afghan forces so
they can take the lead; our civilian effort
  to promote effective governance and
development; and regional cooperation,
  especially with Pakistan, because our
     strategy has to succeed on both
           sides of the border.”
                        —U.S. President Barack Obama




           Source: President Barack Obama, “Statement by the President on the Afghanistan-Pakistan Annual Review,” 12/16/2010.




               26                        SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                           AFGHANISTAN OVERVIEW




AFGHANISTAN OVERVIEW
Three significant events this quarter will impact the direction of the U.S. recon-
struction effort in 2011:
• the agreements reached at the North Atlantic Treaty Organization (NATO)
   summit in November 2010
• the U.S. Administration’s annual review of its strategy for Afghanistan and
   Pakistan, which was completed in December 2010
• the enactment of the National Defense Authorization Act (P.L. 111-383),
   which President Obama signed into law on January 7, 2011
Taken together, these events established or clarified reconstruction objectives,
created a timeline for the GIRoA to take over full responsibility for security, and
provided legislation to define and support critical aspects of the U.S. reconstruc-
tion effort going forward. The emphasis over the next year will be on building
Afghan capacity and ensuring that reconstruction projects are sustainable.
   SIGAR’s FY 2011 audit plan, described in Section 1 of this report, is focused
on identifying waste, fraud, and abuse of taxpayer dollars and determining
whether U.S.-funded projects are achieving their intended outcomes and can
be sustained.

NATO SUMMIT IN LISBON ESTABLISHES TRANSITION
TIMELINE
During this reporting period, the United States, its partners in the international
community, and the Government of the Islamic Republic of Afghanistan (GIRoA)
set a timeline for the GIRoA to take full responsibility for security by the end
of 2014. To accomplish the transition, the United States and the international
community will devote most of their resources to building the Afghan National
Security Forces (ANSF), improving Afghan capacity to govern, and establishing a
foundation for sustainable economic development.
    At the NATO summit in November, the 48 nations contributing to the NATO-
led International Security Assistance Force (ISAF) in Afghanistan, together with
the GIRoA, agreed to begin to turn over security operations to the ANSF in some
districts and provinces this year, and to complete this transition by the end of
2014. They also vowed to remain committed to supporting Afghanistan long after
the transition. The United States, which has nearly 102,000 troops on the ground,
is the largest contributor to ISAF. U.S. forces account for about 82,000 of the
nearly 132,000 personnel reporting to ISAF.1



         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011          27
AFGHANISTAN OVERVIEW




    The November 20, 2010, declaration, issued at the end of the summit, stated
that NATO is entering a new phase in its mission and that “the process of transi-
tion to full Afghan security responsibility and leadership in some provinces and
districts is on track to begin in early 2011, following a joint Afghan and NATO/
ISAF assessment and decision.”2 The declaration also cautioned that the tran-
sition “will be conditions-based, not calendar-driven, and will not equate to
withdrawal of ISAF troops.”3
    Although the NATO declaration identified strengthening the ANSF as its core
mission, it also emphasized the importance of the international civilian effort,
including the work of the Provincial Reconstruction Teams (PRTs), to build
Afghan governing capacity and provide long-term development assistance.
Noting that corruption poses a serious challenge for the GIRoA, the declaration
stressed the importance of continued effort to “improve governance, strengthen
the rule of law, and ensure sustainable economic growth.”4
    According to summit participants, if Afghanistan is to achieve lasting stabil-
ity, it must develop a process that allows for the reconciliation and reintegration
of insurgents. The participants welcomed Afghan-led initiatives such as the
Consultative Peace Jirga, the High Peace Council, and the Afghan Peace and
Reintegration Program. They said they would “continue to support Afghan-
led efforts to reconcile and reintegrate those members of the insurgency who
renounce violence, cut links with terrorist groups, and accept the Afghan consti-
tution.”5 The declaration reiterated the international community’s commitment to
human rights, particularly the rights of women.
    The U.S. government’s annual review of its strategy in Afghanistan and
Pakistan incorporated the agreements reached at the NATO Summit.

U.S. POLICY UNCHANGED FOLLOWING REVIEW OF
U.S. STRATEGY IN AFGHANISTAN AND PAKISTAN
In December 2010, the Administration completed the Afghanistan and Pakistan
Annual Review, which examined all aspects of U.S. policy in the region. The
review concluded that the United States has made significant progress toward
achieving the core goals of disrupting, dismantling, and defeating al-Qaeda in
Afghanistan and Pakistan, as well as denying the Taliban the ability to overthrow
the GIRoA. The review attributed the progress to the accelerated deployment of
U.S. and international military and civilian resources that began in July 2009. It
said the strategy developed in 2009 was achieving its objectives and had created
the conditions “to begin a responsible reduction of U.S. forces in July 2011.”6
The late U.S. Special Representative to Afghanistan and Pakistan, Ambassador
Richard C. Holbrooke, was a principal architect of the strategy and participated
in the review. President Barack Obama noted that the review “reflected the dedi-
cation of Ambassador Richard Holbrooke, whose memory we honor and whose
work we’ll continue.”7




  28               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                             AFGHANISTAN OVERVIEW




   In his statement about the review, President Obama noted that “the challenge
remains to make our gains durable and sustainable.”8 U.S. resources will be chan-
neled into four critical areas:
 • the military effort to break the Taliban’s momentum and train Afghan forces
    to take the lead in providing security
 • the civilian effort to promote effective governance and economic
    development
 • regional cooperation, especially with Pakistan
 • achieving a durable and favorable political resolution to the conflict
Reconstruction will continue to emphasize building the ANSF to enable the
Afghan National Army (ANA) and the Afghan National Police (ANP) to assume
responsibility for Afghanistan’s security by the end of 2014. However, President
Obama warned that for “these security gains to be sustained over time, there is
an urgent need for political and economic progress in Afghanistan.”9 Therefore,
the U.S. government will continue to fund reconstruction programs that help
Afghanistan improve national and subnational governance, reduce corruption,
and support efforts to achieve a political solution to the conflict. The United
States will also fund focused investments in infrastructure that provide a founda-
tion for economic development.10
   Building on the transition plan announced by NATO and the goals of the U.S.
strategy, the U.S. civilian and military leadership in Afghanistan has developed a
joint civilian-military campaign plan for 2011. According to the U.S. Embassy Kabul,




President Barack Obama makes a surprise visit to service members and civilians at Bagram
Air Base on December 3. This quarter, the Administration completed a comprehensive review
of Afghanistan policy, which found significant progress toward meeting U.S. goals. President
Obama noted the continuing challenge of making these gains “durable and sustainable.” (U.S.
Army photo, SSgt Lorie Jewell)




          REPORT TO THE UNITED STATES CONGRESS      I   JANUARY 30, 2011              29
AFGHANISTAN OVERVIEW




a final draft of the plan is ready to be signed by Ambassador Karl Eikenberry and
General David Petraeus.
    The FY 2011 National Defense Authorization Act includes several provisions
to support the U.S. reconstruction strategy and increase oversight of contractors.

FY 2011 NATIONAL DEFENSE AUTHORIZATION ACT
ADDRESSES RECONSTRUCTION ISSUES
On January 7, 2011, President Obama signed the FY 2011 NDAA (P.L. 111-383).
In addition to authorizing more than $11.6 billion to fund the development of
the ANSF, the NDAA authorized the creation of a new infrastructure program to
support the U.S. counter-insurgency effort in Afghanistan. It also gave the DoD
authority to fund reintegration activities. The legislation established new require-
ments to improve oversight of contractors. Addressing growing concerns about
sustainability, the provisions related to the Commander’s Emergency Response
Program (CERP) and the new infrastructure program require implementing agen-
cies to show how proposed reconstruction projects will be sustained.

Legislation Limits CERP Funding and Establishes New
Infrastructure Program
The NDAA extends CERP for one year, authorizes up to $400 million for CERP
in Afghanistan in FY 2011, and limits the cost of individual CERP projects to $20
million. It further requires the Secretary of Defense to notify the Congress not
less than 15 days before obligating CERP funds for any project in Afghanistan
that is expected to cost $5 million or more. The notification must include the fol-
lowing elements:11
 • the location, nature, and purpose of the proposed project, including how the
   project is intended to advance the military campaign for Afghanistan
 • the budget and implementation timeline for the proposed project
 • a plan for the sustainment of the proposed project
   The law reflects congressional concern that DoD was using CERP to fund
large scale projects to support its counter-insurgency strategy rather than for the
original purpose—to implement small-scale projects to enable military com-
manders to meet the urgent humanitarian relief and reconstruction needs within
their areas of responsibility.
   In October 2009, SIGAR’s audit of DoD’s internal controls over CERP funds
found that CERP was increasingly being used to fund large infrastructure proj-
ects of $500,000 or more. At the time, SIGAR pointed out that although large
projects accounted for only 3% of all CERP projects, they consumed more than
67% of CERP funds. SIGAR observed that large projects pose increased risks for
CERP for three reasons:12
 • These projects usually take several years to complete.
 • CERP program managers have been trained to implement small projects with
   short timeframes, not complex projects with long timeframes.




  30                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                           AFGHANISTAN OVERVIEW




• Given the relatively short military rotations in Afghanistan, it is difficult to
  maintain the continuous management and oversight needed to successfully
  complete more complicated projects.
   USFOR-A disagreed that using CERP for large projects poses management
risks, pointing out that most of the large contracts were to build roads, which
are easier to manage than other kinds of projects.13 However, SIGAR’s audit this
quarter of 69 CERP projects in Laghman province—valued at $53 million—found
that the highest-cost and most complex projects, including roads, were the most
at risk of achieving questionable outcomes.14 For more information on this audit,
see Section 1.
   The FY 2011 NDAA authorized the creation of a new fund—the Afghanistan
Infrastructure Fund (AIF)—to be the primary source of DoD funding for large
development and reconstruction projects in Afghanistan.15 The legislation allows
DoD to put up to $400 million of its FY 2011 operations and maintenance funds
into the AIF, which will support a joint DoD/DoS infrastructure program.16

Afghanistan Infrastructure Program
The FY 2011 NDAA authorizes the Secretaries of Defense and State to establish
a program to jointly develop high-priority, large infrastructure projects in sup-
port of the civil-military campaign in Afghanistan. The Afghanistan Infrastructure
Program will be supported by the new $400 million DoD infrastructure fund and
by DoS/USAID foreign assistance resources. Both DoD and DoS must agree on
all infrastructure projects. The U.S. Army Corps of Engineers and USAID will
implement the projects. The legislation stipulates that these may include water,
power, and transportation projects, as well as other projects in support of the
U.S. counter-insurgency strategy in Afghanistan.17
    The legislation requires the Secretary of Defense to notify the Congress at least
30 days before obligating funds or transferring funds to DoS for implementing a
project under this program. The notification letter must contain a description of
the details of the project, a plan for the sustainment of the project, and a descrip-
tion of how the project supports the counter-insurgency strategy in Afghanistan.18

Funds for Reintegration Activities in Afghanistan
Under the new legislation, the Secretary of Defense may use a maximum of $50
million from DoD’s operations and management budget to support the reintegra-
tion of Afghan insurgents who pledge the following:
• to cease all support for the insurgency in Afghanistan
• to live in accordance with the Constitution of Afghanistan
• to cease violence against the GIRoA and its international partners
• that they do not have material ties to al-Qaeda or affiliated transnational ter-
   rorist organizations
The legislation requires the Secretary of Defense to issue guidance on how
DoD intends to allocate the reintegration funds. This guidance must include




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011           31
Afghanistan overview




mechanisms for coordination with the GIRoA and other U.S. government
agencies, and mechanisms to track rates of recidivism among Afghans who
participate in the reintegration program.19

SIGAR To Provide Recommendations on Oversight of Contractors
Engaged in Activities Relating to Afghanistan
The FY 2011 NDAA requires SIGAR—in consultation with the inspectors general
of DoD, DoS, and USAID—to take the following actions within 90 days of its
enactment (by April 7, 2011):
•	 Provide recommendations on ways to increase oversight of contractors
   engaged in activities relating to Afghanistan.
•	 Report on the status of efforts of the DoD, USAID, and DoS to implement
   existing recommendations regarding oversight of these contractors.
•	 Report on the extent to which military and security contractors or subcon-
   tractors engaged in activities relating to Afghanistan have been responsible
   for the deaths of Afghan civilians.
The Congress has specifically requested recommendations to reduce U.S. reli-
ance on military and security contractors responsible for the deaths of Afghan
civilians, as well as Afghan militias or other armed groups that are not part of the
ANSF.20 Other provisions of the law require contracting authorities to provide
sufficient oversight of private security contractors (PSCs) to ensure that these
contractors are fulfilling the terms of their contracts and complying with regula-
tory requirements.21
   As part of its legislative mandate, SIGAR has begun a series of audits to assess
the management and oversight of PSCs and their performance in Afghanistan.
The first of these audits is examining a USACE contractor and is scheduled to be
completed next quarter. Because of growing concern about the activities of PSCs
and President Karzai’s decree to limit the continuing role of PSCs in Afghanistan,
SIGAR is planning audits on several PSCs providing security for U.S. reconstruc-
tion efforts and their compliance with U.S. and Afghan legal requirements.

SIGAR Looking Forward
During 2010, the international community and the GIRoA held a series of meet-
ings—the international conference in London at the end of January, the Kabul
Conference in July, and the NATO Summit in Lisbon in November­—to set the
stage for the GIRoA to assume responsibility for security and economic develop-
ment. The NATO Summit and the U.S. Administration’s strategic review signaled
that the transition in the security sector would start this year and conclude
in 2014.
   The transition plan depends on developing Afghan capacity in every sector, but
particularly in the security sector. Of the more than $56 billion that the Congress
has appropriated for reconstruction since 2002, approximately $29 billion (more
than 52%) has gone to develop the ANSF. More than $11.6 billion (nearly 62%) of
the nearly $18.8 billion that the President has asked the Congress to appropriate




  32                Special inspector general   I   Afghanistan reconstruction
                          AFGHANISTAN OVERVIEW




for reconstruction in FY 2011 would go to training, equipping, and building facili-
ties for the ANSF.
   SIGAR developed its FY 2011 audit plan to ensure that it provides oversight
of the reconstruction programs that the United States provides the greatest
resources for and considers most critical to achieving its strategic objectives in
Afghanistan. Thus, 6 of SIGAR’s 16 ongoing audits are assessing aspects of the
U.S. effort to build the ANSF. They include audits of high-priority construction
projects, such as the $161 million Kabul Military Training Center and the $83
million Afghan Defense University, as well as reviews of ANP personnel manage-
ment and ANSF accountability for vehicles provided by the United States.
   The rest of the funding would largely fund programs to promote good gov-
ernance and economic development. SIGAR is also conducting a variety of
contract and program audits that assess a range of reconstruction activities.
They include an audit of USAID contracts to build local governing capacity as
well as reviews of U.S.-funded programs to develop Afghanistan’s banking and
agriculture sectors. For a summary of SIGAR’s ongoing audits, see Section 1.
   SIGAR investigators will continue to work closely with other federal agencies
and with Afghan law enforcement bodies to detect and investigate allegations of
contract and procurement fraud, corruption, and other criminal activity related
to the abuse of U.S. reconstruction dollars. This collaboration is beginning to
produce results. This quarter, at the request of the Afghan Shafafiyat Investigative
Unit (ASIU), a joint U.S.-Afghan investigative team, SIGAR participated in negotia-
tions with two companies that resulted in the repayment of $22 million in unpaid
wages for 4,000 Afghan workers and $11 million in unpaid taxes to the GIRoA.
   Throughout this year, SIGAR auditors and investigators will remain focused
on detecting and deterring waste, fraud, and abuse of U.S. reconstruction dol-
lars. SIGAR will also be assessing the degree to which U.S. taxpayer dollars are
supporting sustainable programs that are helping the United States achieve its
reconstruction objectives.




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011          33
              Breaking Ground
              Excavation begins on a new biogas plant in Kabul province in
              December, observed by members of the Afghan Renewable
              Energy Department and contractors. The plant will serve as
              a training and testing facility for future plants throughout
              the country. Expanding the use of renewable energy is a key
              part of the U.S. stabilization strategy for Afghanistan. (USAF
              photo, SSgt Jordan Jones)




34   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
3   RECONSTRUCTION
    UPDATE




       35
            RECONSTRUCTION UPDATE




      “Going forward, there must be
    a continued focus on the delivery
of basic services, as well as transparency
   and accountability. We will also fully
support an Afghan political process that
  includes reconciliation… And we will
 forge a new strategic partnership with
 Afghanistan next year, so that we make
     it clear that the United States is
        committed to the long-term
       security and development of
            the Afghan people.”
                      —U.S. President Barack Obama




            Source: White House, “Statement by the President on the Afghanistan-Pakistan Annual Review,” 12/16/2010.




                36                        SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
               RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents a holistic view of reconstruction efforts in Afghanistan during
this reporting period. Updates on accomplishments, challenges, and local initia-
tives provide context for the oversight that is needed in reconstruction efforts.
Sidebars throughout the section identify SIGAR audits—both completed and
ongoing—related to those efforts; for ongoing audits, cross-references direct the
reader to more information in Section 1.
   Section 3 is divided into six subsections: Status of Funds, Security, Governance,
Economic and Social Development, Counter-Narcotics, and Anti-Corruption. The
Security, Governance, and Economic and Social Development subsections mirror
the three pillars reflected in the Prioritization and Implementation Plan announced
by the Government of the Islamic Republic of Afghanistan (GIRoA) in 2010 and
originally set forth in the 2008 Afghanistan National Development Strategy. The
Counter-Narcotics and Anti-Corruption subsections focus on key issues identified
in both documents.

TOPICS
Section 3 discusses six broad topics: historical and current funding information,
security conditions, governance activities, economic and social development
programs, counter-narcotics initiatives, and anti-corruption efforts.
   The Status of Funds subsection contains a comprehensive discussion of
the monies appropriated, obligated, and disbursed for Afghanistan reconstruc-
tion. It includes specific information on major U.S. funds and international
contributions.
   The Security subsection details U.S. efforts to bolster the Afghan National
Security Forces and discusses U.S. and international efforts to improve security
in the country. This subsection focuses on programming to improve the Afghan
National Army and Afghan National Police, including training, equipping, and
infrastructure development.
   The Governance subsection provides an overview of the GIRoA’s progress
toward achieving good governance. This subsection focuses on the resolution
of the September 2010 elections, the status of reintegration and reconciliation
programming, and human rights development.
   The Economic and Social Development subsection looks at reconstruction
activities by sector, ranging from agriculture and energy to health services. It
provides a snapshot of the state of the economy and updates on progress in



         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011          37
RECONSTRUCTION UPDATE




regulating financial networks, achieving fiscal sustainability, and delivering
essential services.
   The Counter-Narcotics subsection describes U.S. and GIRoA efforts to combat
the drug trade in Afghanistan, including interdiction, alternative development, and
eradication. It also provides updates on poppy cultivation and narcotics trafficking.
   The Anti-Corruption subsection describes U.S. and GIRoA initiatives to com-
bat corruption, including descriptions of anti-corruption agencies and their roles.

METHODOLOGY
Section 3 was compiled using information and data from open sources and U.S.
agencies. All data and information is attributed to the reporting organization in
endnotes to the text or notes to the tables and figures; because multiple organiza-
tions provide the data, numbers may conflict. Except for references to SIGAR
audits or investigations in the text or in sidebars, SIGAR has not verified this
data and it does not reflect SIGAR opinions. For a complete discussion of SIGAR
audits and investigations this quarter, see Section 1.

Data Call
The data call is a series of questions directed to U.S. agencies about their contri-
butions and involvement in reconstruction programming, and the state of affairs
in Afghanistan. The U.S. agencies that participated in the data call for this quar-
terly report include the following:
 • Department of State
 • Department of Defense
 • U.S. Agency for International Development
 • U.S. Department of the Treasury
A preliminary draft of the report was provided to the responding agencies prior to
publication to allow these agencies to verify and clarify the content of this section.

Open-Source Research
Open-source research draws on the most current, publicly available data from
reputable sources. A representative list of sources used in this quarterly report
includes the following:
 • U.S. agencies represented in the data call
 • International Security Assistance Force
 • United Nations (and relevant branches)
 • International Monetary Fund
 • World Bank
 • Asia Foundation
 • GIRoA ministries and other Afghan government organizations
Most of the open-source research is included in the preliminary draft that is
distributed to agencies participating in the data call for review before this report
is published.




  38                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                               GRAPHICS KEY




UNDERSTANDING THE GRAPHICS
All figures and tables report data for this quarter, except where identified in titles or notes.



BAR CHARTS                                                            HEAT MAPS
This report discusses many funds and projects with                    Heat maps assign colors to provinces, based on
dollar values ranging from millions to billions. To                   pertinent data. Each color represents a data set,
provide an accurate graphical representation of these                 defined in a legend; darker colors represent larger
numbers, some bar graphs appear with a break (a                       numbers, lighter colors show smaller numbers.
wavy line) to indicate a jump between zero and a
larger number.


     $500                         $200

     $450
                                  $150
     $400
                                  $100
     $350

                                   $50                                                                         0
                                                                                                               1–20
                                                                                                               21–40
       $0                           $0                                                                         41–200
                                                                                                               201–429
            Bar chart with a             Bar chart without
             break in scale              a break in scale


DISTINGUISHING BILLIONS AND MILLIONS                                  FUNDING MARKERS
Because this report details funding in both billions                  Funding markers identify individual funds discussed
and millions of dollars, it uses a visual cue to distin-              in the text. The agency responsible for managing the
guish the two measurement units. Dollars reported in                  fund is listed in the tan box below the fund name.
billions are represented in blue, and dollars reported
in millions are depicted in green.




                                                                                                  ESF



                                                                                                 USAID



       Pie Chart in Billions         Pie Chart in Millions




         REPORT TO THE UNITED STATES CONGRESS       I   JANUARY 30, 2011             39
TITLE OF THE SECTION




 40    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                    STATUS OF FUNDS




STATUS OF FUNDS
To fulfill SIGAR’s legislative mandate, this section details the status of U.S. funds                                         As shown in Appendix B, the U.S. President
appropriated, obligated, and disbursed for reconstruction activities in Afghanistan. At                                       has requested more than $18.77 billion
press time, complete appropriation data for these funds was not available for FY 2011                                         for reconstruction activities for FY 2011;
because Continuing Resolutions were in effect. Some agencies reported amounts                                                 if approved, it would bring the total
                                                                                                                              cumulative funding to nearly $74.88 billion.
received through the Continuing Resolutions; that data is reflected in the graphics
for the pertinent fund. As of September 30, 2010, the United States had appropri-
ated approximately $56.10 billion for relief and reconstruction in Afghanistan since
FY 2002. This cumulative funding total is based on data reported by agencies and
amounts appropriated in FY 2010. This total has been allocated as follows:
• nearly $29.35 billion for security
• more than $16.15 billion for governance and development
• more than $4.49 billion for counter-narcotics efforts
• nearly $2.08 billion for humanitarian aid
• more than $4.03 billion for oversight and operations
Figure 3.1 shows the major U.S. funds that contribute to these efforts.

FIGURE 3.1


U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                        FUNDING SOURCES (TOTAL: $56.10)
                                                                                                                               ASFF: Afghanistan Security Forces Fund
       ASFF                 CERP                 DoD CN               ESF                INCLE                 Other
                                                                                                                               CERP: Commander’s Emergency
     $27.83                 $2.64                 $1.51              $11.14              $2.85                $10.13           Response Program

                                                                                                                               DoD CN: DoD Drug Interdiction and
                                                          AGENCIES
                                                                                                                               Counter-Drug Activities
                                                                                     Department of
               Department of Defense (DoD)                           USAID                               Distributed to
                                                                                      State (DoS)
                        $31.98                                       $11.14              $2.85
                                                                                                        Multiple Agenciesa     ESF: Economic Support Fund

                                                                                                                               INCLE: International Narcotics Control
Note: Numbers affected by rounding. Data is as of 9/30/2010.
a. Multiple agencies include DoJ, DoS, USAID, Treasury, and USDA.
                                                                                                                               and Law Enforcement
Sources: DoD, response to SIGAR vetting, 10/22/2010; DoD, responses to SIGAR data call, 10/20/2010, 10/15/2010, 10/6/2010,
10/14/2009, and 10/1/2009; FY 2010 Supplemental; FY 2010 Defense Explanatory Statement; DoS, responses to SIGAR data call,
10/15/2010 and 10/12/2010; Treasury, response to SIGAR data call, 10/12/2010; OMB, responses to SIGAR data call, 10/19/2010
                                                                                                                               Other: Other Funding
and 4/19/2010; USAID, responses to SIGAR data call, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call,
7/7/2009; USDA, response to SIGAR data call, 4/2009.




              REPORT TO THE UNITED STATES CONGRESS                   I   JANUARY 30, 2011                         41
                                                                     STATUS OF FUNDS




                                                                     U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
  ASFF     CERP DoD CN             ESF      INCLE                    As of September 30, 2010, cumulative appropriations for relief and reconstruc-
                                                                     tion in Afghanistan totaled approximately $56.10 billion. This total can be divided
                                                                     into five major categories of reconstruction funding: security, governance and
            DoD                USAID         DoS
                                                                     development, counter-narcotics, humanitarian, and oversight and operations. For
                                                                     complete information regarding U.S. appropriations, see Appendix B.
                                                                        As shown in Figure 3.2, cumulative appropriations as of FY 2010 increased
The amount provided by the five major U.S.
                                                                     by nearly 41.4% over cumulative appropriations as of FY 2009, to approximately
funds represents nearly 82.0% (more than
$45.98 billion) of total reconstruction                              $56.10 billion. Since FY 2002, security efforts have received the largest cumula-
assistance in Afghanistan since FY 2002.                             tive appropriations. Appropriations for security (nearly $29.35 billion) account
Of this amount, nearly 84.7% (more than                              for more than 52.3% of total U.S. reconstruction assistance. In FY 2010, security
$38.94 billion) has been obligated, and                              had a large gain in cumulative appropriations over FY 2009 (more than 45.4%),
nearly 70.3% (nearly $32.31 billion) has                             followed by governance and development (nearly 38.7%), and counter-narcotics
been disbursed. The following pages provide                          (more than 27.9%).
additional details on these funds.                                      Figure 3.3 on the facing page displays annual appropriations by funding cat-
                                                                     egory from FY 2002 to FY 2010. The bars show the dollar amounts appropriated,
                                                                     and the pie charts show the proportions of the total appropriated by category.
                                                                     These figures reflect amounts as reported by the respective agencies and
                                                                     amounts appropriated in the following legislation:
                                                                      • the FY 2010 Supplemental Appropriations Act (FY 2010 Supplemental)


FIGURE 3.2

CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF SEPTEMBER 30, 2010                                            ($ BILLIONS)


                                                                                                                                                                            $56.10
  $55
  $50
  $45
                                                                                                                                                         $39.69
   $40
   $35
   $30                                                                                                                               $29.23

   $25                                                                                                             $23.04
   $20
   $15                                                                                           $13.01
   $10                                                                         $9.53
                                                            $4.68
    $5                                   $2.08
                $1.06
    $0
                2002                     2003               2004               2005                  2006           2007              2008                   2009           2010


                        Security                 Governance/Development          Counter-Narcotics          Humanitarian          Oversight and Operations          Total
Notes: Numbers affected by rounding. Data is as of 9/30/2010.
Sources: DoD, response to SIGAR vetting, 10/22/2010; DoD, responses to SIGAR data call, 10/20/2010, 10/15/2010, 10/6/2010, 10/14/2009, and 10/1/2009; FY 2010 Supplemental; FY 2010
Defense Explanatory Statement; DoS, responses to SIGAR data call, 10/15/2010 and 10/12/2010; Treasury, response to SIGAR data call, 10/12/2010; OMB, responses to SIGAR data call, 10/19/2010
and 4/19/2010; USAID, responses to SIGAR data call, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




                                                                          42                         SPECIAL INSPECTOR GENERAL          I   AFGHANISTAN RECONSTRUCTION
                                                                 STATUS OF FUNDS




• the FY 2010 Department of Defense Appropriations Act (FY 2010 DoD
  Appropriations Act)
• the FY 2010 Departments of Transportation and Housing and Urban
  Development Related Agencies Appropriations Act (FY 2010 Consolidated
  Appropriations Act)
    As shown in Figure 3.3, appropriations for FY 2010 amounted to nearly $16.42
billion, surpassing FY 2009 levels by more than 57.0%. This is the largest amount
appropriated in a single year for the reconstruction effort.
    FY 2010 appropriations for security increased by nearly 63.5% over FY 2009
appropriations, to nearly $9.17 billion. Of the total appropriations for FY 2010,
security initiatives accounted for more than 55.8%, followed by governance
and development with more than 27.4%. Appropriations in FY 2010 for security
(nearly $9.17 billion) are the largest appropriations made in a single year for the
reconstruction effort since FY 2002.

FIGURE 3.3

APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND PERCENTAGE                               ($ BILLIONS)

                                                                                                                                                                               $16.42
        $16
        $15
        $14
        $13
        $12
        $11                                                                                                                                                 $10.46
                                                                                                                    $10.03
        $10
         $9
         $8
         $7                                                                                                                              $6.19
         $6
                                                                               $4.85
         $5
         $4                                                                                        $3.48
         $3                                                $2.60
         $2
                    $1.06               $1.01
         $1
         $0
                     2002               2003                2004               2005                2006               2007               2008                2009               2010


 Percentage




                         Security          Governance/Development              Counter-Narcotics           Humanitarian          Oversight and Operations            Total

Notes: Numbers affected by rounding. Data is as of 9/30/2010.
Sources: DoD response to SIGAR vetting, 10/22/2010; DoD, responses to SIGAR data call, 10/20/2010, 10/15/2010, 10/6/2010, 10/14/2009, and 10/1/2009; FY 2010 Supplemental; FY 2010
Defense Explanatory Statement; DoS, responses to SIGAR data call, 10/15/2010 and 10/12/2010; Treasury, response to SIGAR data call, 10/12/2010; OMB, responses to SIGAR data call, 10/19/2010
and 4/19/2010; USAID, responses to SIGAR data call, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




              REPORT TO THE UNITED STATES CONGRESS                    I   JANUARY 30, 2011                           43
                                                       STATUS OF FUNDS




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to provide
                                                       the Afghan National Security Forces (ANSF) with equipment, supplies, services,
                                                       and training, as well as facility and infrastructure repair, renovation, and con-
            DoD                                        struction.24 The primary organization responsible for building the ANSF is the
                                                       North Atlantic Treaty Organization (NATO) Training Mission - Afghanistan/
                                                       Combined Security Transition Command - Afghanistan.25
ASFF FUNDS TERMINOLOGY
                                                          DoD reported that the FY 2011 Continuing Appropriations Act provided nearly
DoD reported ASFF funds as available,                  $1.57 billion for the ASFF, bringing the total cumulative funding for this fund
obligated, or disbursed.                               to more than $29.40 billion.26 Of this amount, more than $25.43 billion has been
Available: Total monies available for                  obligated, of which nearly $23.08 billion has been disbursed.27 Figure 3.4 displays
commitments                                            the amounts made available for the ASFF by fiscal year.
Obligations: Commitments to pay monies                    DoD reported that cumulative obligations as of December 31, 2010, increased
Disbursements: Monies that have been                   by more than $1.82 billion over cumulative obligations as of September 30, 2010.
expended                                               Cumulative disbursements as of December 31, 2010, increased by more than
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                       $1.67 billion over cumulative disbursements as of September 30, 2010.28 Figure
                                                       3.5 provides a cumulative comparison of amounts made available, obligated,
                                                       and disbursed for the ASFF.



                                                       FIGURE 3.4                                                      FIGURE 3.5

                                                       ASFF AVAILABLE FUNDS BY FISCAL YEAR                             ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                                    ($ BILLIONS)

                                                                                                                                                                       Continuing
                                                                                                                                                                       Resolution
                                                       $10.0                                                           $30.0                                           $29.40

                                                                                                                                              Available                Available
                                                                                                                                                                       as of 9/30/2010
                                                                                                                                              $27.83
                                                                                                                                                                       $27.83
                                                        $8.0
                                                                                                                       $25.0                                           Obligated
                                                                                                                                              Obligated                $25.43
                                                                                                                                              $23.61                   Disbursed
                                                        $6.0                                                                                                           $23.08
                                                                                                                                              Disbursed
                                                                                                                       $20.0                  $21.41

                                                        $4.0


                                                                                                                       $15.0
                                                        $2.0



                                                          $0                                                               $0
                                                                2005 06          07      08      09      10      11             As of Sep 30, 2010        As of Dec 31, 2010

                                                       Notes: Numbers affected by rounding. FY 2011 funds are          Notes: Numbers affected by rounding. Available data is as of
                                                       operating under a continuing resolution. Funds for the entire   9/30/2010. FY 2011 funds are operating under a continuing
                                                       fiscal year had not been appropriated at press time.            resolution.
                                                       Source: DoD, response to SIGAR data call, 1/12/2011.            Source: DoD, response to SIGAR data call, 1/12/2011.




                                                           44                          SPECIAL INSPECTOR GENERAL          I   AFGHANISTAN RECONSTRUCTION
                                                         STATUS OF FUNDS




ASFF Budget Activities
DoD allocates funds to three budget activity groups within the ASFF:29                                               Budget Activity Groups: categories
 • Defense Forces (Afghan National Army, ANA)                                                                        within each appropriation or fund
 • Interior Forces (Afghan National Police, ANP)                                                                     account that identify the purposes,
 • Related Activities (primarily Detainee Operations)                                                                projects, or types of activities financed
Funds for each budget activity group are further allocated to four sub-activity                                      by the appropriation or fund
groups: Infrastructure, Equipment and Transportation, Training and Operations,
                                                                                                                     Sub-Activity Groups: accounting
and Sustainment.30
                                                                                                                     groups that break down the command’s
   As of December 31, 2010, DoD had disbursed nearly $23.08 billion for ANSF
                                                                                                                     disbursements into functional areas
initiatives. Of this amount, more than $14.80 billion was disbursed for the ANA
and nearly $8.16 billion was disbursed for the ANP; the remaining nearly $0.12
billion was directed to related activities.31                                                                      Sources: DoD, “Manual 7110.1-M Department
                                                                                                                   of Defense Budget Guidance Manual,” accessed
   As shown in Figure 3.6, of the funds disbursed for the ANA, the largest por-                                    9/28/2009; Depar tment of the Navy, “Medical Facility
                                                                                                                   Manager Handbook,” p. 5, accessed 10/2/2009.
tion—more than $6.66 billion—supported Equipment and Transportation. Of the
funds disbursed for the ANP, the largest portion—more than $2.48 billion—also
supported Equipment and Transportation, as shown in Figure 3.7.32




FIGURE 3.6                                                FIGURE 3.7

ASFF DISBURSEMENTS FOR THE ANA                            ASFF DISBURSEMENTS FOR THE ANP
By Sub-Activity Group,                                    By Sub-Activity Group,
FY 2005–December 31, 2010 ($ BILLIONS)                    FY 2005–December 31, 2010 ($ BILLIONS)


                     Total: $14.80                                              Total: $8.16


                                                                               Equipment and
                                                                               Transportation
                                                                               $2.48
             Equipment and Sustainment
             Transportation $4.26                                      Infrastructure    Sustainment
             $6.66                                                     $1.52             $2.34




         Training and              Infrastructure                   Training and
         Operations                $2.48                            Operations
         $1.40                                                      $1.81


Notes: Numbers affected by rounding. Numbers are as of    Notes: Numbers affected by rounding. Numbers are as of
12/31/2010.                                               12/31/2010.
Source: DoD, response to SIGAR data call, 1/12/2011.      Source: DoD, response to SIGAR data call, 1/12/2011.




             REPORT TO THE UNITED STATES CONGRESS         I   JANUARY 30, 2011                         45
                                                        STATUS OF FUNDS




                                                        COMMANDER’S EMERGENCY RESPONSE PROGRAM
           CERP                                         The Commander’s Emergency Response Program (CERP) enables U.S. command-
                                                        ers in Afghanistan to respond to urgent humanitarian relief and reconstruction
                                                        requirements in their areas of responsibility by supporting programs that will
           DoD
                                                        immediately assist the local population. Funding under this program is intended
                                                        for small projects that are estimated to cost less than $500,000 each.33 Projects
CERP FUNDS TERMINOLOGY
                                                        with cost estimates exceeding $1.00 million are permitted, but they require
                                                        approval from the Commander of U.S. Central Command; projects over
OMB reported CERP funds as appropriated.                $5 million require approval from the Deputy Secretary of Defense.34
Appropriations: Total monies available for
commitments
                                                        Status of Funds
                                                        As of December 31, 2010, DoD reported that the total cumulative funding for
DoD reported CERP funds as appropriated,
obligated, or disbursed.                                CERP amounted to nearly $2.64 billion.35 DoD reported that of this amount,
Appropriations: Total monies available for              more than $1.99 billion had been obligated, of which nearly $1.54 billion has
commitments                                             been disbursed.36 Figure 3.8 shows CERP appropriations by fiscal year.
Obligations: Commitments to pay monies                     DoD reported that cumulative obligations as of December 31, 2010 increased
Disbursements: Monies that have been                    by more than $64.04 million over cumulative obligations as of September 30,
expended                                                2010. Cumulative disbursements as of December 31, 2010, increased by more
                                                        than $205.97 million over cumulative disbursements as of September 30, 2010.37
Sources: OMB, response to SIGAR data call, 4/19/2010;
DoD, response to SIGAR data call, 4/14/2010.            Figure 3.9 provides a cumulative comparison of amounts appropriated,
                                                        obligated, and disbursed for CERP projects.


                                                        FIGURE 3.8                                                            FIGURE 3.9

                                                        CERP APPROPRIATIONS BY FISCAL YEAR                                    CERP FUNDS, CUMULATIVE COMPARISON
                                                        ($ MILLIONS)                                                          ($ BILLIONS)

                                                                                                                                                  Appropriated                Appropriated
                                                                                                                                                                              as of 9/30/2010
                                                        $1,000                                                                $2.5                $2.64
                                                                                                                                                                              $2.64


                                                          $800                                                                $2.0                Obligated                   Obligated
                                                                                                                                                  $1.93                       $1.99

                                                                                                                                                                              Disbursed
                                                          $600                                                                $1.5                                            $1.54
                                                                                                                                                   Disbursed
                                                                                                                                                   $1.33
                                                          $400                                                                $1.0


                                                          $200                                                                $0.5


                                                            $0                                                                  $0
                                                                 2004 05        06      07     08      09     10                      As of Sep 30, 2010         As of Dec 31, 2010

                                                        Notes: Data may include inter-agency transfers. Numbers affected by     Notes: Numbers affected by rounding. Amounts reported as
                                                        rounding. FY 2011 funds had not been appropriated at press time.        provided by DoD and OMB. FY 2011 funds had not been
                                                        Sources: DoD, response to SIGAR data call, 1/18/2011; OMB,              appropriated at press time.
                                                        response to SIGAR data call, 10/19/2010.                                Sources: DoD, responses to SIGAR data call, 1/18/2011 and
                                                                                                                                10/20/2010; OMB, response to SIGAR data call, 10/19/2010.




                                                            46                          SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                               STATUS OF FUNDS




DOD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DoD’s Drug Interdiction and Counter-Drug Activities fund (DoD CN) support                                                                            DoD CN
efforts to stabilize Afghanistan by combating the drug trade and related activi-
ties. The DoD CN provides support to the counter-narcotics effort by supporting
military operations against drug traffickers; expanding Afghan interdiction opera-                                                            DoD
tions; and building the capacity of Afghan law enforcement—including Afghan
Border Police—with specialized training, equipment, and facilities.38                                                             DoD CN FUNDS TERMINOLOGY
   DoD reported no change in funding data as of December 31, 2010, from that
reported as of September 30, 2010. The total cumulative funding for DoD CN                                                        DoD reported DoD CN funds as appropriated,
amounted to more than $1.51 billion.39 Of this amount, more than $1.43 billion                                                    obligated, or disbursed.
had been obligated and disbursed.40 Figure 3.10 displays DoD CN appropriations                                                    Appropriations: Total monies available for
                                                                                                                                  commitments
by fiscal year and Figure 3.11 shows the cumulative amounts appropriated, obli-
                                                                                                                                  Obligations: Commitments to pay monies
gated, and disbursed for DoD CN-funded initiatives.
                                                                                                                                  Disbursements: Monies that have been
                                                                                                                                  expended

                                                                                                                                  Source: DoD, response to SIGAR data call, 4/13/2010.




FIGURE 3.10                                                   FIGURE 3.11


DOD CN APPROPRIATIONS BY                                      DOD CN FUNDS, CUMULATIVE COMPARISON
                                                              ($ BILLIONS)
FISCAL YEAR ($ MILLIONS)
                                                                                    Appropriated                Appropriated
                                                                                                                as of 9/30/2010
$400                                                          $1.50                 $1.51
                                                                                                                $1.51

$350
                                                              $1.45
$300                                                                                Obligated                   Obligated
                                                                                    $1.43                       $1.43
                                                              $1.40                 Disbursed                   Disbursed
$250
                                                                                    $1.43                       $1.43

$200
                                                              $1.35

$150

                                                              $1.30
$100

 $50

   $0                                                            $0
        2004     05     06      07     08     09      10                  As of Sep 30, 2010       As of Dec 31, 2010

Notes: Data may include inter-agency transfers. Numbers        Notes: Numbers affected by rounding. Amounts reported as
affected by rounding. DoD reported that there was no change    provided by DoD. DoD reported that there was no change in data
in data since 9/30/2010. FY 2011 funds had not been            since 9/30/2010. FY 2011 funds had not been appropriated at
appropriated at press time.                                    press time.
Sources: DoD, response to SIGAR data call, 1/10/2011; DoD,     Sources: DoD, responses to SIGAR data call, 1/10/2011 and
response to SIGAR vetting, 10/22/2010; H.R. 4899, FY 2010      10/6/2010; DoD, response to SIGAR vetting, 10/22/2010; H.R.
Supplemental Appropriations Act, 7/29/2010.                    4899, FY 2010 Supplemental Appropriations Act, 7/29/2010.




               REPORT TO THE UNITED STATES CONGRESS                   I   JANUARY 30, 2011                           47
                                                        STATUS OF FUNDS




                                                        ECONOMIC SUPPORT FUND
                               ESF                      Economic Support Fund programs advance U.S. interests by helping countries
                                                        meet short- and long-term political, economic, and security needs. ESF programs
                                                        support counter-terrorism; bolster national economies; and assist in the develop-
                              USAID                     ment of effective, accessible, independent legal systems for a more transparent
                                                        and accountable government.41
ESF FUNDS TERMINOLOGY                                      As of December 31, 2010, USAID reported that the total cumulative funding
                                                        for ESF amounted to more than $11.14 billion.42 Of this amount, more than $9.57
USAID reported ESF funds as appropriated,               billion had been obligated, of which nearly $6.74 billion had been disbursed.43
obligated, or disbursed.                                Figure 3.12 shows ESF appropriations by fiscal year.
Appropriations: Total monies available                     USAID reported that cumulative obligations as of December 31, 2010, increased
for commitments                                         by nearly $16.45 million over cumulative obligations as of September 30, 2010.
Obligations: Commitments to pay monies
                                                        Cumulative disbursements as of December 31, 2010, increased by more than
Disbursements: Monies that have been
                                                        $459.83 million over cumulative disbursements as of September 30, 2010.44
expended
                                                        Figure 3.13 provides a cumulative comparison of the amounts appropriated,
Sources: OMB, response to SIGAR data call, 4/19/2010;   obligated, and disbursed for ESF programs.
USAID, response to SIGAR data call, 4/15/2010.




                                                        FIGURE 3.12                                                  FIGURE 3.13

                                                        ESF APPROPRIATIONS BY FISCAL YEAR                            ESF FUNDS, CUMULATIVE COMPARISON
                                                        ($ BILLIONS)                                                 ($ BILLIONS)



                                                                                                                                            Appropriated                  Appropriated
                                                        $3.5                                                         $11.0                  $11.14
                                                                                                                                                                          as of 9/30/2010
                                                                                                                                                                          $11.14

                                                        $3.0                                                         $10.0
                                                                                                                                            Obligated                     Obligated
                                                                                                                                            $9.55                         $9.57
                                                        $2.5                                                          $9.0


                                                                                                                      $8.0
                                                        $2.0

                                                                                                                      $7.0                                                Disbursed
                                                        $1.5
                                                                                                                                            Disbursed                     $6.74
                                                                                                                      $6.0                  $6.28
                                                        $1.0

                                                                                                                      $5.0
                                                        $0.5


                                                          $0                                                            $0
                                                               2002 03 04 05 06 07 08 09 10                                     As of Sep 30, 2010            As of Dec 31, 2010

                                                        Notes: Data may include inter-agency transfers. Numbers       Notes: Data may include inter-agency transfers. Numbers affected
                                                        affected by rounding. Amounts are as provided by USAID and    by rounding. Amounts are as provided by USAID and in the FY 2010
                                                        in the FY 2010 Supplemental. FY 2011 funds had not been       Supplemental. FY 2011 funds had not been appropriated at press
                                                        appropriated at press time.                                   time.
                                                        Sources: USAID, response to SIGAR data call, 1/20/2011;       Source: USAID, response to SIGAR data call, 1/20/2011; H.R.
                                                        H.R. 4899, FY 2010 Supplemental Appropriations Bill,          4899, FY 2010 Supplemental Appropriations Bill, 7/29/2010.
                                                        7/29/2010.




                                                            48                        SPECIAL INSPECTOR GENERAL                I    AFGHANISTAN RECONSTRUCTION
                                                                      STATUS OF FUNDS




INTERNATIONAL NARCOTICS CONTROL
AND LAW ENFORCEMENT                                                                                                                                                                 INCLE

The U.S. Bureau of International Narcotics and Law Enforcement Affairs (INL)
manages an account for advancing rule of law and combating narcotics produc-
                                                                                                                                                                                     DoS
tion and trafficking—the INCLE account. INCLE supports several INL program
groups, including police, counter-narcotics, and rule of law and justice.45
   INL reported that the FY 2011 Continuing Appropriations Act provided more                                                                INL FUNDS TERMINOLOGY
than $4.59 million for INCLE initiatives, bringing the total cumulative funding for
                                                                                                                                            INL reported INCLE and other INL funds
INCLE to nearly $2.86 billion.46 Of this amount, nearly $2.47 billion had been obli-
                                                                                                                                            as allotted, obligated, or liquidated.
gated, of which more than $1.75 billion has been liquidated.47 Figure 3.14 displays
                                                                                                                                            Allotments: Total monies available
INCLE allotments by fiscal year.                                                                                                            for commitments
   INL reported that cumulative obligations as of December 31, 2010, increased                                                              Obligations: Commitments to pay monies
by more than $47.33 million over cumulative obligations as of September 30,                                                                 Liquidations: Monies that have been expended
2010. Updated data as of December 31, 2010, resulted in an approximate $111.03
million decrease from the liquidation figure reported as of September 30, 2010.48                                                           Source: DoS, response to SIGAR data call, 4/9/2010.

Figure 3.15 provides a cumulative comparison of amounts allotted, obligated,
and liquidated for INCLE.

FIGURE 3.14                                                       FIGURE 3.15

INCLE ALLOTMENTS BY FISCAL YEAR                                    INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                       ($ BILLIONS)



                                                                                                                          Continuing
$700                                                               $3.0                                                   Resolution
                                                                                            Allotted                      $2.86
                                                                                            $2.85                         Allotted
$600                                                                                                                      as of 9/30/2010
                                                                                                                          $2.85
                                                                   $2.5
                                                                                           Obligated                      Obligated
$500
                                                                                           $2.42                          $2.47

$400
                                                                   $2.0
                                                                                           Liquidated
$300                                                                                       $1.86                           Liquidated
                                                                                                                           $1.75

$200                                                               $1.5


$100


  $0                                                                 $0
       2002 03 04 05 06 07 08 09 10                                             As of Sep 30, 2010          As of Dec 31, 2010

Notes: Data may include inter-agency transfers. Numbers           Notes: Data may include inter-agency transfers. Numbers affected
affected by rounding. FY 2011 funds are operating under a         by rounding. Amounts reported as provided by DoS and the FY 2010
continuing resolution. Funds for the entire fiscal year had not   Supplemental. Updated data resulted in a lower liquidated figure than
been appropriated at press time.                                  that reported as of 9/30/2010. FY 2011 funds are operating under a
                                                                  continuing resolution.
Sources: DoS, response to SIGAR data call, 1/10/2011;
H.R. 4899, FY 2010 Supplemental Appropriations Bill,              Sources: DoS, responses to SIGAR data call, 1/10/2011
7/29/2010.                                                        and 10/15/2010; H.R. 4899, FY 2010 Supplemental Appropriations
                                                                  Bill, 7/29/2010.




               REPORT TO THE UNITED STATES CONGRESS                         I     JANUARY 30, 2011                           49
                                       STATUS OF FUNDS




                                       INTERNATIONAL RECONSTRUCTION
SIGAR AUDIT                            FUNDING FOR AFGHANISTAN
                                       In addition to assistance provided by the United States, the international
This quarter, SIGAR announced a        community provides a significant amount of funding, to support reconstruction
new audit that will focus on the use   efforts in Afghanistan. The GIRoA uses some of this funding to pay staff sala-
and accountability of U.S. funds       ries. In an audit published last quarter, SIGAR found that neither donors nor the
contributed to the Afghanistan         GIRoA could identify how many employees receive support or how much they
Reconstruction Trust Fund. For more    were paid.49 A February 2010 estimate from the Ministry of Finance (MoF), based
information, see Section 1, p. 13.     on incomplete data, indicated salary support of more than $45 million for 6,600
                                       civilian employees and technical advisors. This support is not provided through
                                       trust funds, the preferred mechanism for providing donor assistance, according
                                       to the MoF.50
                                          Contributions that are provided through trust funds are pooled and then dis-
                                       tributed for reconstruction activities. The two main sources of such funding are
                                       the Afghanistan Reconstruction Trust Fund (ARTF) and the Law and Order Trust
                                       Fund for Afghanistan (LOTFA).51

                                       Contributions to the Afghanistan Reconstruction Trust Fund
                                       As of November 21, 2010, the World Bank reported that the ARTF had funded
                                       17 active projects with a combined commitment value of over $861.00 million,
                                       of which $683.27 million has been disbursed.52 Figure 3.16 and Figure 3.17 show
                                       contributions by status and donor as of October 22, 2010. These contributions
                                       maintain the trust fund’s status as the largest contributor to the GIRoA budget
                                       for both operating costs and development programs.53
                                          Contributions are divided into two funding channels—the Recurrent Cost
                                       (RC) Window and the Investment Window. According to the January 2011
                                       “Quarterly Country Update,” disbursements from the RC Window amounted
                                       to $2.15 billion as of November 21, 2010. The RC Window supports the operat-
                                       ing costs of the GIRoA because domestic revenues continue to be insufficient
                                       to support its recurring costs.54 The Investment Window supports the costs of
                                       development programs. The World Bank reported that the disbursement rates
                                       for the Investment Window have been high—79% of total investments as of
                                       November 21, 2010.55




                                         50               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                     STATUS OF FUNDS




FIGURE 3.16                                                                                                         FIGURE 3.17

ARTF CONTRIBUTIONS FOR SY 1389 BY DONOR, AS OF OCTOBER 22, 2010 ($ MILLIONS)                                        ARTF CONTRIBUTIONS FOR SY 1389,
                                                                                                                    AS OF OCTOBER 22, 2010
                                           Total Commitments: $954             Total Paid In: $356                  Proportion of Amounts Paid In to
                                                                                                                    Amounts Committed ($ MILLIONS)

   United States                                    215                                                       590
                                                                                                                                   Total Commitments: $954
 United Kingdom 24                        118

         Germany 0               67
                                                                                                                                             Paid In
          Norway 0          39                                                                                                               $356
     Netherlands 33        33
          Canada 27 27
                                                                                                                                            Remaining
          Sweden 21 24                                                                                                                      $599
         Australia 23 23

            Spain 0 15
                                                                                                                    Notes: Numbers affected by rounding. SY = solar year;
           Others 14 19                                                                                             SY 1389 runs from 3/21/2010 to 3/20/2011.
                                                                                                                    Source: World Bank, “ARTF: Administrator’s Report on
                                                                                                                    Financial Status as of October 22, 2010,” p. 1.
                   0                100              200               300              400            500   600


                                                           Paid In           Commitments
Note: Numbers affected by rounding. SY=solar year; SY 1389 runs from 3/21/2010 to 3/20/2011.
Source: World Bank, “ARTF: Administrator’s Report on Financial Status as of October 22, 2010,” p. 1.




Contributions to the Law and Order Trust Fund for Afghanistan
The Combined Security Transition Command - Afghanistan reported that as of
October 2010, the United States had contributed approximately $545.6 million
to the LOTFA.56 A large portion of these funds paid the salaries of approximately
113,572 ANP personnel—a principal priority of the trust fund.57
   The LOTFA is currently in its sixth phase, which is effective from January 1,
2011, through March 31, 2013.58




              REPORT TO THE UNITED STATES CONGRESS                       I   JANUARY 30, 2011                51
TITLE OF THE SECTION




 52    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                  SECURITY




SECURITY
This quarter, the White House released its annual review of U.S. strategy on
Afghanistan and Pakistan. The review reiterated two core objectives: to deny
al-Qaeda a safe haven and to deny the Taliban the ability to overthrow the                   SIGAR AUDIT
Government of the Islamic Republic of Afghanistan (GIRoA). It reported that in
                                                                                             In its audit of an ASFF-funded program to
some areas al-Qaeda leadership has been weakened and Taliban momentum has
                                                                                             build and maintain ANSF facilities, SIGAR
been arrested; however, these gains were characterized as “fragile and revers-
                                                                                             found that, despite the considerable
ible.”59 The Administration found that conditions are being set that will enable
                                                                                             funding ($11.4 billion through FY 2012)
the Afghan National Security Forces (ANSF) to assume the security lead in early
                                                                                             and large number of facilities (nearly
2011 and “a responsible, conditions-based U.S. troop reduction in July 2011.”60
                                                                                             900 provided or planned), CSTC-A had
   A declaration by the heads of members of the North Atlantic Treaty
                                                                                             not developed a long-term construction
Organization (NATO) in November 2010 also pointed to early 2011—after a joint
                                                                                             plan, thus placing the program at risk
GIRoA/NATO assessment—as the starting point for transitioning responsibil-
                                                                                             of not meeting ANSF strategic and
ity and leadership for security to the Afghans. Like the White House review, the
                                                                                             operational needs. For more information,
Lisbon declaration emphasized that the transition will be “conditions-based” and
                                                                                             see Section 1, p. 5.
“not calendar driven.” During the summit, NATO leaders expressed ongoing com-
mitment to the mission in Afghanistan and anticipated that Afghan forces will
assume “full responsibility for security across the whole of Afghanistan” toward
the end of 2014.61
   As of December 31, 2010, the United States had appropriated nearly $29.35 billion
for security.62 Most of these funds were appropriated through the Afghanistan             “ISAF and the Afghan
Security Forces Fund (ASFF) and provided through the Combined Security                 government have…adopted
Transition Command - Afghanistan (CSTC-A) for building, equipping, training, and         a robust partnering plan
sustaining the ANSF.63
                                                                                           that has accelerated
SECURITY GOALS                                                                          tactical-level development
This quarter, the force strength of the ANSF was 265,137, according to CSTC-A:         of Afghan forces’ leadership
149,553 in the Afghan National Army (ANA) and 115,584 in the Afghan National                and units, although
Police (ANP).64 Although the number of assigned personnel increased for the              significant development
ANA, it declined for the ANP because of a recalculation of ANP assigned force
strength based on a new quantitative method. Several factors—including a reas-
                                                                                            challenges remain.”
sessment of how personnel in training and personnel categorized as “enablers”                —“Overview of the Afghanistan and
are counted—contributed to the lower number and were the impetus for the                              Pakistan Annual Review”
development of the new method.65 In an ongoing audit, SIGAR is evaluating the
extent to which the ANP has developed accurate systems for personnel account-          Source: White House, “Overview of the Afghanistan and Pakistan
                                                                                       Annual Review,” 12/16/2010, accessed online 1/7/2011.
ing; for more information, see Section 1, p. 15.



         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011          53
                                            SECURITY




                                               In January 2010, the Joint Coordination and Monitoring Board (JCMB) called
Joint Coordination and Monitoring Board     for the ANSF to reach 305,600 personnel by October 31, 2011.66 Table 3.1 shows
(JCMB): a joint effort of the GIRoA and     changes in ANSF force strength against security goals since last quarter.
the international community to monitor
the implementation of the Afghanistan       SECURITY HIGHLIGHTS
Compact, which was the result of the 2006   According to the U.S. Department of Defense (DoD), progress across Afghanistan
London Conference.                          remains uneven. In key operational areas, such as those around Kabul and in
                                            Helmand where coalition forces had a robust presence in the second half of
                                            2010, DoD reported moderate progress in improving security.67 In his December
                                            2010 quarterly report to the Security Council, the United Nations (UN) Secretary-
                                            General reported that anti-government elements have expanded into the northern
                                            parts of the country, where there is a smaller international military presence, and
                                            have sustained high levels of activity there.68
                                               As noted in SIGAR’s October 2010 quarterly report, President Hamid Karzai
                                            decreed in August 2010 that all national and international private security con-
                                            tractors (PSCs) would be disbanded within four months. On December 6, 2010,
                                            two weeks before the decision would have taken effect, the Afghan Ministry of
                                            Interior (MoI) announced that PSCs could continue to operate, although with
                                            some restrictions that prevent them from conducting roadblocks and searches,
                                            actions that fall within the authority of Afghan law enforcement agencies.69

                                            SECURITY INCIDENTS
                                            In his December 2010 report, the UN Secretary-General stated that the number
                                            of security incidents this quarter was 66% higher than during the same period in
                                            2009, but that the number of incidents decreased after the recent national elec-
                                            tion. Other security incidents included the continued use of improvised explosive
                                            devices, abductions, and assassinations against civilians by anti-government
                                            elements. In addition, the Secretary-General reported that abductions of NGO
                                            staff and suicide attacks continue. During the quarter, suicide attacks occurred
                                            three times a week on average, mainly targeting international military forces,
                                            police, and government officials; complex suicide attacks also continued,
                                            primarily targeting large international military bases.70



                                            TABLE 3.1


                                            STRATEGIC PRIORITIES FOR SECURITY
                                            Priority                               Current Goal                               Status
                                            Afghan National Army                   134,000 troops by 10/2010                  149,553 troops (as of 12/21/2010)
                                                                                   171,600 troops by 10/2011
                                            Afghan National Police                 109,000 personnel by 10/2010               115,584 personnel (as of 11/21/2010)
                                                                                   134,000 personnel by 10/2011
                                            Notes: Numbers affected by rounding.
                                            Sources: ISAF-IJC, ANP PERSTAT, 12/30/2010; CSTC-A, response to SIGAR data call, 10/4/2010; CSTC-A, response to SIGAR data call
                                            1/4/2011; NTM-A, response to SIGAR data call, 7/6/2010.




                                               54                         SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                                                   SECURITY




AFGHAN NATIONAL ARMY
As of December 21, 2010, the ANA’s strength was 149,553 personnel—an increase
of 11,389 since September 22, 2010—according to CSTC-A. The ANA’s goal is to
reach 171,600 personnel by October 2011 and 240,000 by October 2013.71
   Of the current total, 85,804 personnel were assigned specifically to the ANA’s
six corps, the Special Operations Force (SOF) division, and the 111th Capital                                                           Tashkil: Lists of personnel and equipment
Division, as of December 30, 2010—according to a recent International Security                                                          requirements used by the MoD and MoI
Assistance Force (ISAF) Joint Command (IJC) assessment based on Ministry of                                                             that detail authorized staff positions
Defense (MoD) reporting.72 This is a small increase (445) since September 30,                                                           and equipment items, in this case for
2010.73 As of December 20, 2010, the number of personnel authorized by the                                                              the ANA and the ANP. (The word means
MoD’s most recent tashkil for the ANA’s six corps, the SOF division, and the                                                            “organization” in Dari.)
111th Capital Division is 96,604.74
   However, the number of assigned troops does not necessarily equal the
                                                                                                                                      Source: GAO, GAO-08-661, “Afghanistan Security,”
number of troops present for duty, as shown in Figure 3.18. Troops who are                                                            6/2008, p. 18.

absent without leave (AWOL) make up a significant share of the percentage of
troops who are not available for duty, as shown in Figure 3.19. According to
IJC, the ANA is addressing attendance issues; as of November 2010, the MoD
had empowered ANA commanders to take steps to reverse negative trends and
increase attendance.75


                                                                                                                                      FIGURE 3.19
FIGURE 3.18
                                                                                                                                      ANA PERSONNEL PRESENCE,
ANA PERSONNEL STRENGTH, SELECTED COMPONENTS,                                                                                          SELECTED COMPONENTS,
ON DECEMBER 30, 2010                                                                                                                  ON DECEMBER 30, 2010 (PERCENT)


   203rd Corps                                 10,562                                               6,109                   16,671    203rd Corps                63                 22        15

   205th Corps                                  10,801                                            4,929                15,730         205th Corps                 69                    18    13

   201st Corps                             8,819                                2,961        11,780                                   201st Corps                     75                 15 10

   215th Corps                        7,335                               4,235             11,570                                    215th Corps                63                17        20

   209th Corps                    6,308                      2,088       8,396                                                        209th Corps                     75                 13 12

   207th Corps                   5,540                    2,228      7,768                                                            207th Corps                 71                    15 14

  111th Capital                 5,145                  1,942         7,087                                                           111th Capital
                                                                                                                                                                      73                13 14
       Division                                                                                                                           Division

   SOF Division             4,304                 2,498        6,802                                                                  SOF Division               63                12        25

                  0                            5,000                           10,000                         15,000                                 0      20         40     60        80        100


                                               Present for Duty           Assigned but Not Present for Duty                                               PDY               AWOL             Other

Note: Assigned but Not Present for Duty includes medical, training, or authorized leave, as well as AWOL (absent without leave).      Notes: Numbers affected by rounding. AWOL = absent
                                                                                                                                      without leave; PDY = present for duty.
Source: ISAF-IJC, ANA PERSTAT, 12/30/2010.
                                                                                                                                      Source: ISAF-IJC, ANA PERSTAT, 12/30/2010.




              REPORT TO THE UNITED STATES CONGRESS                         I   JANUARY 30, 2011                             55
                                              SECURITY




                                                 As of November 12, 2010, the ANA had 155 “kandaks” or battalions, an increase
                                              of 42 since May 2010, according to the latest Commander’s Unit Assessment Tool
                                              (CUAT) provided by IJC. Since the September 2010 CUAT cycle, two kandaks—one
                                              from the 111th Capital Division and one from the 205th Corps—had demonstrated
                                              the ability to operate independently. In addition, 35 kandaks showed increased
                                              readiness from September to November 2010.76
                                                 According to IJC, the ANA participated in 202 major operations and 18,169
                                              partnered patrols from November 15 to December 21, 2010.77


Afghan army soldiers receive weapons
                                              ANA Training
training during boot camp at Camp Clark, in   During this quarter, 28,515 ANA personnel graduated from a wide range of train-
Paktika province, in November 2010. This      ing programs funded by the ASFF, according to CSTC-A. Of that number, 3,514
quarter, more than 28,500 ANA personnel       graduated from development courses for noncommissioned officers, and 918
graduated from a wide range of training       graduated from courses designed to train new officers or develop the skills of
programs funded by the ASFF. (ISAF photo,
                                              current officers. More than half of this quarter’s graduates had completed the
SSG Romain Beaulinette, French Army)
                                              ANA’s basic warrior training program, as shown in Figure 3.20. Several of these
                                              programs included a component for literacy training. According to CSTC-A,
                                              three contractors are providing literacy training for the ANA and the ANP. Two
                                              are Afghan-owned; the third, OT Training Solutions, uses Afghan subcontrac-
                                              tors. These contracts cover an initial year (until September 2011) and have four
                                              one-year options, with a total budget forecasted at $243 million. CSTC-A stated
                                              that the ANA’s goal is to have 30,000 personnel in training by December 2010 and
                                              60,000 in training by July 2011.78

                                              FIGURE 3.20

                                              ANA TRAINING GRADUATES BY PROGRAM


                                                  Total Graduates: 28,515                                                                  Other Training Programs: 5,104
                                                                                      Consolidated
                                                                                      Fielding Centera
                                                                                                             Infantry Basic School                                            1,061
                                                                                      5,035
                                                                                                      Up-Armored HMMWV Training                                         779
                                                  Basic                                                             Counter-Insurgency                            598
                                                  Warrior                                                             Training Courseb
                                                                                      Other Training
                                                  Training                                                   Officer Candidate School
                                                                                      Programs                                                                    558
                                                  14,862
                                                                                      5,104                 Kabul Military High School                      379
                                                                                                          Officer Development Course                        360
                                                                                      NCO                                  Mujahedeen
                                                                                                                     Integration Course                309
                                                                                      Development
                                                                                      3,514                 Other Specialized Training                                        1,060

                                                                                                                                           0                500          1,000

                                              Notes: Graduates as of 12/30/2010. HMMWV = high-mobility, multi-purpose wheeled vehicle.
                                              a. At the Consolidated Fielding Center, units form, equip, and conduct initial collective training.
                                              b. The Counter-Insurgency Training Course includes coalition forces (civilian and military) as well as ANA.
                                              Source: NTM-A/CSTC-A, response to SIGAR data call, 1/4/2011.




                                                  56                          SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                                  SECURITY




   In November, more than 1,300 ANA recruits graduated from Basic Warrior
Training in Kandahar, according to the NATO Training Mission - Afghanistan
(NTM-A). The graduates are to be deployed to the southern provinces of Uruzgan,
Helmand, Kandahar, and Zabul. Basic Warrior Training is an intensive eight-week
course in which students receive instruction in military drilling, weapons famil-
iarization, tactics, physical fitness, and literacy.79
   NTM-A also stated that on November 4, 2010, more than 4,560 men and women
competed for the 600 seats in the National Military Academy of Afghanistan’s
class of 2015. The academy, located in Kabul, was modeled after the U.S. Military
Academy.80
   On December 8, 2010, the 209th Corps opened an engineering school in Balkh,
to train ANA engineers in explosive ordnance disposal and repair of damaged
infrastructure, according to the November CUAT report provided by IJC. In addi-
tion, the Afghan Sergeants Major Academy graduated 23 ANA and ANP sergeants
major in mid-December; they will return to their units. This was the last class led
by NTM-A instructors. Future courses will be taught by Afghans, IJC stated.81

Women in the ANA
The number of women serving in the ANA has not changed since last quarter,
according to CSTC-A. As of December 31, 2010, there were 299 women—195 offi-
cers and 104 NCOs. A new class of 16 female candidates began officer training on
December 18, 2010. According to CSTC-A, the ANA’s policy is to recruit enough
female personnel to constitute up to 10% of its projected end strength.82

ANA Infrastructure
This quarter, 14 new infrastructure projects were awarded (valued at $130.5 million),
53 were ongoing (nearly $1.1 billion), 2 were completed ($7.1 million), and 6 were
terminated ($97 million), according to CSTC-A. These projects provide buildings and     SIGAR AUDIT
equipment that are necessary for the support, redeployment, and operations of the
                                                                                        In its audit of a program to build and
ANA. They include barracks, headquarters, training buildings and ranges, adminis-
                                                                                        maintain nearly 900 ANSF facilities,
trative spaces, warehouses and storage buildings, and maintenance facilities.83
                                                                                        SIGAR found that CSTC-A had not
   The largest projects include an ANA garrison in Paktika, which has an $88.7
                                                                                        developed a long-term construction
million cost to complete and is scheduled to be finished on September 30, 2011,
                                                                                        plan that identifies how facility projects
and the Afghan Defense University in Kabul, which has an $82.8 million cost to
                                                                                        meet Afghan security objectives,
complete and is scheduled to be finished on November 10, 2011.84 This quarter,
                                                                                        identifies gaps in the ability of current
SIGAR announced new audits of contracted infrastructure projects at the Kabul
                                                                                        facilities to meet security objectives,
Military Training Center and of construction at the Afghan Defense University;
                                                                                        and evaluates how planned facilities
for more information, see Section 1, page 12.
                                                                                        will help eliminate those gaps. For more
   On November 1, 2010, ITT Corporation took over responsibility for operations
                                                                                        information, see Section 1, p. 5.
and maintenance (O&M) for 110 ANA installations in all 34 provinces after being
awarded two O&M contracts by the U.S. Army Corps of Engineers (USACE) in
July 2010. The two contracts—one for facilities in the northern region, and one
for facilities in the southern region—are valued at approximately $800 million
over a five-year period. They also cover ANP police stations. Part of the contract




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011           57
                                                              SECURITY




                                                              includes an agreement that ITT Corporation will provide Afghan workers with
                                                              training in facility management and trades, including carpentry, plumbing, and
                                                              electrical work. ITT Corporation is expected to employ 4,000 workers initially,
                                                              approximately 80% of whom will be locally hired Afghans. According to USACE,
                                                              the number of ANSF facilities is increasing at a rate of approximately 10 per
                                                              month. ITT Corporation will take over O&M responsibilities at new facilities as
                                                              they open.85 Oversight of O&M contracts is part of SIGAR’s FY 2011 audit plan;
                                                              for more information, see Section 1, p. 6.

                                                              ANA Equipment
                                                              As of January 5, 2011, NATO and the international community have equipped the
  Pseudo-FMS: an adaptation of the Foreign                    ANSF with more than 450,000 weapons and more than 50 aircraft, according to
  Military Sales (FMS) Program, DoD’s                         NTM-A/CSTC-A. Coalition forces have purchased and provided the following:86
  government-to-government method for sell-                    • equipment, such as M-16 rifles, 9mm pistols, high-mobility multi-purpose
  ing U.S. defense equipment, services, and                      wheeled vehicles (HMMWVs), and light tactical vehicles
  training. As in the traditional FMS, pseudo-                 • aircraft, such as C-27 cargo planes and Mi-17 helicopters
  FMS procurements are overseen by the                         • specialized equipment, such as night-vision goggles and radios
  Defense Security Cooperation Agency. In                     In an ongoing audit, SIGAR is reviewing accountability for ANSF vehicles pro-
  contrast to the traditional FMS, DoD pur-                   vided by the United States; for more information, see Section 1, p. 15.
  chases weapons to train and equip the
                                                                 From October 1 to December 31, 2010, the ANA fielded 3,835 weapons, 392
  ANSF primarily using funds appropriated
                                                              vehicles, and 1,316 radios, with a cumulative value of $410 million, accord-
  by the Congress for the ASFF.
                                                              ing to CSTC-A. The majority of the equipment fielded by the ANA has come
                                                              from the United States, funded through the ASFF, in pseudo-FMS purchases.
Sources: GAO-09-267, “Afghanistan Weapons Accountability,”    According to CSTC-A, some former Warsaw Pact weapons are still being pro-
accessed online 10/14/2010; DSCA, “Foreign Military Sales,”
accessed online 10/16/2010.                                   cured from countries such as Bulgaria, Ukraine, and Bosnia, but these weapons
                                                              are procured through contracts awarded by U.S. Army contracting offices.
                                                              Other mechanisms or processes for getting equipment to the ANA include


                                                              TABLE 3.2


                                                              ANA WEAPONS, VEHICLES, AND RADIOS FIELDED
                                                              Type of Equipment                                  Quarter ending 9/30/2010                       Quarter ending 12/31/2010
                                                              Weapons
                                                               M16A4 rifle                                                                  4,844                                   2,857
                                                               Other weapons                                                                1,763                                    978
                                                              Vehicles
                                                               Light and medium tactical vehicles                                           1,041                                    340
                                                               Up-armored HMMWVa                                                             154                                      52
                                                              Radios
                                                               VHF radiosb                                                                  2,254                                   1,168
                                                               HF radiosc                                                                    187                                     148
                                                              a. Up-armored HMMWVs include M1151, M1152, and M1152 ambulance models.
                                                              b. Very High Frequency (VHF) radios include various configurations of Motorola or ICOM radio systems.
                                                              c. High Frequency (HF) radios include various configurations of CODAN radio systems.
                                                              Sources: CSTC-A, responses to SIGAR data call, 10/4/2010 and 1/4/2011.




                                                                 58                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                                                          SECURITY




cross-leveling (between the ANA and the ANP), the Excess Defense Articles
program, and donations from other countries.87                                                                                                     Cross-leveling: At the strategic and
   Across all categories, less equipment was fielded to the ANA this quarter than                                                                  operational levels in a theater, the process
last, as shown in Table 3.2. IJC noted a shift in focus from building the ANA to                                                                   of diverting materiel from one military
building the ANP.88                                                                                                                                element to meet the higher priority of
                                                                                                                                                   another, within a commander’s logistical
                                                                                                                                                   authority. Cross-leveling plans must include
AFGHAN NATIONAL POLICE                                                                                                                             specific reimbursement procedures.
According to the United Nations Development Programme (UNDP), eligible
ANP salaries, food allowances, and other priority projects are paid by the Law                                                                     Excess Defense Articles: a program
and Order Trust Fund for Afghanistan (LOTFA) through reimbursements to the                                                                         administered by the Defense Security
Ministry of Finance. Last quarter, the LOTFA reimbursed payments for 113,572                                                                       Cooperation Agency. Under authority
ANP personnel.89 As of October 2010, the U.S. contribution to the LOTFA was                                                                        established in the Foreign Assistance
approximately $545.6 million, according to CSTC-A.90 For more information on                                                                       Act of 1961 and the Arms Export Control
the LOTFA, see “Status of Funds” in this report.                                                                                                   Act, defense articles declared as excess
   As of November 21, 2010, the total force strength of the ANP was 115,584,                                                                       by the military can be offered to foreign
according to IJC.91 More than 460 police units provide police services in more                                                                     governments or international organizations
than 360 precincts. These units are mentored and partnered with coalition                                                                          in support of U.S. national security and
                                                                                                                                                   foreign policy objectives.
forces and receive training in marksmanship, criminal investigations, foren-
sics, and traffic control.92 The ANP includes the Afghan Uniform Police (AUP),
the Afghan Border Police (ABP), and the Afghan National Civil Order Police                                                                       Sources: DoD, “Dictionary of Military Terms,” accessed online
                                                                                                                                                 7/12/2010; DSCA, “Excess Defense Articles,” accessed
(ANCOP). ANP component strength is based on a November 21, 2010 assess-                                                                          online 1/13/2011.
ment, as shown in Table 3.3.
   According to CSTC-A, the previous method of quantifying the ANP’s assigned
force strength, which is based on data received from the MoI, resulted in exag-
gerated figures. Among the reasons for this result, CSTC-A stated, was the
double counting of more than 10,000 ANP enablers (personnel assigned to
traffic, fire and rescue, medical, training/education, counter-intelligence, counter-
narcotics, intelligence, and counter-terrorism units) over a 24-month reporting
period. In addition, CSTC-A stated that the total ANP end strength had excluded

TABLE 3.3


ANP FORCE STRENGTH, AS OF NOVEMBER 21, 2010
                                                             Authorized                    Assigned to                  Not Assigned to
                                                               (Tashkil)               Tashkil Positions               Tashkil Positions
ANP (Total Strength: 115,584)                                   122,000                          106,448                             9,136
Breakdown By ANP Components
 AUP                                                              71,018                           61,777                            4,418b
 ABP                                                              20,689                           18,994                                  —
 ANCOP                                                            11,276                            6,720                                  —
                                                                           a                                a
 Other Units                                                      19,017                           18,957                            4,718b
Note: — = not available.
a. Includes personnel assigned to MoI headquarters, anti-crime, training, counter-narcotics, logistics, medical, fire, and customs units; num-
bers based on difference between total ANP authorized and assigned figures and authorized and assigned totals for each ANP component.
b. Includes over-tashkil and initial entry students still in training, but not 7,605 non-tashkil personnel assigned to units funded by other
sources or 761 assigned to the Afghan Public Protection Force.
Sources: ISAF, PERSTAT, 10/4/2010; ISAF-IJC, PERSTAT, 11/21/2010; CSTC-A, response to SIGAR data call, 1/4/2011.




              REPORT TO THE UNITED STATES CONGRESS                             I   JANUARY 30, 2011                                 59
SECURITY




approximately 9,000 “over-tashkil” personnel (that is, numbers in excess of the
ANP’s authorized strength) and recruits and trainees.93 In an ongoing audit,
SIGAR is evaluating the extent to which the ANP has developed accurate sys-
tems for personnel accounting; for more information, see Section 1, p. 15.
   According to IJC, 33% of AUP personnel and 23% of ABP kandaks showed an
increase in readiness from September to November 2010. In addition, four ANP
units were operating independently.94 IJC noted that challenges to building and
maintaining the ANP include low present-for-duty (PDY) rates, an inconsistent
and uneven assignment process, and a backlog of untrained personnel. IJC stated
that possible solutions include enhancing the process for reporting and validating
PDY rates, ensuring that ANP assignments meet standards for transparency, and
continuing to reform training efforts.95

ANP Training
This quarter, 9,066 ANP personnel graduated from training courses, according
to CSTC-A; 3,826 of them completed the AUP basic patrolman course and 1,953
graduated from a three-year course for ANP officers, as shown in Figure 3.21.96 Of
the graduates this quarter, CSTC-A noted that 5,033 were assigned to AUP, 1,506
to the ABP, and 1,263 to the ANCOP.97
   In November 2010, there were 17,533 ANP personnel in literacy training,
according to CSTC-A. As mentioned earlier, three contractors are providing lit-
eracy training for the ANP and the ANA; two are Afghan-owned, and the third uses
Afghan subcontractors. These contracts cover an initial year (until September
2011) and have four one-year options, with a budget estimated at $243 million.

FIGURE 3.21

ANP TRAINING GRADUATES BY PROGRAM

                                                               Graduates: 9,066

         AUP Basic                                                                                       3,826
         Patrolman
          Three-Year
                                                                         1,953
    Officer’s Course

        ABP Course                                              1,641

       ANCOP NCO                          770

          AUP NCO              330

    Driver’s Training       205
  Other Specialized             341
           Training
                        0       500       1,000        1,500        2,000        2,500   3,000   3,500   4,000

Source: NTM-A/CSTC-A, response to SIGAR data call, 1/4/2011.




   60                        SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                  SECURITY




CSTC-A stated that the ANP’s goal is to have 20,000 personnel in training by
December 2010 and 40,000 in training by July 2011.98
   On December 1, 2010, more than 395 ANCOP personnel completed 16 weeks of
instruction at the Central Training Center, according to NTM-A/CSTC-A. The train-
ing was conducted by Italian Carabinieri in tandem with ANP instructors.99

ANP Literacy
Achieving literacy among ANP personnel remains a challenge. As noted in SIGAR’s
October 2010 quarterly report, CSTC-A has estimated that about 4.5% of ANP per-
sonnel are literate, based on random tests and sampling.100 According to NTM-A,
literacy figures for the entire force are not available; however, a test administered
in November to 7,771 new ANP recruits revealed that only 2.24% were literate (174
recruits received a passing grade). The overall goal is for all ANP personnel to attain
third-grade reading proficiency (by Afghan educational standards); however, no
timeline for reaching this goal has yet been set.101
    Members of the ANCOP, the ANP’s elite police unit, are required to be literate. As
noted in SIGAR’s October 2010 quarterly report, however, a sampling of 242 ANCOP
personnel suggested that about 5% of the entire unit is literate. In November, 1,456
ANCOP recruits were tested; 4 received passing grades—a rate of 0.27%. NTM-A,
the NATO mission responsible for much of the ANSF’s training, recently revised the
entry procedure for the ANCOP. Semi-literate candidates (those who can read at a
first-grade level) now can join the ANCOP but cannot enter the operational force
until they have completed an intensive four-week training course to bring them up
to a second-grade reading ability. In addition, literacy training is now incorporated
into the 14-week training course for ANCOP NCOs, to ensure that they can read at a
third-grade level.102
    According to NTM-A, 17,553 ANP personnel were in literacy training in November
2010, approaching the goal of having 20,000 in training by December 2010. By July
2011, a total of 40,000 ANP personnel are expected to be in literacy training.103 In
October 2010, a contract for literacy training was put in place to meet the demand
for training approximately 70,000 ANP personnel. In November 2010, NTM-A com-
mitted $765,000 to ANP literacy training, of which $78,000 was set aside specifically
for the ANCOP. The five-year budget forecast for the entire ANSF literacy program is
approximately £487 million, as reported by NTM-A (approximately $752.8 million).104

Women in the ANP
As of December 31, 2010, there were 1,241 women serving in the ANP—50 more
than CSTC-A reported last quarter:105
• 185 officers
• 430 NCOs
• 362 enlisted women
• 264 civilians
  According to CSTC-A, the Gender Affairs Department of the MoI created a
working group to add an additional 1,000 female-coded positions to the spring



         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011            61
SECURITY




2011 (solar year [SY] 1389) tashkil. Also, when ANP Recruiting Command stood
up in spring 2010 (at the beginning of SY 1389) it included a women’s recruiting
directorate. When the female-coded tashkil positions are announced, the new
directorate will lead a recruiting campaign to meet the new goals. CSTC-A noted
that the MoI’s goal is to have 5,000 women in the ANP by 2014.106 CSTC-A and the
MoI have developed a plan to review the tashkil in order to verify true recruiting
requirements nationwide. This will involve painstaking analysis of every unit’s
tashkil for female positions, to compare numbers authorized and assigned.107

ANP Infrastructure
This quarter, DoD awarded 4 new infrastructure projects valued at $26.1 million.
In addition, 173 projects were ongoing ($688.9 million), 14 were completed ($34.6
million), and 5 were terminated ($28.9 million), according to NTM-A/CSTC-A.
These projects comprise district and company headquarters, and command,
logistical, and training centers. The largest projects (both located in Wardak)
include a national police training center, which is valued at $95.6 million and
scheduled to be finished on April 24, 2011, and a national logistics center, which
is valued at $40.1 million and scheduled to be finished on May 28, 2011.108
   On November 1, 2010, ITT Corporation took over O&M responsibilities for
219 ANP police stations in all 34 provinces. As mentioned earlier in this section,
these contracts also cover ANA facilities. ITT Corporation will take over O&M
responsibilities at new facilities as they open.109 Oversight of O&M contracts is
part of SIGAR’s FY 2011 audit plan; for more information, see Section 1, p. 6.

ANP Equipment
From October 1 to December 31, 2010, the ANP fielded 9,639 weapons, an increase
of 50% over the number fielded last quarter. Most (68%) were AK-47 assault rifles.
In addition, the ANP fielded 1,532 vehicles and 579 radios. According to CSTC-A,
the cumulative value of this equipment is approximately $303 million.110 In an
ongoing performance audit, SIGAR is reviewing the accountability for ANSF
vehicles provided by the United States; for more information, see Section 1, p. 15.
   CSTC-A noted that most of the equipment fielded by the ANP has come from
the United States, funded through the ASFF, in pseudo-FMS purchases. As is the
case in the ANA, some former Warsaw Pact weapons are still being procured from
countries such as Bulgaria, Ukraine, and Bosnia, but these weapons are procured
through contracts awarded by U.S. Army contracting offices. Other mechanisms
or processes for getting equipment to the ANP include cross-leveling (between
the ANP and ANA), the Excess Defense Articles program, and donations from
other countries. Goals and benchmarks for equipping the ANP change based on
current conditions and the strategic needs of the ANP.111 Overall, more equipment
was fielded to the ANP this quarter than last, as shown in Table 3.4.
   According to IJC, rapid growth of the ANP—owing to a shift in focus from
building the ANA to building the ANP—is putting pressure on equipment
availability in the field. The increase in personnel is outpacing the fielding of




  62               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                    SECURITY



TABLE 3.4


ANP WEAPONS, VEHICLES, AND RADIOS FIELDED
Type of Equipment                                     Quarter Ending 9/30/2010                          Quarter Ending 12/31/2010
Weapons
 AK-47 assault rifle                                                            4,345                                      6,575
 Other weapons                                                                  2,074                                      3,064
Vehicles
 Light and medium tactical vehicles                                               988                                      1,296
 Up-armored HMMWVa                                                                192                                        216
Radios
 VHF radiosb                                                                    1,128                                        579
 HF radiosc                                                                        53                                          0
a. Up-armored HMMWVs include M1151, M1152, and M1152 ambulance models.
b. Very High Frequency (VHF) radios include various configurations of Motorola or ICOM radio systems.
c. High Frequency (HF) radios include various configurations of CODAN radio systems.
Source: CSTC-A, responses to SIGAR data call, 10/4/2010 and 1/4/2011.




equipment to the Regional Commands. IJC stated that possible solutions include
filling vacant combat support positions in the tashkil; requiring fielded units to
adopt the most current logistical systems; and working with regional support
commands, ISAF, and the MoI to prioritize operational fielding support.112

ANP Local Initiatives
The Afghan Local Police (ALP) program embeds Afghan and U.S. personnel in
rural communities to establish village-level police services, improve security,
connect villages with district and provincial government institutions, and provide
development assistance, according to DoD. These small, defensive forces, which
President Karzai established in August 2010, are supported by local shuras (coun-
cils), but are controlled by the GIRoA.113
   As of December 31, 2010, the GIRoA and ISAF had established 14 ALP sites
(an increase of 6 since September), located to ensure balanced ethnic, tribal,
and geographic representation. The ALP program—in conjunction with Village
Stability Operations (VSO)—focuses on communities that have resisted the
Taliban and other insurgents, especially in areas that have had limited ANSF and
ISAF presence. A key component is the deployment of ANA Special Forces at a
number of sites, to facilitate security, development, and governance.114 For more
information on VSO, see “Governance” in this report.
   According to DoD, the ALP has produced some positive results and metrics,
though the security situation remains fragile in many areas.115 As of December
31, 2010, the ALP had established security over an area of 12,500 square kilo-
meters. DoD stated that the ALP is weakening the influence of the Taliban over
communities, and that senior Taliban leaders, including Mullah Mohammad
Omar, have expressed concern that ALP sites are undermining their rural sup-
port base. In Omar’s home province, Uruzgan, ALP sites have helped expand
the reach of security efforts. They have also had success in parts of neighboring
Daykundi, Zabul, and Kandahar.116



              REPORT TO THE UNITED STATES CONGRESS                         I   JANUARY 30, 2011                           63
                                                        SECURITY




                                                           DoD noted challenges to these efforts. For example, the Taliban and other
                                                        insurgents have intimidated and committed violence against residents at ALP
                                                        sites. Compounding this, ongoing intra-tribal and inter-tribal tensions have forced
                                                        the GIRoA to mediate disputes. Notwithstanding these issues, the GIRoA con-
                                                        tinues to establish counter-measures to insurgent actions and adopt long-term
                                                        solutions to local-level challenges, with U.S. support, according to DoD.117
                                                           The GIRoA planned for the ALP to operate for two to five years, at which
                                                        point ALP members are expected to be demobilized or transitioned into the
                                                        ANSF. In provinces such as Helmand, ALP members are transitioning into the
                                                        ANP, according to DoD.118

                                                        U.S. Support for the Ministry of Interior
                                                        The Security Assistance Office - Afghanistan (SAO-A), part of NTM-A/CSTC-A,
                                                        has been providing audits to the MoI’s Procurement Department since July 24,
                                                        2010. SAO-A has completed six contracting-related audits, covering procurement
                                                        planning, bidder eligibility, procurement proceedings, contract award proce-
                                                        dures, contract administration, and payment functions. In these audits, SAO-A
                                                        found that the lack of facilities and equipment—such as office space, office
                                                        furniture, file storage, computers, copiers, and a modern procurement system—
                                                        caused the MoI to expend an inordinate amount of effort to solicit bids, make
                                                        contract awards, and administer contracts. Furthermore, lack of work space
                                                        resulted in a lack of transparency: each office maintained only the paper files
                                                        essential for the specific function it executes.119
                                                           The Procurement Department processes contracts for food, firewood, cloth-
                                                        ing, office equipment, vehicle fuel, building rentals, and construction and repairs.
                                                        CSTC-A plans to transfer the responsibility for procuring an additional $186 million
                                                        in new requirements to the Procurement Department in SY 1390 (2010/2011)—an
                                                        approximate 133% increase over what the department procured in SY 1388.120

                                                        U.S. FORCES
                                                        According to USFOR-A, 101,872 U.S. forces were serving in Afghanistan as of
                                                        December 31, 2010—1,855 fewer than reported last quarter. These forces were
                                                        assigned as follows:121
TABLE 3.5                                               • 78,322 to ISAF
                                                        • 3,415 to NTM-A/CSTC-A
NADR FUNDING FOR AFGHANISTAN:                           • 10,316 to USFOR-A
2002–2010 ($ MILLIONS)
                                                        • 9,819 to other assignments (unspecified)
Fiscal Year       NADR Funding       Cumulative Total
2002–2007               $238.60               $238.60
2008                      $26.60              $265.20
                                                        REMOVING UNEXPLODED ORDNANCE
2009                      $48.60              $313.80   Since 2002, the U.S. Department of State (DoS) has provided more than $371.6 million
2010                      $57.80              $371.60   in funding for Non-Proliferation, Anti-Terrorism, Demining, and Related (NADR)
Total                                       $371.60     programs to Afghanistan, according to the U.S. Office of Management and Budget.
Source: OMB, response to SIGAR data call, 1/20/2011.    That funding has increased significantly since 2007, as shown in Table 3.5.122




                                                          64                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                               SECURITY




   According to DoS, the Conventional Weapons Destruction (CWD) program
provides direct funding to five Afghan non-governmental organizations (NGOs),
four international NGOs, and one U.S. company (DynCorp International) for
sustained clearance operations, removal and mitigation of abandoned and at-risk
conventional weapons (to prevent their use by insurgents), and development of
Afghan technical and managerial capacity. The DoS Bureau of Political-Military
Affairs’ Office of Weapons Removal and Abatement (PM/WRA), which manages
the program in Afghanistan, reported that this assistance includes the destruc-
tion of excess, unserviceable, and at-risk ANSF weapons and ordnance. The
program also provides technical assistance for the physical security and stock-
pile management of serviceable, on-hand ANSF weapons and ordnance.123
   The PM-WRA stated that, from October 1, 2009, to September 30, 2010, more
than 39.3 million square meters of land had been cleared by DoS-funded imple-
menting partners, as shown in Table 3.6. This accounts for nearly 20% of the
199.8 million square meters that have been cleared since 1997. In addition, these
partners have destroyed or removed more than 12,542 metric tons of stockpiled,
abandoned, at-risk, or unserviceable ordnance and ammunition.124 According
to CWD performance metrics provided by the PM-WRA, the contaminated area
in Afghanistan was reduced from approximately 670.7 million square meters
to approximately 650.7 million square meters from December 31, 2009, to
September 30, 2010.125
   According to DoS, the UN’s Mine Action Coordination Center of Afghanistan
(MACCA) has revised its strategic goals and near-term objectives to reflect a
reduced level of donor support. Consequently, MACCA has revised the antici-
pated time required to clear 90% of all known areas contaminated by mines
and explosive remnants of war. The new goal for achieving this target is 2015.
MACCA projections indicate that 70% of hazards will be reduced by March 2013.
According to DoS, this projection is based on an assumption of sustained com-
bined U.S. and international donor funding of no less than $80 million per year.126



TABLE 3.6


CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS: OCTOBER 1, 2009–SEPTEMBER 30, 2010
                                                                                                                                                 Estimated
                                      AT/AP                         UXO                         SAA         Fragments      Minefields   Contaminated Areas
Date Range                         Destroyed                   Destroyed                   Destroyed           Cleared   Cleared (m2)       Remaining (m2)
10/1–12/31/2009                         4,649                    140,480                      58,651        1,055,683    19,289,205           670,710,000
1/1–3/31/2010                           2,455                       1,943                    129,557         603,957       6,475,318          664,235,000
4/1–6/30/2010                           2,853                    249,946                     217,901         968,887       4,464,926          659,770,000
7/1–9/30/2010                           3,922                    270,793                   1,196,158        1,710,708      9,108,108          650,662,000
Total                                 13,879                     663,162                  1,602,267         4,339,235    39,337,557           650,662,000
Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition.
Source: DoS, PM-WRA, response to SIGAR data call, 1/3/2011.




             REPORT TO THE UNITED STATES CONGRESS                      I   JANUARY 30, 2011                 65
TITLE OF THE SECTION




 66    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




GOVERNANCE, RULE OF LAW, AND
HUMAN RIGHTS
As of December 31, 2010, the United States had provided more than $16.15
billion to support governance and development in Afghanistan.127 This section
focuses on the efforts of the United States, the international community, and the
Government of the Islamic Republic of Afghanistan (GIRoA) to improve gover-
nance and rule of law, including elections and election reform, local governance,
public administration, justice systems, and human rights.

OVERVIEW OF EVENTS
A number of events this quarter affected the progress of efforts to improve gov-
ernance in Afghanistan. The final results of last quarter’s Wolesi Jirga elections
were announced and proved contentious: many disagreed with the actions of
the two election commissions. The prolonged controversy created a rift between
government officials, politicians, and voters that continued at press time.
    Also this quarter, members of the North Atlantic Treaty Organization (NATO)
met in Lisbon with officials from the GIRoA to map out a framework for
increased GIRoA control of Afghanistan’s security and governance. In addition,
the High Peace Council ramped up its efforts to promote reconciliation with
and reintegration of former insurgents by choosing a leader and conducting its
first outreach events across the country. It is not yet clear how successful these
efforts will be, but the U.S. government supports the initiatives.

Elections
On November 24, 2010, after repeated delays, the Independent Election
Commission (IEC) announced the official results of last quarter’s elections for
the Wolesi Jirga, the lower house of the National Assembly (except for Ghazni
province, for which official results were announced on December 1).128 More
than a quarter of the votes were disqualified, and fewer than half of the incum-
bent members won reelection.129
   According to the U.S. Department of State (DoS), although irregularities and
fraud marred the elections, the IEC and the Electoral Complaints Commission
(ECC) worked well overall to administer them.130 At every stage, however, the
Free and Fair Election Foundation of Afghanistan (FEFA) observed many irregu-
larities that it believes necessitate electoral reform.131 FEFA submitted evidence



         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011        67
                                                            GOVERNANCE




                                                            to both electoral commissions of 890 “serious” cases of electoral irregularities,
                                                            including ballot-stuffing, intimidation of voters, use of fake voter cards, and
                                                            proxy voting.132 According to FEFA, the electoral process requires a number of
                                                            improvements:133
                                                             • greater transparency in the work of electoral institutions
                                                             • improved vetting of candidates for ties to insurgents
                                                             • greater access to election activities for election observers and candidate
                                                               representatives
                                                             • more protection for those threatened in the election process
                                                             • strengthened independence and technical capabilities for the IEC and ECC
                                                               The elections created a significant shift in the ethnic representation of the
                                                            Wolesi Jirga. Ethnic Pashtuns—Afghanistan’s largest ethnic group—lost more
                                                            than 20 seats. Insecurity in the predominantly Pashtun south and east, and lower
                                                            levels of Pashtun political organization were the primary reasons for the losses,
                                                            according to the UN.134 Those losses were particularly acute in the majority-Pash-
                                                            tun province of Ghazni, where all 11 seats went to Hazara candidates.135

                                                            Controversies
                                                            Throughout the quarter, the elections and decisions affecting their outcome
                                                            provoked controversy. IEC and ECC decisions set off numerous demonstrations
                                                            by Afghans, many of them supporters of unsuccessful candidates. Afghanistan’s
                                                            Attorney General, Mohammad Ishaq Aloko, denounced the election results
                                                            and announced investigations into the conduct of the two commissions and
                                                            the elections. In early December, the Attorney General arrested some IEC
                                                            staff members, which sparked concern from the U.S. Agency for International
                                                            Development (USAID).136
                                                               The allocation of authority to resolve electoral matters was another source
                                                            of controversy: the Attorney General’s Office asserted it had a role, although the
FIGURE 3.22
                                                            IEC and ECC claimed they had complete legal authority to make all electoral
                                                            decisions. The United Nations Assistance Mission in Afghanistan (UNAMA)
POLLING STATIONS INCLUDED AND                               supported the IEC and ECC.137 In response, President Hamid Karzai approved
EXCLUDED BY THE IEC AND ECC (PERCENT)                       the Supreme Court’s proposal to create a special five-member court to resolve
                                                            disputes related to the elections brought by candidates.138
                                                               On January 19, 2011, the special court asked President Karzai to postpone the
                           Excluded
                           16
                                                            January 23, 2011 inauguration of the National Assembly to give the court more
                                                            time for its investigations. At press time, it was not yet clear how the court’s
                                                            request would affect the incoming Wolesi Jirga.139

                           Included                         IEC and ECC Monitoring
                           84
                                                            During the election and ballot counting, the IEC conducted audits and fraud
                                                            detection and correction measures. It also recounted votes from 6,813 poll-
                                                            ing stations (38.4% of the 17,744 open stations) and subsequently excluded the
Notes: Numbers affected by rounding. At “excluded”
polling stations, some or all of the votes were excluded.   results from 2,543 stations.140 Approximately 16% of the polling places were
Source: UN, “Report of the Secretary-General,”              excluded, as shown in Figure 3.22. The IEC reported 413 candidates suspected
12/10/2010, p. 2.




                                                              68                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




of fraud to the ECC for resolution; 62 were sitting members of Parliament. In
addition, the IEC accused an unspecified number of its own officials of fraud.141
The IEC admitted that it did not sufficiently control some polling centers, which
allowed candidates, local commanders, security officials, government staff, and
others to commit fraud—sometimes in collusion with IEC staff—to promote
specific candidates.142
   The ECC and the 34 Provincial Electoral Complaints Commissions (PECCs)
received 5,860 complaints, 2,724 of which were deemed serious enough to possi-
bly affect results. The ECC’s investigations resulted in the disqualification of 118
candidates. The ECC also invalidated votes from 334 polling stations, in addition
to those invalidated by the IEC. In total, the IEC and ECC invalidated some or all
of the votes from 2,891 audited stations. These actions invalidated more than 1.3
million votes; almost 4.3 million votes were deemed valid.143 The ECC also inves-
tigated numerous allegations against candidates accused of campaign finance
abuses. As a result, 878 candidates were fined for such infractions as receiving
campaign donations in excess of permitted amounts and incurring campaign
expenses that were greater than the value of their registered property.144

Results of U.S. Support for Election Administration
U.S. support for the IEC helped the commission recruit and train approximately
105,000 polling staff members, 3,100 project staff members, and 3,150 district field
coordinators. During a two-month program conducted with U.S. assistance, the           SIGAR AUDIT
IEC registered more than 377,000 voters. U.S. assistance helped the ECC recruit        In an audit report published in Sep-
and train 500 staff to conduct investigations, case management, and legal adjudi-      tember 2009, SIGAR found that the IEC
cation. To increase awareness and participation in the elections, the United States    faced significant challenges, particularly
helped 2,000 civil educators lead voter forums and press training on how best to       for the 2010 parliamentary elections,
cover elections, as well as on the roles of government and its citizens.145            because it lacked the resources to
   As reported in SIGAR’s October 2010 quarterly report, the operating bud-            undertake elections without continued
get for the elections was $149.6 million. Funding for the operating budget was         international support. For more informa-
provided by the United States and international donors through the United              tion, see SIGAR, Audit 9-6, “Strategy
Nations Development Programme. At press time, the final cost had not yet               and Resources Needed to Sustain
been determined. USAID’s Afghanistan Presidential and Provincial Elections             Afghan Electoral Capacity,” available at
Observation Program, which had obligated $15.2 million and expended more               www.sigar.mil.
than $13 million as of December 31, 2010, funded four international observer
missions: Democracy International, National Democratic Institute, International
Republican Institute, and the Asia Foundation’s Asian Network for Free
Elections. These four missions provided 301 short-term and long-term observ-
ers in all but five provinces—Nimroz, Uruzgan, Daykundi, Laghman, and Kunar.
USAID stated that the lack of security was the greatest challenge to observing
these elections.146
   USAID’s Supporting Increased Electoral Participation program funded moni-
toring of the election and its aftermath by the National Democratic Institute,
which issued a number of recommendations to improve future elections:147
• The Wolesi Jirga should approve the appointment of IEC commissioners.
• The Wolesi Jirga should secure the independence of the ECC.



         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011          69
GOVERNANCE




• The Wolesi Jirga should launch a comprehensive review of the electoral
  process.
• The GIRoA should vigorously prosecute those responsible for election-
  related violence and electoral misconduct.
• The ECC should take steps to ensure that PECCs apply uniform procedures
  and act in a transparent manner.
• Women’s access to polling stations should be improved.
• Greater security for female candidates is needed.
• Candidate vetting must be based on established criteria and independent
  identification of illegally armed individuals.
• A national census should be conducted as soon as practicable.
• The ECC should be made into a permanent body.
• An accurate voter registry or civil registry should be prepared.

NATO Lisbon Summit
On November 19 and 20, 2010, representatives from NATO, the United States, and
GIRoA—including the U.S. and Afghan presidents—met in Lisbon. The purpose of
the meeting was to lay out a framework for the future of Afghanistan, NATO’s com-
mitment to the country, and expanded GIRoA control of security and governance.148
   In the official declaration from the summit, NATO and the GIRoA stated
that “Afghanistan is increasingly capable of exercising its leadership across the
inter-linked domains of governance, development, and security.”149 NATO also
re-affirmed its “long-term commitment to a sovereign, independent, democratic,
secure, and stable Afghanistan that will never again be a safe haven for terrorists
and terrorism, and to a better future for the Afghan people.”150
   The GIRoA reaffirmed that it would “actively carry out its security, governance,
and development responsibilities in a manner consistent with the commitments
made at the London Conference of January 2010 and the Kabul Conference of
July 2010, such as combating terrorism, strengthening the economy, address-
ing corruption, regional security and economic cooperation, and respect for
human rights, in particular the rights of women.”151 The GIRoA also promised
to continue to cooperate with its regional neighbors in various decision-making
processes. This cooperation would build on events such as the January 2010
Istanbul Summit, in which Afghanistan’s neighbors officially endorsed the pro-
cess of reconciliation with the Taliban and other insurgent groups.152
   U.S. officials expressed optimism about the results of the summit. U.S.
Ambassador Karl W. Eikenberry said that NATO’s commitment to increase
support for enhancements to Afghan leadership in governance, military, and eco-
nomic matters is a positive development. He also saw the results of the summit
as a clear plan for a transition plan to greater Afghan control.153

RECONCILIATION AND REINTEGRATION
Renewed reconciliation and reintegration efforts began in 2010, and they con-
tinued to progress this quarter. The United States supports reconciliation and




  70               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                           GOVERNANCE




reintegration and views these processes as necessary steps in establishing a long-
term political resolution.154
   Various efforts to reconcile and reintegrate Taliban forces have occurred since
the fall of the Taliban in 2001, according to a U.S. National Defense University
publication.155 The results of those efforts have been mixed; difficulties in defining
which insurgents were eligible for reconciliation as well as a lack of coordina-
tion between the many reintegration programs have contributed to the challenge
of achieving reintegration. The current program, though, is the most extensive
and best coordinated to date, according to the Office of the Secretary of Defense
(OSD); it addresses many of the lessons learned from previous efforts.156
   The Afghan people are strongly in favor of reconciliation and are optimistic
about its success, according to a November 2010 poll conducted by the Asia
Foundation. Of those surveyed, 83% favored reconciliation—a 12% improvement
from the Foundation’s October 2009 survey. A large majority (79%) agreed that
reconciliation would help stabilize the country. Women viewed reconciliation
slightly less favorably than men: 78% favored reconciliation, as opposed to 88%
of men.157

High Peace Council
This quarter, the High Peace Council conducted its first official meetings. On
October 10, 2010, former Afghan President Burhanuddin Rabbani was unani-
mously chosen to lead the Council.158 The Council’s 70 members represent every
major religious, regional, ethnic, and political group in the country. Twelve are




Members of the High Peace Council and provincial governors from southern Afghanistan
answer questions about reconciliation and reintegration during a press conference in Kandahar
City on December 6, 2010. The Council conducted three outreach events this quarter to pro-
mote public support for these two processes. (U.S. Army photo, SPC Edward A. Garibay, 16th
Mobile Public Affairs Detachment)




          REPORT TO THE UNITED STATES CONGRESS      I   JANUARY 30, 2011              71
GOVERNANCE




former officials of the Taliban regime.159 There are 10 female representatives, and
women are represented in every subcommittee of the Council.160
   From September 2010 to January 12, 2011, the Council conducted three
major regional outreach events (in Nangarhar, Herat, and Kandahar) with the
Afghan Peace and Reintegration Plan (APRP) Joint Secretariat and provincial
authorities, according to DoS. The Council used these events to garner public
and government support, explain the program, and set the conditions for the
establishment of Provincial Peace and Reintegration Committees (PPRCs).
Thirteen provinces have convened PPRCs, and 11 others were getting started,
as of December 31, 2010. According to DoS, the Council’s actions this quarter
energized public and government support for the APRP.161
   From January 4 through January 8, 2011, the Council held meetings in
Islamabad, which represented an extensive regional outreach effort, according
to OSD. The Council met with Pakistan government and opposition officials, as
well as civic and religious leaders. OSD stated that these meetings have opened
channels for continued dialogue that could improve regional relations and secure
Pakistani cooperation in future reconciliation and reintegration activities.162
   Throughout the quarter, numerous reports surfaced about the progress of
talks between the Council and various insurgent groups. However, the Taliban
has publicly denied its involvement with both the Council and the idea of negoti-
ations, labeling any reports to the contrary as propaganda.163 The United Nations
(UN) Secretary-General’s December 2010 quarterly report stated that although
the reconciliation process is difficult, “There is an increasing sense that condi-
tions for reconciliation are becoming more favorable and that there may soon
be a real opportunity for a political dialogue leading to a settlement.” The report
noted that all sides must make compromises to reach a political settlement and
that any settlement must respect the Afghan Constitution and not undermine the
achievements in human rights and democratization made in recent years.164
   On October 31, 2010, UNAMA announced it had formed a group of experts
(the Salaam Support Group) to support the High Peace Council in all aspects
of its work. UNAMA also announced it would provide logistical support for the
Council at the national and regional levels.165

Reconciliation and Reintegration Prospects
This quarter, coalition representatives were cautiously optimistic about rein-
tegration. The Commander of Regional Command-South predicted that once
the insurgency encountered sustained pressure from the International Security
Assistance Force (ISAF), especially during the winter months, elements within
those violent groups would become more willing to reintegrate.166 According
to the late Special Representative to Afghanistan and Pakistan Richard C.
Holbrooke, a growing number of Taliban members have been communicating
their willingness to reintegrate. Ambassador Holbrooke saw this development as
a product of the fact that many members are less ideological in their core beliefs
than the larger Taliban organization and are more aligned with their own smaller
organizations. This lack of extreme fundamentalism among some elements of the



  72               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE



                                                                                      FIGURE 3.23

Taliban has made some members more willing to reintegrate, especially when            DEMOBILIZATION PROCESS FOR
faced with the increased military pressure from ISAF.167                              REINTEGREES

Local Reintegration Efforts
This quarter, armed groups continued to approach local authorities at various
                                                                                                         REGISTRATION
levels throughout the county to express their willingness to disarm and rein-
tegrate through the GIRoA-led APRP, according to DoD. The APRP consists of
                                                                                              Expressed intent to reintegrate (PPRC)
three stages:168
 • outreach and negotiation
                                                                                                      Individual survey (PPRC)
 • demobilization
 • community recovery                                                                               Supply of personal details,
                                                                                                 community, employment history,
   As of January 6, 2011, the GIRoA had received pledges of approximately $150                    education/employment desires
million to support the APRP. However, the GIRoA has yet to develop the financial
mechanisms necessary to transfer those funds to provisional authorities for their                       Listing of grievances
implementation.169 ISAF and U.S. Forces - Afghanistan support the APRP through
their work with government officials, the Afghan National Security Forces                           Biometrics collection (MoI)
(ANSF), and local leaders. Fourteen provinces had established provincial com-
mittees, and an additional 13 were in the organizational process. More than 20                  Weapon registration/management
                                                                                                      (MoI, MoD) (DIAG)
district committees had been established, and many others were in the organiza-
tional process.170
                                                                                               Issuance of ID card (MoI) (DIAG/PTS)
   According to DoS, 645 individuals claiming to be militants have enrolled
in the APRP, as of December 31, 2010.171 Representatives of ISAF, the ministries
of Interior and Defense, and the National Directorate for Security assess requests
for reintegrating and record requesters’ biometric data, as well as register and
collecting weapons. In addition, assistance packages containing food and non-                             PROCESSING
food items are provided to support reintegrees for 90 days, according to the UN.
The UN saw initial signs of reintegration efforts as promising, but it is too early        Vetting by community (supported by PPRC)
to conclude that this indicates a significant trend. Furthermore, questions have
arisen about how many of those individuals are actually militants, and how                  Sharing of biometric data and intelligence
many are noncombatants lured by the assistance programs offered to reinte-                  with ISAF/Coalition Forces (TF Biometrics)

grees.172 The demobilization process for a reintegree entails two stages, as
shown in Figure 3.23.                                                                                Vetting by the ANSF and
                                                                                                      ISAF/Coalition Forces
   According to OSD, the APRP faces many challenges to achieve success:173
 • Afghan caution: OSD noted that Afghans have been cautious about joining
                                                                                                 Reintegration declaration (PPRC)
    the APRP for two reasons. Many doubt its chances of success, and many lack
    confidence in the GIRoA’s support for it.                                                  Placement on restricted target list
 • Reintegree security: OSD noted that the Taliban has targeted reintegrees,                 (MoI, MoD, NDS, ISAF/Coalition Forces)

    although OSD did not specify the number of attacks. The GIRoA and the
    ANSF are responsible for ensuring reintegrees’ security, but OSD noted                    Issuance of political amnesty (GIRoA)
    that ISAF should verify the security situation and assist when necessary.
    Furthermore, OSD pointed out that reintegrees are not disarmed and may
    use safe houses temporarily.                                                      Notes: PPRC = Provincial Peace and Reintegration Committee.
                                                                                      DIAG = Disbandment of Illegal Armed Groups. PTS = Program
 • Limited awareness: Although local media coverage of the APRP and the High          Takhim-E Solh (“Strengthening Peace Program”). TF = Task
                                                                                      Force. NDS = National Directorate of Security.
    Peace Council has increased awareness of reintegration opportunities, OSD
                                                                                      Source: OSD, response to SIGAR data call, 1/6/2011.




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011         73
GOVERNANCE




  noted that provincial and district officials, as well as the security forces, con-
  tinue to have limited awareness. According to OSD, program implementation,
  mobilization of support, and outreach will fail without greater awareness.
• Dialogue issues: Insurgents contact the GIRoA through various chan-
  nels, OSD stated, leaving ISAF unaware of contact until the APRP Joint
  Secretariat reports it. Before an insurgent agrees to reintegrate, it can take
  months of dialogue to establish trust and make the appropriate arrange-
  ments. According to OSD, ISAF supports such dialogue without becoming
  directly involved.
• Afghan ownership: Provincial authorities have repeatedly lost interest in
  pursuing individual cases of reintegration, according to OSD, leaving rein-
  tegrees without support and causing many reintegrees to return to the fight.
  Therefore, OSD noted, Provincial Peace and Reintegration Committees and
  Provincial Reintegration Support Teams (PRSTs) must be set up to support
  reintegration.
• Targeting restrictions: Dialogue about reintegration occurs with insurgents
  who have been designated as legitimate targets by ISAF. According to OSD,
  such targeting must be restricted as soon as possible—even before a commit-
  ment is made or identification is verified—if reintegration is to succeed. OSD
  noted that targeting can resume if the dialogue fails.

U.S. Assistance in Reintegration
The United States has made available up to $100 million in FY 2010 and an esti-
mated $50 million for FY 2011 to support reintegration, according to DoS. As of
December 31, 2010, the United States has contributed $50 million to the APRP
through the National Solidarity Program (NSP).174 The Afghanistan Reintegration
Program (ARP) is a DoD initiative aimed at supporting APRP. During FY 2010,
more than $320,000 was spent to support ARP activities. Most of that spend-
ing was concentrated on outreach to shuras and reintegrating individuals into
their communities. Only minimal funds were provided this quarter, according to
OSD, because a Continuing Resolution in the Congress, in effect until December
21, 2010, did not include authorization for spending funds on reintegration.
The Secretary of Defense, however, authorized the use of Emergency and
Extraordinary Expense funds for reintegration, allowing some ARP projects to
be carried out.175
   Plans and projections for the ARP are fluid. According to OSD, this program
flexibility is particularly tied to community recovery initiatives, which aim to
ensure that peace and reintegration are permanent by administering commu-
nity recovery packages that benefit the entire community, not just the former
fighter. To support community recovery, OSD noted, ISAF is considering using a
number of development programs. This support could include using funds from
Provincial Reconstruction Team (PRT) assistance, the Commander’s Emergency
Response Program (CERP), and ARP funding provided under the FY 2011
National Defense Authorization Act, if appropriate.176




  74               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




PROVINCIAL AND DISTRICT GOVERNANCE
This quarter, improved security, particularly in the south, facilitated a measur-
able improvement in the performance of provincial and district governments,
according to senior DoD and DoS officials.177 However, the Joint Chiefs of Staff
saw these gains as tenuous and susceptible to regression.178 According to DoD,
sustained effort by both GIRoA and coalition forces is crucial for a more solid
and dependable outcome for Afghanistan’s governance capabilities.179 Overall,
Afghan perception of local governance is positive: 78% assess their provincial
government positively, according to the Asia Foundation.180
   Achieving effective subnational governance is a slow and difficult process,
according to DoD. Key structural issues related to low levels of literacy, inad-
equate access to educational opportunities, difficulties in hiring and maintaining
staff as a result of lower salaries than international organizations pay, and perva-
sive corruption have all contributed to the stagnation of efforts to recruit, train,
and retain adequate personnel.181 DoD’s most recent assessment of governance in
124 districts found that only 38% of Afghans reside in areas considered as having
“full authority” or “emerging” governance.182

Enhancing Local Governance
This quarter, the United States continued to focus on improving governance
at the local level. According to DoD, one approach is to find and support local
leaders who can provide quality leadership and facilitate partnerships between
communities and district governments. According to the Commander of Regional
Command-South, program administrators who are responsible for recruiting
such leaders now have sufficient experience to better identify the skills and
qualifications necessary to succeed in leadership positions at the district level.
Recruiting elders who can best connect and lead a community through shuras, or
community councils, to support the GIRoA is a constructive step toward creat-
ing enduring stability. Furthermore, decentralizing appointments and appointing
individuals based on merit rather than bribes should increase Afghan’s faith in
government.183
   From January 1 to December 15, 2010, U.S. assistance helped create 65 new
district-level community councils in 12 insecure provinces, according to USAID.
Until district-level elections are conducted, these councils will serve as the main
conduit for interactions between communities and government. Existing councils
have extended the reach of basic governance institutions at the district level.184
   In areas with improving security, civilian agencies and the GIRoA have part-
nered effectively to deliver significant progress in enhancing the capabilities of
local governance, according to DoS. DoS has concentrated much of its civilian
surge elements on districts in Kandahar and Helmand to coincide with ISAF’s
push to improve security in those notoriously volatile areas. This has improved
civilian capacity in those regions.185




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011          75
                                         GOVERNANCE




                                         Southern Afghanistan
                                         The push to improve stability in Kandahar that began in April 2010 has improved
                                         the security situation enough to create an opportunity to build long-lasting local
                                         governance capabilities, according to the Commander of Regional Command-
                                         South. Conditions on the ground have allowed elders to return to their homes
                                         and travel more freely, with fewer concerns about Taliban retribution for
                                         cooperation with ISAF.186 According to DoS, however, the Taliban has an active
                                         assassination campaign against government officials, which has affected the abil-
                                         ity to establish solid local governance in the area.187
                                            Helmand province also has improved governance capabilities, according to
                                         the senior representative of the United Kingdom in southern Afghanistan.188
                                         Eleven of 14 districts had district governors as of November 8, 2010—a marked
                                         improvement from 2008, when only 5 district governors were in place.189 Five
                                         districts in Helmand also have community councils, which have enabled ISAF
                                         forces to build relationships with local representatives to promote governance
                                         and economic initiatives that best represent the needs of the local population.190
                                            The city of Marjah indicates how success in military campaigns can promote
                                         greater governmental control, according to DoD. In 2009, Marjah was an insur-
                                         gent command and control center, a focal point for assembly of improvised
                                         explosive devices, and a hub for illegal narcotics activities. On November 23,
                                         2010, after a major security push by ISAF, a DoS official stated that the GIRoA
                                         controlled Marjah. Progress has been demonstrated through increased voter
                                         registration—from 22 in the 2009 presidential elections to about 600 in the 2010
                                         elections.191 A decline in improvised explosive device attacks has enabled govern-
                                         ment employees to travel in and around the city more freely.192

                                         Local Governance and Community Development
                                         USAID’s Local Governance and Community Development (LGCD) program is
                                         designed to help create a stable environment for medium- and long-term politi-
                                         cal, economic, and social development. From October 2006 to December 31,
                                         2010, the LGCD obligated more than $316 million and disbursed more than $238.7
                                         million.193 The program has three main metrics for success:194
SIGAR AUDIT                              • increased ability of GIRoA officials to provide services
                                         • increased community ownership of stability and development activities
This quarter, SIGAR announced a new
                                         • identification of the root causes of instability and addressing them through
audit of USAID contracts in support of
                                            operational planning
its Local Governance and Community
Development projects. For more infor-      This quarter, USAID reported a number of challenges in administering the
mation, see Section 1, p. 11.            LGCD:195
                                         • A failure in ISAF’s “clear and hold” operations would make success especially
                                           difficult.
                                         • Partnership with the GIRoA requires constant reinforcement.
                                         • In unstable areas, subcontracting is having limited results compared with
                                           community grants or procurements, and direct implementation.
                                         • Activities are not matched to the needs of a counter-insurgency environment.




                                           76               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




   Despite these challenges, according to USAID, the LGCD has helped improve
stability throughout the country: Shindand, Guzara, and Injil districts in Herat;
Bala Mughrab, Qades, and Muqur districts in Badghis; Lashkar Gah in Helmand;
Maywand and Kandahar City in Kandahar; along the Khowst-Gardez road in
Khowst; Jalrez and Nerkh districts in Wardak; and districts in Logar, Paktiya,
and Parwan. Efforts in Kunar, Nangarhar, Ghazni, Paktika, and most of Helmand
have been unsuccessful, owing to deteriorating security, corruption, and inad-
equate planning. In 2011, according to USAID, the LGCD will be replaced by the
Stabilization in Key Areas program, which will divide its work into four regional
programs.196

Village Stability Operations
DoD’s Village Stability Operations (VSO) program works in conjunction with the
Afghan Local Police (ALP) program to deploy Afghan and U.S. personnel into
rural areas to connect villages to district and provincial government institutions,
according to OSD. VSO facilitates community development councils and shuras
to connect villages to the districts, in addition to improving the capacity of dis-
trict centers. VSO also helps villagers stand up against insurgents and provides
development assistance.197 For additional information on VSO and the ALP’s joint
work to improve security, see “Security” in this report.
   VSO recently established a four-step strategy:198
 • Shape: Choose VSO sites by identifying those areas where locals have
    requested assistance against insurgents; are strategically important for the
    GIRoA, ISAF, and insurgents; and are sustainable.
 • Hold: Embed personnel in the village to assist in governance, development,
    and security.
 • Build: Link villages to their district and provincial governments through insti-
    tutional arrangements like shuras and development projects.
 • Transition: Move toward greater Afghan leadership.
VSO has improved the levels of governance and security in its areas of opera-
tions, according to OSD. As of December 31, 2010, there were 31 VSO sites.
Uruzgan province, home of Taliban leader Mullah Mohammad Omar, is one of
the most successful areas of VSO operations. VSO and the ALP have expanded
governance and security across the province and have used local empowerment
to weaken Taliban influence. Similar results have occurred in Daykundi, Zabul,
and Kandahar. Senior Taliban leaders, including Omar, have expressed concern
that VSO and ALP are undermining its rural support.199
   Challenges to VSO remain, though, and the situation remains fragile, accord-
ing to OSD. The Taliban and other insurgent groups have generated a campaign
of intimidation and assassination against individuals involved with VSO and the
ALP. This campaign has included targeted assassinations, “night letters” (threats)
to collaborators, and kidnappings of supporters. Furthermore, district gover-
nance is weak in some areas, which can undercut the connection of villages to
district and provincial governments. Intra-tribal and inter-tribal tensions also




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011         77
                                                             GOVERNANCE




                                                             have affected VSO expansion. According to OSD, the GIRoA and the United
                                                             States continue to create counter-measures to blunt insurgent actions and adopt
                                                             long-term solutions to these local governance challenges.200

                                                             PUBLIC ADMINISTRATION REFORM
                                                             Capacity building continues to be a key issue in enhancing public administration.
                                                             According to the UN, the GIRoA has demonstrated its determination to imple-
                                                             ment the actions outlined in the Kabul Process, which is designed to transition
                                                             the country to full Afghan control. On November 15, 2010, at the 15th meeting
                                                             of the Joint Coordination and Monitoring Board, the GIRoA reported that more
                                                             than 70% of the October 2010 benchmarks had been met. The UN saw this as an
                                                             indicator of the GIRoA’s “growing capacity to assume ownership of and responsi-
                                                             bility for Afghanistan’s transition and development.”201
                                                                The Afghan Cabinet’s approval of a line in the GIRoA’s budget to fund the
                                                             Afghan Independent Human Rights Commission was a positive step in improving
                                                             governance, according to the UN. The UN also noted that the GIRoA has devel-
                                                             oped a medium-term fiscal framework to prioritize expenditures and domestic
                                                             revenues, create a strategy aimed at reinvigorating public administration reform,
                                                             revise the Civil Service Law, and propel the implementation of pay and grade
                                                             reform.202
                                                                On October 19, 2010, President Karzai issued a decree that centralized the
                                                             appointment of high-ranking officials in the Civil Service Commission. The
FIGURE 3.24                                                  decree prevented ministers and governors from selecting their senior staff but
                                                             allowed them to recommend individuals for the staff. This decree is intended to
SURVEY: HOW MUCH INFLUENCE CAN YOU
                                                             make the appointment process more transparent and less political. Karzai also
HAVE OVER GOVERNMENT DECISIONS?
                                                             committed to make no appointments himself.203
                                                                Public perception of the GIRoA is fairly positive, according to the previously
                       Total: 6,467                          mentioned public perception survey by the Asia Foundation: a slight majority
                                                             expressed confidence in public administration (57%) and in the ministries (54%).
                                                             The performance of government was also generally perceived favorably: 73% of
                           None at all
                           1,552                             Afghans believe that the GIRoA is carrying out its responsibilities, a 6% percent
                                                             increase from 2008.204 And the majority of those polled (54%) believe that they
                 Some              Very little               can influence government decisions, as shown in Figure 3.24.
                 2,716             1,229
                                                                On October 10, 2010, the European Union (EU) announced that it would
                                A lot                        refocus its work to improve capacity at the central and subnational levels
                                776
                                                             of the GIRoA. The EU stated that structural deficiencies in the civil service,
                                 Don’t know                  ambiguous mandates, and connections between subnational and central gov-
                                 194                         ernment institutions are major barriers to legal and structural reform in public
                                                             administration. In response to a request from President Karzai and other high-
Notes: Numbers affected by rounding. Complete wording of
question was “How much influence do you think someone
                                                             ranking officials, the EU has started to evaluate the possibility of a concerted
like you can have over government decisions?”                effort to support civil service training. This support could include a dedicated
Source: Asia Foundation, “Afghanistan in 2010: A Survey of
the Afghan People,” 11/9/2010, p. 200.                       network of regional training centers across the country.205




                                                               78               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




U.S. Support for Public Administration Reform
The GIRoA has developed into an integral partner in the planning and execution
of numerous projects funded by CERP, according to DoD. GIRoA officials—
particularly local representatives working with PRTs—contribute to the
nomination, prioritization, and selection of CERP projects. In addition, all CERP
projects that cost $50,000 or more and that will incur operating or sustainment
costs now require a Memorandum of Agreement signed by the responsible
GIRoA official. This requirement was initiated so that the GIRoA has more infor-
mation about the cost of sustaining projects. According to DoD, the GIRoA’s
participation in all stages of projects will ensure Afghan ownership and accep-
tance of projects.206

Performance-Based Governors’ Fund
USAID’s Performance-Based Governors’ Fund, which has an available pool of $6.8
million, is designed to promote the ability of governors to manage key functions
of their offices and increase community outreach programs, including conducting      SIGAR AUDIT
shuras. As of December 31, 2010, almost $5.3 million had been spent by provincial
                                                                                     This quarter, SIGAR announced a
governors, $1.7 million of it since August 20, 2010.207 These funds enabled gover-
                                                                                     new audit of four DoS and USAID
nors to manage key functions of their offices and expand community outreach
                                                                                     programs, including the Performance-
activities, including conducting councils and shuras on poppy eradication, dispute
                                                                                     Based Governors Fund, in one selected
resolution, and other key issues.208
                                                                                     province. For more information, see
   The most recent evaluation of the Fund focused on quality of programming,
                                                                                     Section 1, p. 13.
equity of benefit sharing, consultation and communication, accountability and
transparency, and improved budget practice. It found an average score across
provinces of 6.62 out of 10, a performance level deemed “satisfactory” by
USAID—and an improvement from the previous quarter’s score of 5.83. However,
scores decreased in nine provinces—three of them by more than one point
(approximately 10%). USAID noted that the monitoring and evaluation frame-
work could be strengthened. Challenges in some provinces include equipment
and office needs for the Fund itself and limited community outreach or support
at the district level. Originally slated to end in October 2010, the Fund received
a no-cost extension until the end of January 2011; a cost extension is currently
under review.209

JUDICIAL REFORM AND RULE OF LAW
This quarter, efforts to improve judicial reform and rule of law continued. These
efforts aim to promote a robust alternative to the Taliban justice system. At the
district level, various programs and infrastructure projects were implemented. In
Nerjab, in Kapisa province, construction of the district courthouse was completed
on November 13, 2010.210 On October 10, 2010, UNAMA announced the creation of
the “People Awareness of Legal and Judicial Programme,” a six-month legal and
judicial awareness initiative in Khowst. The program is intended to promote the
GIRoA’s rule of law over traditional conflict resolution systems by educating the
population on the governmental system and legal rules and regulations.211




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011        79
                                                      GOVERNANCE




                                                         In his December 2010 quarterly report, the UN Secretary-General stated that
                                                      access to justice in Afghanistan has advanced. Legal aid offices opened in sev-
                                                      eral provinces, and nongovernmental organizations expanded legal aid to new
                                                      regions.212 However, despite improvements in Afghans’ perception of their gov-
                                                      ernment, only 48% of Afghans have confidence in the justice system, according to
                                                      the November 2010 survey conducted by the Asia Foundation.213

                                                      U.S. Justice Sector Support Program
                                                      As of December 31, 2010, the Justice Sector Support Program (JSSP) has
                                                      expended more than $47.3 million to achieve its goals; an additional $83.9 million
                                                      is obligated for the program.214 Operating under the U.S. Bureau of International
                                                      Narcotics and Law Enforcement Affairs (INL), JSSP aims to develop the capacity
                                                      of the Afghan criminal justice system by working with Afghan justice profession-
                                                      als, including prosecutors. The JSSP also supports the criminal defense system
                                                      by encouraging coordination between defense attorneys and other professionals
                                                      in the justice system.215
                                                         The current goals of the JSSP are mostly aligned with the goals outlined in the
                                                      GIRoA’s Prioritization and Implementation Plan, in its National Program for Law
                                                      and Justice for All, according to INL. The JSSP’s assistance in implementing the
                                                      Plan includes the following initiatives:216
                                                       • Improving physical infrastructure and administrative and organizational
                                                          reform: Support for the infrastructure and equipment projects of the GIRoA
                                                          and the World Bank’s Afghanistan Justice Sector Reform Project (AJSRP).
                                                          Also, the JSSP’s Attorney General’s Office Assistance Section (AGOAS)
                                                          assists in the implementation of pay and grade reforms.
                                                       • Finalizing commentaries for the civil and penal codes, reviewing and revis-
                                                          ing laws, and optimizing the law-making processes: The JSSP works with the
                                                          Criminal Law Reform Working Group.
                                                       • Creating legal awareness: The JSSP’s Ministry of Justice Assistance Section
                                                          supports the Ministry of Justice’s Huquq (law) Department, as well as the
                                                          AJSRP’s legal awareness component.
                                                       • Promoting legal aid: The JSSP works with the Legal Aid Department and the
                                                          Afghan Independent Bar Association.
INL trains prosecutors, police officers,                 This quarter, the JSSP increased the number of U.S. and local Afghan lawyers
judges, and defense attorneys on ethics and           on its staff from 93 in September to 107 in December, according to INL. This
fair trial standards.                                 represented a shortfall of 51 from the number of lawyers that INL had originally
                                                      planned in July. INL stated that it is working to fill these positions by early 2011
Source: INL, response to SIGAR data call, 1/6/2011.
                                                      and is interviewing local Afghan lawyers to fill the remaining 21 Afghan lawyer
                                                      positions. Thirteen U.S. lawyers have been confirmed for the January/February
                                                      pre-deployment training, and an additional nine advisors have attended training
                                                      and are awaiting clearances before deploying.217
                                                         Each quarter, the JSSP holds provincial training conferences for members of
                                                      the Afghan justice system. Last quarter, the JSSP held two conferences in Logar
                                                      and Wardak. Two other conferences were rescheduled; one, scheduled to take




                                                        80                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




place in Badghis, was cancelled because of security issues. The JSSP plans to
hold two conferences next quarter.218

Criminal Procedure Code
As of December 31, 2010, the Criminal Procedure Code had not been updated by
the Ministry of Justice’s Taqnin Department, which is tasked with scrutinizing
legislation to meet the GIRoA’s legal criteria. During the quarter, justice advisors
for the JSSP continued to press the Taqnin on this matter. In early January, how-
ever, the Taqnin reported that it would require an additional month to complete
its review of the Code.
    In November, ISAF placed a U.S. legal advisor in the Taqnin through its Afghan
Hands program, which is designed to build trust between the military and local
populations and to accelerate the transition of responsibilities to GIRoA. As of
January 6, 2011, INL had not been able to assess the effectiveness of the advisor
in the review process.219

Detainees and Prisoners
The transfer of responsibility for detention operations continued this quarter,
according to DoD. As of January 6, 2011, Afghan personnel occupied most of
the duty positions in two detainee housing units at the detention facility in
Parwan, and they conducted on-the-job training at a third unit. In January 2011,
the first official transfer of a detention housing unit to Afghan control occurred,
and Combined Joint Interagency Task Force-435 (CJIATF-435) plans two more
transfers of control in March and April. OSD authorized additional funding in the
FY 2011 Financial and Activity Plan for CJIATF-435 to expand the training and
equipping of Afghans, so Afghans can improve their ability to operate deten-
tion centers and thereby enable the rapid transition of detention operations.
CJIATF-435 administers more than a dozen vocational and educational reinte-
gration programs for prisoners at the detention facility in Parwan.220 Records of
attendance at these courses are provided to the detainee review board, which
may use that evidence as an indicator of the level of threat posed by the detainee,
according to U.S. Special Operations Command.221 CJIATF-435 also assists the
GIRoA in hosting release shuras, which are designed to give family members and
members of the detainee’s clan the responsibility and tools (employment oppor-
tunities) to improve the odds that former prisoners can successfully re-enter
society and abandon the insurgency.222

Support for the Corrections System
INL funds the Corrections System Support Program (CSSP), which partners with
the GIRoA to develop a humane, secure, and safe corrections system that meets
international standards and Afghan cultural requirements. This quarter, the CSSP
enlarged its presence from six provinces to eight, with the addition of efforts
in Bamyan and Kandahar. INL also awarded contracts to Afghan companies for
the construction of prisons in Baghlan and Wardak, as well as a large-capacity




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011          81
GOVERNANCE




water tower and staff barracks at the Pol-i-Charkhi prison.223 Most prisons in
Afghanistan are housing more prisoners than they are built to handle, as shown
in Table 3.7.
   During the quarter, the Law and Order Trust Fund for Afghanistan (LOTFA)
steering group approved an increase in funding for Central Prison Directorate
salaries to help stem rising attrition. Contributions from the United States, the
United Kingdom, Canada, and the European Union to the LOTFA are used, in
part, for these salaries; Japan has pledged support in the near future.224

HUMAN RIGHTS
This quarter, a number of organizations reported on the continued difficulty
many Afghan citizens face in exercising their human rights. This section provides
updated information on specific human rights issues in Afghanistan related to
displaced citizens, gender equity, and children’s rights.

Displaced Persons
As of November 2, 2010, the United States had contributed more than $710 mil-
lion to the UN High Commissioner for Refugees (UNHCR) since 2000. Those
funds go to help refugees in Afghanistan and around the world. According to
the UNHCR, Afghanistan’s continued political, security, and economic develop-
ment challenges have stifled its ability to absorb returnees. Its capacity has been




Refugee camps like this one house hundreds of thousands of returnees. Afghanistan’s ability
to absorb refugees has been stifled by continuing political, security, and economic development
challenges, according to the UN High Commissioner for Refugees. (USAF photo, SSgt Stacey Haga)




   82                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                                                                GOVERNANCE




TABLE 3.7


PROVINCIAL PRISONS: POPULATIONS BY PERCENTAGE OF OVERCROWDING
                                         Maximum Occupancy                      Total Prisoners               Occupancy Rate
0–100%
  Paktiya                                                   250                              194                           78%
  Nuristan                                                    16                                2                          13%
101–300%
  Zabul                                                       29                              84                          290%
  Nangarhar                                                 413                           1,134                           275%
  Logar                                                       26                              65                          250%
  Samangan                                                    60                             146                          243%
  Khowst                                                      71                             151                          213%
  Kandahar                                                  630                           1,114                           177%
  Laghman                                                   119                              208                          175%
  Helmand                                                   453                              720                          159%
  Badghis                                                     83                             129                          155%
  Jowzjan                                                   457                              666                          146%
  Panjshir                                                    24                              33                          138%
  Kabul                                                   4,978                           5,103                           103%
301–600%
  Baghlan                                                     48                             284                          592%
  Herat                                                     353                           2,079                           589%
  Sar-e Pul                                                   32                             156                          488%
  Kapisa                                                      24                             116                          483%
  Daykundi                                                    26                             111                          427%
  Ghor                                                        26                             111                          427%
  Kunar                                                       34                             136                          400%
  Parwan                                                      61                             232                          380%
  Balkh                                                     106                              400                          377%
  Farah                                                       99                             364                          368%
  Nimroz                                                      73                             260                          356%
  Ghazni                                                      74                             261                          353%
  Kunduz                                                    116                              405                          349%
  Bamyan                                                      26                              88                          338%
  Badakhshan                                                  50                             164                          328%
  Wardak                                                      40                             122                          305%
601–1,000%
  Takhar                                                      46                             436                          948%
  Uruzgan                                                     34                             260                          765%
  Paktika                                                      9                              62                          689%
  Faryab                                                      73                             454                          622%
Notes: The International Committee of the Red Cross sets the minimum acceptable prison space per person at 3.4 square meters.
Data reflects male prisoners as of 12/7/2010.
Source: INL, response to SIGAR data call, 1/6/2011.




              REPORT TO THE UNITED STATES CONGRESS                       I   JANUARY 30, 2011                           83
                                                             GOVERNANCE




                                                             stretched to the limit, resulting in an increasingly poor environment for sustain-
                                                             able return and reintegration.225 The largest numbers of internally displaced
                                                             persons (IDPs) tend to be in the areas with the most perilous security, prevent-
                                                             ing UNHCR from having adequate access to those IDPs. UNHCR stated that the
                                                             number of IDPs is likely to increase in 2011 as a result of heightened military
                                                             operations in the southern, western, and southeastern regions of the country.226
                                                                From September 14 to December 10, 2010, more than 11,000 refugees
                                                             returned to Afghanistan.227 Since 2002, more than 5 million refugees have
                                                             returned, increasing Afghanistan’s estimated population by more than 20%. For
                                                             areas with the highest areas of return, returnees account for as much as one-
                                                             third of the population. Returnees need economic stability, security, shelter, and
                                                             land, but access to land and returnee and IDP rights are constricted by a weak
                                                             judiciary system. To alleviate the initial hurdles faced by returnees, UNHCR
                                                             increased cash grants to returnees in the first month of return.228

                                                             Gender Equity
                                                             This quarter, UNAMA released a report detailing the difficulties that Afghan
                                                             women continue to face and proposing actions and reforms to advance women’s
                                                             rights. It noted that traditional practices—such as child marriage and forced
FIGURE 3.25
                                                             marriage, the marrying away of girls to settle disputes, the exchange of daugh-
SURVEY: SHOULD WOMEN BE ALLOWED TO                           ters between families for marriage, “forced isolation in the home,” and “honor
WORK OUTSIDE THE HOME?                                       killings”—continue to infringe on the human rights of women and girls through-
                                                             out the country. In addition, women’s rights have not yet improved to the extent
                       Total: 6,467
                                                             hoped for after the fall of the Taliban for several reasons:229
                                                             • traditional customs, such as dispute resolution methods
                                                             • the influence of certain religious tenets within Afghan culture
                                                             • the inability of the GIRoA to fully implement the 2009 Law on Elimination of
                     Should                                      Violence against Women
                     4,139
                                                                Many elements of the 2009 law seek to terminate the customs, traditions, and
                                   Should
                                   not                       practices that allow or encourage violence against women. However, UNAMA
                                   2,134                     found that many law enforcement authorities were either unaware of the law or
                                                             were unwilling to enforce it, resulting in the persistence of acute gender
                                   Don’t know                inequity. UNAMA recommended that the GIRoA give the police and judiciary a
                                   194                       much greater degree of guidance, oversight, and support so that the law can be
                                                             more correctly and consistently applied. The report stressed that improving the
Notes: Numbers affected by rounding. Complete wording of
question was “Some people say that women should be
                                                             lives of women in Afghanistan should continue to be a priority of the GIRoA in
allowed to work outside the home. What is your opinion
about this?”
                                                             reconciliation and reintegration efforts.230 The Asia Foundation’s poll found that
Source: Asia Foundation, “Afghanistan in 2010: A Survey of   a majority of Afghans (64%) believe that women should have the right to work
the Afghan People,” 11/9/2010, p. 218.
                                                             outside the home, as shown in Figure 3.25.




                                                               84               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




Children’s Rights                                                                        “It is the responsibility
Many Afghan children continue to be deprived of their rights, according to the           of the Government of
Afghan Independent Human Rights Commission (AIHRC). A number of fac-
                                                                                       Afghanistan to ensure the
tors contribute to the continued difficulties: little awareness in society of those
rights, lackluster protective mechanisms, political and economic instability, and       existence of a complete
traditional customs. The Commission recommended that the GIRoA and the                  legal framework to fully
international community more aggressively promote legal, economic, and aware-             protect all children.
ness campaigns aimed at preventing abuse of children’s rights.231                      UNICEF will continue to
   Early marriages were the source of 10% of the human rights violations
reported to the AIHRC in the first six months of 2010. Most of those marriages
                                                                                         assist in that process.”
were accompanied by violence, and more than 5% had age disparities of 30 or                              –UNICEF Representative
more years. Sexual assaults made up the highest percentage (27.7%) of child                                       Peter Crowley
human rights cases registered with the AIHRC in that period.232
   This quarter, the United Nations Children’s Fund (UNICEF) called on                Source: UNICEF, “UNICEF Calls for a Comprehensive Child Act
                                                                                      in Afghanistan,” 11/23/2010.
Afghanistan to enact comprehensive legislation in line with the provisions and
principles of the Convention on the Rights of the Child. One in five Afghan
children dies before age five, and only 6% of children are registered at birth—
hampering the legal establishment of their identity. The GIRoA has developed
some relevant legislation and policies but needs to improve both the nature and
execution of GIRoA’s laws, according to UNICEF.233
   UNICEF further recommended that the GIRoA should implement these laws
by monitoring children’s rights, educating children on their rights, and providing
awareness training to professionals who deal with children the most—educators,
health workers, and police.234




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011         85
TITLE OF THE SECTION




 86    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  ECONOMIC AND SOCIAL DEVELOPMENT
  As of December 31, 2010, the United States had provided more than $16.15 billion
  to support governance and development in Afghanistan.235 A key component of
  the U.S. strategy in Afghanistan is to rebuild critical infrastructure and lay the
  foundations for sustainable, long-term economic growth.236 This section provides
  an overview of progress toward reaching these economic development goals,
  by looking at key economic indicators and the efforts of the U.S. government
  and other donors to help Afghanistan rebuild critical infrastructure and deliver
  essential services.

  LEADING INDICATORS
  One way to gauge the effectiveness of economic development assistance is to
  track leading indicators that measure growth and fiscal stability, such as gross
  domestic product (GDP), inflation, and exchange rates. The U.S. government
  does not set formal targets for leading indicators in Afghanistan, but these met-
  rics are useful in determining whether the country is on a track toward economic
  growth and fiscal stability. The World Bank, which follows these indicators
  closely, had concluded that Afghanistan’s economic growth remained strong,
  but volatile, in 2009/2010; it is cautiously optimistic about the prospects for solid
  growth in 2010/2011.237

  Gross Domestic Product
  In 2010/2011, real GDP growth in Afghanistan is expected to average 8.5−9.0%,
  according to the World Bank’s most recent economic update. The chief factor
  behind this strong level of economic activity, according to the Bank, was the
  high demand for goods and services resulting from the security economy and the
  influx of U.S. and other donor spending. That spending included the following:238
   • an estimated 24% increase in donor assistance to support the core budget of
      the Government of the Islamic Republic of Afghanistan (GIRoA)
   • an estimated $4 billion in donor assistance to support off-budget
      expenditures
     Two consecutive years of favorable agricultural production have also contrib-
  uted to strong economic growth. In fact, the World Bank noted that dried fruits
  and seeds now surpass carpets as Afghanistan’s leading exports. From 2005/2006
  to 2009/2010, dried fruits and seeds grew to half of all Afghan exports.239 A key




           REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011           87
ECONOMIC AND SOCIAL DEVELOPMENT




focus of U.S. agricultural assistance had been to encourage more Afghans to
switch from producing cereals and illicit crops to high-value fruits, nuts, and
seeds. As noted in SIGAR’s previous quarterly reports in 2010, the U.S. Agency
for International Development (USAID) has awarded a $30 million grant to help
Afghan farmers acquire the technical skills, equipment, and inputs necessary to
plant higher-value crops.240
   The Afghan services sector—including communications, finance, and
transportation—continued to be the leading contributor to economic growth
in 2009/2010, according to the World Bank. Among notable trends, the Bank
reported that the communications sector grew by a remarkable 45% in 2009/2010.
As noted in previous SIGAR quarterly reports, the U.S. government has provided
funding to build the capacity of the GIRoA to regulate the telecommunications
sector and expand telecommunications services to rural communities. By con-
trast, Afghanistan’s industrial sector is expected to shrink by 3% in 2009/2010,
largely as a result of a decline in manufacturing.241

Inflation
The Afghan Central Bank has done a good job managing inflation, according to
the World Bank. Prudent monetary policies kept inflation to an average of 3% in
2009/2010, a decrease from the 9% average in 2008/2009. However, the World Bank
estimated that inflation may increase to 5% in 2010/2011, depending largely on
food prices. This reversal is the result of adverse weather conditions in neighbor-
ing countries, which drove up the prices of such essentials as wheat, mutton,
beef, sugar, and flour in Afghanistan. Even small increases in food prices can have
a significant effect on Afghans near the poverty line. The World Bank estimated
that a 10% increase in wheat prices could push as many as 377,000 Afghans into
poverty. That is because bread and cereals, rather than nutrient-rich meat and
vegetables, have accounted for the larger share of the calories consumed by poor
families.242

Exchange Rates
Exchange rates are an important factor in trade because an overvalued currency
makes a country’s exports more expensive. Conversely, an undervalued currency
makes a country’s exports less expensive.
   In FY 2010, the afghani appreciated against major world currencies, accord-
ing to the World Bank. It appreciated against the U.S. dollar for most of the fiscal
year, and by July 2010 it had also appreciated against the euro. Among other
trends, the Bank noted that continuing instability in Pakistan weakened the
Pakistani rupee to the point that an increasing number of traders were asking to
be paid in afghanis.243
   According to the World Bank, Afghan exports as a share of GDP have fallen from
24% in 2005/2006 to 15% in 2009/2010. Nevertheless, the International Monetary
Fund (IMF) has concluded that in real terms the afghani is not overvalued.244




  88                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Employment
  Creating jobs is essential to undermining the appeal of extremists and sustaining
  long-term growth in Afghanistan, according to the U.S. Afghanistan and Pakistan      SIGAR AUDIT
  Regional Stabilization Strategy.245 As previously noted in SIGAR’s quarterly         In an ongoing audit, SIGAR is assessing
  reports, accurate estimates of the size of the workforce and unemployment rate       a $60 million cooperative agreement
  in Afghanistan are not available because of the lack of current national census      between USAID and CARE International
  data. It is not possible, therefore, to definitively measure progress toward the     for the Community Development
  U.S. goal of increasing employment in the agricultural sector or any other sector;   Program for Kabul (CDP-K). This is
  however, USAID provides estimates of the number of jobs created through the          one of four cash-for-work programs
  cash-for-work and the Afghan First programs.                                         addressing food insecurity in urban
     According to USAID, in FY 2010 it completed 780 cash-for-work projects,           areas. For more information, see
  employed 103,000 laborers, and injected nearly $27 million in wages into the         Section 1, p. 14.
  Afghan economy, equivalent to 22,500 full-time jobs.246 USAID also stated that
  from 2008 to 2010 it significantly increased its efforts under the Afghan First
  program and achieved the following results:247
   • 85,650 Afghan personnel employed
   • 4,227 local firms under contract
   • 1,478 Afghan graduates and interns hired
   • $1.12 billion in subcontracts, goods, and services procured locally

  FINANCIAL MANAGEMENT
  A key part of economic capacity building in Afghanistan is to create the founda-
  tions of a modern financial system. U.S. efforts this quarter included working
  with the Central Bank of Afghanistan to mitigate the risks created by the Kabul
  Bank crisis, expanding access to electronic banking services, and assisting the
  Ministry of Finance in conducting the first audits under the new public sector
  financial management law.

  Banking
  As noted in SIGAR’s previous quarterly reports, the United States has encour-
  aged the development of private banking and credit institutions as an alternative
  to traditional cash-based systems. According to USAID, U.S. government assis-        SIGAR AUDIT
  tance helped increase the number of banking institutions from 12 in FY 2009 to
                                                                                       In an ongoing audit, SIGAR is examining
  17 in FY 2010, and the number of commercial bank branches from 280 to 329
                                                                                       efforts to develop the Afghan banking
  during that same period. In addition, USAID stated that U.S. government assis-
                                                                                       sector and currency control systems. For
  tance helped achieve a slight increase in the total number of Afghan borrowers
                                                                                       more information, see Section 1, p. 16.
  in FY 2010, as microfinance institutions made available $777 million in loans and
  commercial banks made available $71 million in loans.248
     An example of U.S. assistance is the $100 million fund that USAID estab-
  lished in 2010 to increase the access of Afghan farmers to agricultural credit.249
  During the year, U.S. government-funded financial institutions in Afghanistan
  disbursed more than 19,000 loans totaling $15.3 million in 14 provinces, accord-
  ing to USAID.250




           REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011        89
                                                           ECONOMIC AND SOCIAL DEVELOPMENT




                                                           Kabul Bank Crisis
                                                           Public confidence in private banks suffered a major setback in August and
                                                           September 2010 when allegations were made public of significant fiduciary mis-
                                                           conduct at Kabul Bank, Afghanistan’s largest private bank. Kabul Bank was a key
                                                           part of the financial system, responsible for one-third of the country’s deposits
                                                           and nearly 57% of all loans in 2009. The bank lost nearly all of its liquidity in one
                                                           week because of the resulting run on its deposits, according to the World Bank.
                                                           The lack of reliable information about the size of these losses has made it diffi-
  Forensic audit: an in-depth review of                    cult to determine the extent of the problem or its impact on the financial stability
  transactional data to detect material                    of the country, the World Bank concluded.251
  financial misstatements, fraud, or                           In February 2010, the GIRoA had approached the U.S. government for fund-
  mismanagement, involving substantive                     ing and assistance in procuring a forensic audit of Kabul Bank and Azizi Bank,
  tests or evidence collection that presumes               according to the U.S. Treasury (Treasury). The estimated cost of these audits was
  the possibility of dishonesty at various                 $10 million. Treasury identified an internationally credible audit firm, as well as
  levels of management, including override                 funding, to implement this request.252
  of internal controls, falsification of                      Following the run on Kabul Bank, however, the GIRoA changed its position
  documents, and collusion.                                on the parameters of the proposed forensic audits. According to Treasury, the
                                                           GIRoA insisted on maintaining control of the audits and on being the sole recipi-
Source: AICPA, “Forensic Services Audits and Corporate
                                                           ent of the results. These conditions were unacceptable to Treasury. 253
Governance—Bridging the Gap: The Final Report,” accessed
online 1/5/2011.
                                                              The GIRoA is pursuing the possibility of funding forensic audits through
                                                           other donors as part of a new IMF program, according to Treasury. The U.S.
                                                           government is not a direct participant in these negotiations. As of January 4,
                                                           2011, Afghanistan’s Central Bank had not scheduled any bank audits and had not
                                                           signed any independent bank audit contracts, according to Treasury.254
                                                              The salaries of 220,000 Afghan security forces and civil servants are distrib-
                                                           uted through the Kabul Bank.255 Treasury stated that, following the Kabul Bank
                                                           crisis, the Central Bank of Afghanistan (Da Afghanistan Bank, or DAB) decided
                                                           to develop the option to use commercial banking services from other financial
                                                           institutions.256 Treasury provided technical assistance to the GIRoA to research
                                                           and draft proposals to procure another bank to distribute government salaries.
                                                           Kabul Bank continues to operate under special conditions, and as of October
                                                           2010, there had been no delays in civil service salary payments, according to the
                                                           World Bank.257

                                                           Alternate Payment Mechanisms
                                                           In another financial sector development this quarter, Citibank announced
                                                           that its Global Transaction Services division had entered into an agreement
                                                           with the privately owned Afghanistan International Bank (AIB) in Kabul to
                                                           strengthen AIB’s payment transaction capabilities. The agreement was facili-
                                                           tated by the U.S. Department of Defense (DoD) as part of its effort to create
                                                           sustainable banking services, support the growth of the private sector, and
                                                           attract foreign investment.258
                                                              To fight corruption and maintain accountability for funds, the U.S. govern-
                                                           ment has strongly encouraged and supported the development of electronic
                                                           mechanisms as an alternative to traditional cash-based transactions, as noted in



                                                             90                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  SIGAR’s previous quarterly reports. AIB’s services will include the provision of
  ATMs and electronic fund transfers, according to Citibank.259 More than half of
  all Afghan civil servants now receive their salaries through electronic fund trans-
  fers, according to the World Bank.260

  Revenue Collection
  As noted in SIGAR’s July 2010 quarterly report, domestic revenue collection in
  Afghanistan is steadily improving. According to the World Bank, however, col-
  lection still lags significantly behind the amount needed to fund core government
  expenditures.261
     The IMF expects that domestic revenue collection in Afghanistan will increase
  from 9.6% of GDP in FY 2010 to 10.3% of GDP in FY 2011.262 For the current
  Afghan fiscal year, domestic revenues could climb as high as $1.7 billion, accord-
  ing to DoD—a 30% increase over the previous year.263 This is primarily the result
  of improved tax and customs administration, and the introduction of a new
  ad-valorem tax on imports, according to DoD.264 Despite this improved perfor-
  mance, DoD noted that the GIRoA was still able to fund only about 54% of its
  core operating expenses from domestic revenues.265
     To help strengthen the GIRoA’s financial management capabilities, USAID
  pledged $84 million to support the Afghan Civil Service Institute. The Institute’s
  mission is to provide a unified training curriculum for all national and provincial
  civil servants.266 The United States is also providing $2.5 million annually in oper-
  ational support for the Afghan National Customs Academy, according to the U.S.
  Department of State (DoS). This is in addition to the $2 million provided by the
  United States for construction and renovation of the customs academy training
  facilities. Treasury also has provided ongoing technical assistance to the Ministry
  of Finance to strengthen the internal auditing capacity of Afghan ministries.267
     As a result of efforts to build Afghan revenue collection capacity, the World
  Bank recently reported a significant change in the composition of domestic rev-
  enues. The share of those revenues attributable to taxes (property, income, sales,
  and excise) jumped from 38% in 2008/2009 to 48% in 2009/2010. Similarly, the
  share attributable to customs duties and fees increased from 32% in 2008/2009 to
  35% in 2009/2010. At the same time, the share attributable to non-tax incomes—          Article 61 of the Afghan Public Finance
  such as administrative fees, property taxes, fines, penalties and sales of lands        and Expenditure Management Law says,
  and buildings—declined by nearly half.268                                               “The Ministry of Finance shall establish
                                                                                          an internal audit administration and
                                                                                          appoint auditors to audit the financial
  Public-Sector Financial Management                                                      and accounting affairs of all State
  In November 2010, advisors from Treasury began working with auditors from
                                                                                          administrations.” The auditors may
  the Ministry of Finance to review the Ministry of Rural Rehabilitation and              require the relevant administrations
  Development. According to Treasury, this is the first Afghan ministry with line         to provide all information needed for
  budget authority to undergo an audit as authorized by Article 61 of the Afghan          auditing financial affairs.
  Public Finance and Expenditure Management Law. In December 2010, a joint
  team of U.S. and Afghan government auditors began audit work at three other             Source: GIRoA, Public Finance and Expenditure
                                                                                          Management Law.
  ministries: the Ministry of Transportation and Civil Aviation, the Ministry of




           REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011           91
                                           ECONOMIC AND SOCIAL DEVELOPMENT




                                           Public Health, and the Ministry of Energy and Water. These audits are expected
                                           to be completed by March 2011, according to Treasury. Treasury also stated that
                                           U.S. and GIRoA auditors have agreed to a multi-year plan to conduct Article 61
                                           audits of the remaining 17 ministries and 9 state administrations, including DAB
                                           and the Independent Directorate of Local Government.269

                                           ESSENTIAL SERVICES
                                           Increasing the GIRoA’s capacity to deliver public services is one of the four key
                                           objectives of the U.S. economic development strategy in Afghanistan, accord-
                                           ing to DoS.270 One indication of the challenges confronting Afghanistan is its
                                           ranking in the most recent Human Development Index, published by the UN
                                           Development Programme (UNDP). Afghanistan ranked 155 of 169 countries in
                                           2010, among the least developed in the world.271
                                              Afghanistan’s per capita gross national income was the highest of the
                                           15 bottom-ranked countries in the 2010 UNDP report. Yet, the same report
                                           concludes that about 42% of Afghans still live in poverty. Life expectancy at
                                           birth is 44.6 years, the lowest of the 15 bottom-ranked countries in the world.
                                           The under-five mortality rate is 257 per 1,000 live births—and the maternal
                                           mortality rate is 1,800 per 100,000 births, one of the highest in the world. Most
                                           Afghans do not have access to safe drinking water, and 63% do not have access
                                           to adequate sanitation.272
                                              This section addresses key developments in U.S. efforts to improve the capa-
                                           bility of the GIRoA to deliver essential services that address these challenges.

                                           Energy
                                           As previously noted by SIGAR, Afghanistan continues to import energy because
                                           it consumes more than it produces. U.S. Central Command (CENTCOM) has
SIGAR AUDIT                                identified the lack of access to electricity as an obstacle to sustaining the gains
                                           achieved by the counter-insurgency strategy, especially in areas of high con-
In its audit of the energy sector, SIGAR
                                           flict, such as Kandahar.273 As noted in SIGAR’s October 2010 quarterly report,
found that although progress has
                                           CENTCOM has proposed providing generators and fuel to Kandahar on a
been made, the GIRoA lacked the
                                           short-term basis until the capacity of the Kajaki Dam is increased. According to
capacity to collect enough revenue
                                           CENTCOM, the transitional energy solution for Kandahar consists of the follow-
and as a result could not operate
                                           ing elements:274
and maintain the power-generating
                                            • Shorandam Industrial Park Site (formerly known as Kandahar Industrial
systems or recruit enough qualified
                                               Park-KIP): A diesel generator rated at 10 MW (actual capacity of 8 MW) began
staff. For more information, see SIGAR
                                               providing power on December 1, 2010. Average daily power production is
Audit 10-4, “Afghanistan Energy
                                               4.4 MW, and construction and installation of support facilities continue.
Supply Has Increased but an Updated
                                            • Bagh-e Pul Site (formerly known as the Russian Silo): Diesel generators
Master Plan Is Needed and Delays
                                               rated at 10 MW (actual capacity of 8 MW) have been delivered. They are
and Sustainability Concerns Remain,”
                                               scheduled to be moved to the site on January 20, 2011, and to begin furnish-
available at www.sigar.mil.
                                               ing power on March 1, 2011.
                                            • The Southeast Electrical Power System (SEPS) Starter Kit: The kit was pro-
                                               cured to provide the Afghan public utility company (DABS) with equipment




                                             92                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     to make immediate, critical improvements to the Kandahar City power
     distribution system. CENTCOM expects the DABS to install the equipment
     over the next 24 months to enhance low- and medium-voltage distribution in
     Kandahar City.
  The generators and short-term fuel supplies for the two 10-MW power plants
  were purchased with funds from the Commander’s Emergency Response
  Program (CERP), according to CENTCOM. As of January 2011, approximately
  $100 million was under contract to support these efforts.275
     On January 7, 2011, the President signed into law the Ike Skelton National
  Defense Authorization Act (NDAA) for Fiscal Year 2011 authorizing the Afghanistan
  Infrastructure Program (AIP). This legislation authorized DoD to use up to
  $400 million in operations and maintenance funds for large scale infrastructure
  projects. CENTCOM expects that AIP, rather than CERP, will fund the estimated
  $40–89 million needed in FY 2011 for fuel, as well as operating and maintenance
  costs, for all the Kandahar power generators.276 The change in funding sources
  for this project reflects the concerns expressed by the Congress in the NDAA
  that CERP was not intended to carry out large-scale projects. SIGAR’s audit of
  CERP funded projects in Laghman province highlighted similar concerns.277
  For more information about this SIGAR audit, see Section 1, p. 9.

  TAPI PIPELINE
  In another energy-related development this quarter, the President of Turkmenistan
  signed a framework agreement with the presidents of Afghanistan and Pakistan
  and the Minister of Oil and Natural Gas of India to work toward implementation
  of the Turkmenistan-Afghanistan-Pakistan-India (TAPI) natural gas pipeline.
  This event follows the signing of a similar agreement by the energy ministers
  in 2010. If built, the TAPI natural gas pipeline would export natural gas from
  Turkmenistan through Afghanistan to Pakistan and India, providing transit fees
  for the GIRoA.278
     The TAPI pipeline project has been under discussion since 1995, and many
  obstacles remain to its implementation, as previously noted by SIGAR.279 This
  quarter, the Russian state-owned enterprise Gazprom announced its interest in
  possibly joining the TAPI consortium.280

  Education
  According to USAID, U.S. government education assistance in 2010 produced
  several achievements:281
  • 40,850 Afghan teachers trained
  • 60,000 children enrolled in community-based education
  • 21.5 million textbooks provided

  Health Services
  The U.S. government is providing $4 million to help the Ministry of Public Health
  (MoPH) conduct a national demographic and health survey that will provide




           REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011         93
                                         ECONOMIC AND SOCIAL DEVELOPMENT




                                         a framework to address Afghanistan’s high rate of maternal mortality.282 As of
                                         November 30, 2010, according to USAID, $2,848,266 had been spent on this survey;
                                         an additional $350,000 was expected to be spent in December 2010. The costs
                                         included capacity-building efforts to assist the MoPH with the methodology, sam-
                                         pling, and management of the survey.283 USAID noted the following milestones:284
                                          • A total of 24,000 Afghan households from 751 population clusters were iden-
                                             tified for sampling.
                                          • Some 150 to 180 field staff—including surveyors, supervisors, editors, and
                                             monitors—were hired to collect survey data; in addition, 5 full-time editors
                                             and 15 data entry operators were hired.
                                          • Of 751 surveys, 681 (91%) were completed and received for data entry, as of
                                             December 24, 2010.
                                         Preliminary results are expected to be available in February or March 2011,
                                         according to USAID. The MoPH is planning to disseminate the survey results at a
                                         national seminar in June 2011.285

                                         Water
                                         Afghanistan’s water sector has suffered severe damage from years of conflict and
                                         persistent drought. To develop Afghanistan’s water resources, the U.S. govern-
SIGAR AUDIT                              ment awarded approximately $250 million in grants, contracts, and cooperative
                                         agreements from 2002 through the second quarter of 2010, according to the
In its review of funding obligated for
                                         Government Accountability Office (GAO). A GAO audit released this quarter
reconstruction contracts from FY 2007
                                         reported that the U.S. government plans to accelerate its efforts to rebuild
through FY 2009, SIGAR found that
                                         Afghanistan’s water sector and will need an additional $2.1 billion to fully fund
the lack of a centralized database
                                         the projects planned for FY 2010 to FY 2014.286
for reconstruction projects was a
                                            The challenges to this sector were highlighted in the most recent National
major obstacle to effective oversight.
                                         Risk and Vulnerability Assessment for Afghanistan (NRVA), which found that
For more information, see SIGAR,
                                         only about 27% of Afghans have access to safe drinking water and only about
Audit 11-4, “DoD, State, and USAID
                                         5% have access to improved sanitation.287 The World Bank reported in 2010 that
Obligated Over $17.7 Billion to About
                                         the percentage of the Afghan population with access to piped water infrastruc-
7,000 Contractors and Other Entities
                                         ture is among the lowest in the world—18%.288 Irrigation in Afghanistan remains
for Afghanistan Reconstruction During
                                         underdeveloped, as well. Only about 30% of the agricultural land has access to
Fiscal Years 2007–2009,” available at
                                         adequate supplies of water, according to the GAO.289
www.sigar.mil.
                                            GAO’s audit of the water sector reached conclusions similar to those of SIGAR
                                         infrastructure audits, which have consistently found that sustainability and
                                         inter-agency coordination remain challenging. The GAO audit concluded that
                                         the efforts of U.S. agencies in the water sector were hampered by the lack of
                                         a centralized database for reconstruction projects. The lack of an inter-agency
                                         implementation plan was also an issue.290

                                         Transportation
                                         As part of the U.S. strategy to improve freedom of movement and expand trade
                                         routes in Afghanistan, the United States is building transportation infrastructure,
                                         including roads, railroads, and airports. This quarter, progress continued on the




                                           94                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Strategic Provincial Roads project connecting towns in the east and south to pro-
  vincial centers; however, civil aviation suffered a setback owing to Afghanistan’s
  failure to set up a regulatory agency capable of enforcing internationally
  accepted safety standards.

  Roads
  USAID has obligated $270 million of the Strategic Provincial Roads project to
  build roads in eastern and southern Afghanistan. The project was originally
  scheduled to build more than 1,000 kilometers (km) of engineered gravel roads        SIGAR AUDIT
  and bridges by December 2011. Because of construction delays, however, the
                                                                                       In its audit of CERP-funded projects in
  scope of the project has been reduced to 450 km. According to USAID, more than
                                                                                       Laghman province, SIGAR found that
  1,800 km of regional highways, national highways, and provincial and rural roads
                                                                                       about $44.6 million in asphalt road
  were completed in 2010.291
                                                                                       projects were at risk because of the
     USAID also noted that continuing construction and refurbishment on 800 km
                                                                                       lack of maintenance plans. The audit
  of roads includes the following funding:292
                                                                                       noted that the road projects had been
  • $178 million for a 101-km section of the national highway between Gardez
                                                                                       approved without adequate assurances
      and Khowst
                                                                                       that the GIRoA had the resources to
  • $95 million for a 92-km section of the national highway between Gardez and
                                                                                       maintain them. For more information,
      Ghazni
                                                                                       see Section 1, p. 9.
  • $126 million for a 103-km section of the national highway in Badakhshan,
      97% of which was completed in December 2010
     To address the GIRoA’s lack of capacity to maintain roads, the North Atlantic
  Treaty Organization (NATO) launched a new pilot program between the
  International Security Assistance Force (ISAF) and the Afghan National Security
  Forces (ANSF) to secure and maintain the roads in Kapisa province. Under this
  agreement, NATO forces will train locally recruited ANSF forces to protect the
  roads, clear them of mines, and maintain them.293
     In cooperation with the Afghan Ministry of Public Works, USAID is continuing
  to support a project to operate and maintain more than 1,500 km of rehabilitated
  roads. Part of this program includes evaluating the technical and managerial
  competencies and needs of both GIRoA and private-sector Afghan companies
  involved in road construction, according to USAID.294

  Railroads
  At the end of 2010, three major rail lines were in the planning, development, or
  construction stages. If completed, they could help spur economic development by
  providing Afghanistan with access to the Indian Ocean and markets in Asia, Central
  Asia, and Europe. Two of the three proposed lines would be funded through the
  Asian Development Bank (ADB). The United States and Japan are the two largest
  contributors to the ADB, each holding about 15% of the bank’s shares.295
     The longest rail line would run north to south along a proposed 718-km route
  from Mazar-e Sharif to Torkham, linking central Afghanistan to Pakistan and
  Uzbekistan. As noted in SIGAR’s October 2010 quarterly report, the state-owned
  Chinese company that won the rights to develop the Aynak copper mine signed




           REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011        95
                                                                  ECONOMIC AND SOCIAL DEVELOPMENT




                                                                  an agreement with the GIRoA to build this rail line. This company has a signifi-
                                                                  cant investment in rail lines in Pakistan, according to a NATO publication, and
                                                                  plans to link this new railway to Pakistan’s state-owned railway network. The
                                                                  Afghan line is to be designed to carry the heavy loads required by extractive
                                                                  industries; if completed, it would expedite the export of minerals extracted from
                                                                  the Aynak mine.296
                                                                     A second railway corridor under discussion would run east to west, from Herat
                                                                  to Sherkhan Bandar. This line would be jointly financed by the Asian Development
                                                                  Bank and the GIRoA. As of November 2010, a feasibility study was under way for
                                                                  this 1,105-km railway; completion of the rail line is estimated to take five to nine
                                                                  years. In addition, according to a NATO publication, Iran is providing the funds for
FIGURE 3.26
                                                                  a $1.2 million feasibility study for a rail line linking Iran to Herat.297
                                                                     A third, shorter rail line is nearing completion—the 75-km rail line from Hairatan
PROPOSED RAILWAY LINES                                            to Mazar-e Sharif. This rail line was cofinanced by the Asian Development Bank
                                                                  and the GIRoA. As noted in SIGAR’s April 2010 quarterly report, USAID provided
                  UZBEKISTAN           TAJIKISTAN
                                                                  $5 million to help finish construction of this rail line. The estimated completion date
 TURKMENISTAN
                                                          CHINA   for this project is June 2011.298
                           Hairatan
                                       Sherkhan                      Figure 3.26 shows the proposed rail lines, which loosely parallel some of the
                                       Bandar
                      Mazar-e                                     ancient Silk Road routes. Officials hope these new rail lines will relieve pressure
                       Sharif                     PAKISTAN
                                                                  on the town of Hairatan, near the Uzbekistan border, according to a NATO publi-
                                             Torkham
        Herat
                           Logar
                     Copper Mine
                                                                  cation. About half of all commercial imports pass through Hairatan, and the town
                                                                  cannot cope with the growing volume of trade.299
                      Kandahar

IRAN                                              Corridor 1A
                         Spin Boldak
                                                  Corridor 1B
                                                                  Airlines
                                                  Corridor 1C     As noted in SIGAR’s April and October 2010 quarterly reports, the U.S. govern-
                                                                  ment funds infrastructure and training programs to build civil aviation capacity
Source: NATO, Civil-Military Fusion Centre, “Special Report       in Afghanistan. A major milestone was achieved in March 2010 when ISAF turned
on Infrastructure in Afghanistan,” 11/18/2010, p. 2.
                                                                  over a key portion of the Kabul International Airport to GIRoA control.
                                                                      This quarter, however, the challenge in bringing this sector up to international
                                                                  standards was underscored by the decision of the European Commission to ban
                                                                  all Afghan private airlines from landing in European Union countries because of
                                                                  safety concerns. Joining state-owned Ariana Afghan airways, which was already
                                                                  blacklisted, were private carriers Kam Airways, Pamir Airways, and Safi Airways.
                                                                  In announcing the ban, the European Commission noted that the GIRoA had
                                                                  failed to set up a regulatory agency that complied with the standards set by the
                                                                  International Civil Aviation Organization (ICAO).300
                                                                      Banned carriers could continue to land in European airspace, however, by
                                                                  leasing planes from carriers that meet ICAO international safety standards.301
                                                                  Following the announcement, Safi Airways announced that it would lease
                                                                  European-registered aircraft for its Frankfurt passengers in order to continue
                                                                  operating its Frankfurt-to-Kabul routes.302




                                                                    96                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Communications
  The tremendous growth of telecommunications is one of Afghanistan’s success
  stories. In contrast to other areas of the economy, the private sector has led the
  growth of the telecommunications sector. According to the World Bank, private
  firms accounted for 99.2% of all telecommunications subscriptions in Afghanistan
  by early 2010. More than half of all Afghan households have at least one cell
  phone, and the World Bank forecasted that cell phone subscriptions will reach
  19 million by the end of 2011.303
     This quarter, Afghan Wireless, one of Afghanistan’s five licensed cellular
  network operators, announced it had selected Nokia Siemens to expand its
  coverage, especially in rural areas. Under the terms of the contract, the Swedish
  company will modernize and expand the Afghan operator’s cellular network and
  will provide data management, billing, and charging platforms, as well as other
  support services.304
     The Nokia contract reflects the GIRoA’s efforts to encourage providers to
  upgrade cellular phone service nationwide to a faster standard and to expand to
  rural underserved areas. There were more than 14 million mobile phone sub-
  scribers in Afghanistan as of June 2010, according to the Ministry of Information
  and Communications Technology. Continually upgrading service is important              FIGURE 3.27
  to the economy because, among other reasons, in 2010 this sector provided the
  single largest source of tax revenue for the GIRoA.305                                 ATTACKS ON INFRASTRUCTURE,
     In another communications development this quarter, Radio Azadi announced           OCTOBER–DECEMBER 2010
                                                                                         By Province
  the launch of an interactive news and emergency alert service for Etisalat mobile
  phone subscribers in Afghanistan. This new service was made possible through an
  Etisalat partnership with Radio Free Europe/Radio Liberty, an organization funded          Ghazni
  by the U.S. government.306 Radio Azadi was founded by Radio Free Europe in 1985;            Kabul
  today, it is a leading media outlet in Afghanistan, reaching an estimated 50% of the        Zabul
  nation’s population. Azadi is widely known for the diversity and popularity of its      Kandahar
  programming and for sponsoring a debate during the presidential elections featur-       Helmand
  ing President Hamid Karzai and two other leading candidates.307                           Khowst
                                                                                            Paktika
  Impact of Security on Infrastructure                                                        Logar
  In addition to budget and capacity constraints, security continues to affect the            Kunar
  sustainability of Afghan infrastructure projects. According to CENTCOM, from              Paktiya
  October 1 through December 25, 2010, there were 111 attacks against infra-               Baghlan
  structure. These attacks consisted primarily of improvised explosive devices,               Farah
  direct fire, and indirect fire. CENTCOM noted that attacks this quarter followed          Kunduz
  seasonal weather trends—decreasing as weather conditions became less favor-            Nangarhar
  able.308 These attacks occurred in 16 provinces, as shown in Figure 3.27.                Uruzgan
     Protection of key infrastructure is part of the ISAF counterinsurgency strategy.       Wardak
  For example, SIGAR noted in its January 2010 quarterly report that a force of 4,000                 0         10          20         30
  ISAF and ANSF troops protected the military convoy delivering the third turbine to
  the Kajaki Dam, in which the U.S. has invested more than $100 million.309              Source: CENTCOM, response to SIGAR data call, 1/4/2011.




           REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011          97
                                                              ECONOMIC AND SOCIAL DEVELOPMENT




                                                              Ban on Private Security Contractors
CENTCOM reported that 16,733 private                          This quarter, President Karzai issued an executive decree banning private secu-
security contractors were on the DoD payroll                  rity contractors (PSCs), which would have had a major impact on the ability
in Afghanistan, as of the second quarter of                   of development partners to implement reconstruction projects. The ban would
2010. Of these, 140 were U.S. citizens, 980                   have required all PSCs to disband and leave the country by December 17, 2010.310
were third-country nationals, and 15,613                      Many development organizations depend on PSCs.
were Afghans or host-country nationals.                          After extensive discussions with the international community, a spokesman
Source: DoD/ADUSD (Program Support), “Contractor Support
                                                              for the Afghan Ministry of Interior announced on December 6, 2010, that licensed
of U.S. Operations in the USCENTCOM Area of Responsibility,   PSCs would be allowed to continue to operate in Afghanistan until their con-
Iraq and Afghanistan,” 5/2010.
                                                              tracts expire. The following restrictions apply:311
                                                              • PSCs must move out of the diplomatic enclave in Kabul, and their personnel
                                                                  must wear uniforms.
                                                              • PSCs guarding NATO convoys are required to partner with the ANSF.
                                                              • PSCs are not allowed to stop vehicles, search houses, or put up roadblocks.
                                                              • PSC responsibilities for providing security will be gradually transitioned to
                                                                  the ANSF.

                                                              INDUSTRY AND NATURAL RESOURCE DEVELOPMENT
                                                              This quarter, key developments included a new U.S.-funded project to strengthen
                                                              financial management at the Afghan Ministry of Agriculture, Irrigation, and
                                                              Livestock (MAIL), as well as the release of a World Bank report highlighting con-
                                                              tinued challenges in developing Afghanistan’s private sector.

                                                              Agriculture and Food Aid
                                                              As noted in SIGAR’s October 2010 quarterly report, wheat is Afghanistan’s
                                                              staple crop, providing half of the country’s caloric needs. This quarter, the U.S.
                                                              Department of Agriculture (USDA) announced a new program to strengthen food
                                                              security in Afghanistan by introducing a new strain of disease-resistant wheat
                                                              seed. This new type of seed is designed to halt the spread of wheat-stem rust,
                                                              which could threaten Afghanistan’s crop yields. After a sufficient quantity of the
                                                              seed has been produced, the MAIL plans to make it available to more than 60,000
                                                              Afghan farmers in 2011. According to researchers at the USDA, this donation will
                                                              provide Afghanistan with 65% of its rust-resistant wheat stock for 2011.312
                                                                 In addition to increasing crop yields, U.S. government programs provide direct
                                                              food assistance to vulnerable Afghans. As previously noted in SIGAR quarterly
                                                              reports, Afghanistan is a net food importer because it cannot yet produce enough
An Afghan child carries a bag of Strong                       food to meet domestic consumption needs. As of December 9, 2010, USAID
Food paste, a combination of nutritious
                                                              reported that it had provided a total of $45.98 million to the World Food Program
ingredients distributed to malnourished chil-
dren under five. The Strong Food program                      and Catholic Relief Services to distribute food commodities to food-insecure
was introduced by U.S.-led PRTs. Today, the                   areas of Afghanistan.313
commodities are procured locally, and the                        In a major capacity-building effort this quarter, the USDA awarded a $36
program is managed by Afghans, providing                      million cooperative agreement to the Volunteers for Economic Growth Alliance
jobs as well as nutritional support. (USAF                    (VEGA) to strengthen the financial management capabilities of the MAIL. The
photo, SrA Ashley N. Avecilla)
                                                              goal is to help prepare the ministry to receive more direct funding from the U.S.



                                                                98               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  government, according to the USDA. VEGA will make recommendations to
  modernize the MAIL and improve the effectiveness of its operations. It will also
  help the ministry establish a grants management unit capable of receiving and                SIGAR AUDIT
  managing funds from international donors.314
                                                                                               In an ongoing audit, SIGAR is examining
                                                                                               the programs of U.S. agencies involved
  Private-Sector Development                                                                   in developing the agriculture sector
  The U.S. government has identified improvements that need to be made in                      and the effect of these programs on
  order to promote private sector development in Afghanistan. As noted in                      the counter-insurgency effort. For more
  SIGAR’s October 2010 quarterly report, USAID provided $56.3 million from                     information, see Section 1, p. 16.
  2004 to 2009, to help ameliorate obstacles to land titling and ownership. The
  lack of reform in these areas has been identified as a key obstacle to growing
  the private-sector economy.315
     This quarter, the World Bank released its annual Doing Business 2011 survey
  for 183 economies worldwide, which highlighted persistent challenges in this
  area. Afghanistan fell two places in the rankings, from 165 in 2010 to 167 in 2011.
  The change was caused primarily by greater difficulties reported in starting a           Major Trade Agreement Reached:
  business, obtaining construction permits, registering property, getting credit, and      On January 11, 2011, Afghanistan and
  enforcing contracts. For example, the survey ranked Afghanistan as the worst in          Pakistan formally signed and exchanged
  the world (183rd) in terms of protecting investors, trading across borders, and          the instruments ratifying the Afghanistan-
  closing a business.316                                                                   Pakistan Transit Trade Agreement. This
     The survey noted that it takes about 250 days in Afghanistan to register property,    agreement, which is to go into effect within
  compared with 50 days in Pakistan, 37 in Tajikistan, 51 in Iraq, and 36 in Iran.317 In   30 days, will make it easier for Afghan
                                                                                           trucks to transport Afghan products to India.
  addition, the survey found that Afghanistan faced many challenges in trading across
  borders because of inefficient customs procedures that caused significant delays         Source: DoS, U.S. Embassy Kabul, response to SIGAR data
                                                                                           call, 1/19/2011.
  and too many paperwork requirements for both exporters and importers.318




           REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011           99
TITLE OF THE SECTION




100    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                COUNTER-NARCOTICS




COUNTER-NARCOTICS
From 2002 through 2010, the United States appropriated more than $4.49 billion
for counter-narcotics initiatives in Afghanistan.319 In 2010, Afghanistan saw a
marked decline in the yield of poppy fields. Nevertheless, the country remained
the world’s largest producer of poppy.
   This quarter, the Government of the Islamic Republic of Afghanistan (GIRoA)
conducted several successful interdiction campaigns. However, according to
the U.S. Department of Defense (DoD), Afghan counter-narcotics forces remain
highly dependent on the International Security Assistance Force (ISAF).

POPPY CULTIVATION AND OPIUM PRODUCTION
This quarter, the United Nations Office on Drugs and Crime (UNODC) reported
that Afghan opium production has dropped significantly—from 6,900 metric
tonnes (MT) in 2009 to 3,600 MT in 2010.320 The low yield was caused primarily
by a poppy blight that affected crops. DoD stated that GIRoA actions—including
campaigns carried out before planting time and alternative development pro-
grams—also contributed to the decrease in poppy cultivation.321
   Despite the low yield, the UNODC reported that Afghanistan remains the
largest poppy-cultivating country in the world, as shown in Figure 3.28 on the
next page.322 In 2010, Myanmar, the country with the second-highest cultivation,
produced 15.1 kilograms (kg) of poppy per hectare of land while Afghanistan
produced 29.2 kg per hectare.323
   According to the UNODC, the type of land in Afghanistan contributes to its
high poppy cultivation. Farmers in Myanmar grow poppy on steep hills with poor
soil and no irrigation systems, while Afghan farmers cultivate on flat land with
better soil and irrigation.324
   Twenty of Afghanistan’s 34 provinces were poppy-free, as of September 2010,
according to the U.S. Bureau of International Narcotics and Law Enforcement
Affairs (INL)—the same number reported by the UNODC in September 2009.
No new provinces became poppy-free in 2010; only two were made poppy-free
in 2009.325 Poppy-free provinces qualify for a $1 million annual incentive award
through the Good Performers Initiative, a joint effort of INL and the Afghan
Ministry of Counter-Narcotics.326




        REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011      101
COUNTER-NARCOTICS




FIGURE 3.28


POPPY CULTIVATION IN MAJOR POPPY-GROWING COUNTRIES, 1998–2010 (HECTARES)

250,000



200,000



150,000



100,000



 50,000


        0
            1998    1999      2000 2001 2002 2003 2004 2005                    2006 2007 2008 2009 2010


                Afghanistan      Myanmar         Lao PDR
Source: UNODC, “South East Asia: Opium Survey 2010,” 12/2010, p. 9.




NARCOTICS TRAFFICKING
Because of the low poppy yield in 2010, a hectare of poppy yielded a higher gross
income for Afghan poppy farmers in 2010—$4,900 per household, compared with
$3,600 in 2009.327 The revenue from the sale of these narcotics could provide more
than $660 million in funding for Afghan crime syndicates and billions of dollars of
profit for international criminal organizations, according to the UNODC.328

COMBATING THE DRUG TRADE
The narcotics trade weakens Afghanistan’s political stability, economic growth,
rule of law, and ability to address internal security problems, according to INL.
In addition, the narcotics trade hampers the fight against the insurgency. INL
stated this quarter that fighting the narcotics trade in Afghanistan requires a
whole-of-government approach, combining counter-insurgency, counter-narcotics,
development, and governance.329
   Corruption presents a special challenge to counter-narcotics efforts. According
to DoD, the prevalence of corruption creates a favorable environment for
narco-traffickers.330
   This quarter, U.S. counter-narcotics programming focused on assisting the
GIRoA with interdiction and alternative development programming.




  102                         SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                   COUNTER-NARCOTICS




Interdiction Operations
This quarter, most interdiction operations took place across the south and
southwest, where most poppy is grown. According to DoD, the Afghan National
Security Forces (ANSF) also increased the number of operations it carried out
in the east and north. These operations focused on combating the insurgency-
narcotics-corruption nexus.331
   From October 1 to December 27, 2010, the ANSF, in partnership with ISAF,
conducted 78 interdiction efforts in which 137 suspects were arrested. These
joint operations seized the following items:332
 • 21,072 kg of opium
 • 161 kg of morphine
 • 3,109 kg of heroin
 • 15,170 kg of chemicals
   As of January 6, 2011, there was no interdiction campaign plan in Afghanistan.
According to DoD, the lack of such a plan has created difficulties for military
planners and has limited the success of counter-narcotics efforts.333
   Afghanistan has several counter-narcotics forces, including the Counter-
                                                                                          A counter-narcotics poster denounces the
Narcotics Police of Afghanistan (CNPA) and the Afghan Special Narcotics
                                                                                          cultivation of poppy in Marjah, Helmand
Forces. However, DoD stated this quarter that these forces continue to rely               province. Reducing poppy cultivation is a
on ISAF support when operating in areas with a significant Taliban presence,              key element of U.S. and GIRoA counter-
especially in Regional Command-South, where the link between insurgency and               narcotics programming. (USMC photo,
the narcotics trade is strongest. According to DoD, the GIRoA continues to work           LCpl Richard P. Sanglap-Heramis)
closely with ISAF to improve the capabilities of the CNPA.334

Alternative Development Programming
Alternative development programming aims to provide farmers with economi-
cally viable legal alternatives to growing illicit crops.335 Agriculture is the major
source of income for most Afghans.336 The 2010 Afghanistan and Pakistan                      SIGAR AUDIT
Regional Stabilization Strategy identified agriculture as the fastest conveyer of
                                                                                             As part of an ongoing audit of U.S.
licit jobs. With more legal avenues at farmers’ disposal, the goal of the strategy is
                                                                                             assistance to the agriculture sector,
that fewer farmers will grow poppy, thereby weakening the drug trade that funds
                                                                                             SIGAR is examining the effectiveness of
the insurgency.337
                                                                                             U.S. agricultural programming in achiev-
    The U.S. Agency for International Development (USAID) does not measure
                                                                                             ing counter-narcotics objectives. For
progress in alternative development on a quarterly basis. Because farmers plant
                                                                                             more information, see Section 1, p. 16.
their crops in the fall, it is difficult to gauge the acreage that is planted until the
crops mature in February and March. However, three U.S. alternative develop-
ment projects reported specific activities this quarter:338
 • Afghanistan Vouchers for Increased Production in Agriculture (AVIPA) Plus
 • Afghanistan Water, Agriculture, and Technology Transfer (AWATT)
 • Roots of Peace




         REPORT TO THE UNITED STATES CONGRESS    I   JANUARY 30, 2011           103
                                                         COUNTER-NARCOTICS




                                                         AVIPA Plus
                                                         AVIPA Plus, an extension of the $60 million AVIPA project of 2008, was launched
                                                         in June 2009 and is set to end in March 2011. This $300 million project has two
                                                         purposes: to provide farmers with vouchers to purchase agricultural materials,
                                                         including seed and fertilizer, and to implement permanent programming in south-
                                                         ern Afghanistan (especially Helmand and Kandahar) that will make long-term
                                                         alternative development possible. The AVIPA project is increasingly focused on
                                                         permanent programming, which includes the following:339
                                                          • replacements for poppy (such as tree and vine crops)
                                                          • cash-for-work programs
                                                          • grants-in-kind to local organizations and communities rather than short-term
                                                             voucher assistance
                                                             As of December 31, 2010, USAID had distributed AVIPA vouchers to 173,755
                                                         farmers in 31 provinces. Of these vouchers, 165,380 were redeemed for certified
                                                         wheat seed and fertilizer. In a separate initiative, AVIPA distributed vouchers to
                                                         farmers in Helmand and Kandahar; 32,266 vouchers were redeemed for melon,
                                                         legume, okra, vegetable and corn seed, and fertilizer.340
                                                             AVIPA also performs province-specific activities. For instance, under the
                                                         IDEA-NEW program, 15,000 farmers in Nangarhar, Laghman, Kunar, and Nuristan
  Jerib: one-fifth of a hectare of land.                 received vouchers for vegetable seeds and fertilizer to plant on half a jerib of
                                                         land. In Helmand, where approximately 50% of all Afghan poppy was cultivated
                                                         in 2010, the project provided farmers with agricultural inputs (including seed,
Source: USAID, “RAMP Nangarhar Emergency Wheat Package   fertilizer, tools, and machinery) as well as training in agricultural modern tech-
Report,” 6/2006, p. 1.
                                                         niques. According to USAID, the additional income derived through this program
                                                         is likely to deter farmers from growing poppy; however, the program has not
                                                         tracked whether these farmers have switched to other crops.341

                                                         AWATT
                                                         As noted in SIGAR’s October 2010 report, reductions in poppy cultivation are
                                                         sustainable only if water is available to grow alternative crops. INL has reported
                                                         that poppy requires less water than other crops—a benefit in a land plagued by
                                                         drought and poor irrigation.342
  Karezes: traditional underground water                     The $24 million AWATT program aims to improve licit agricultural productivity
  systems in Afghanistan, which can be                   by developing efficient, community-based, irrigation water resource distribution
  thousands of years old. The water in these             and management systems.343 AWATT, a USAID/New Mexico State University proj-
  systems flows all year; farmers have mini-             ect, has active projects in several provinces, as shown in Figure 3.29.344
  mal control over the discharge rate from                   This quarter, AWATT focused on rehabilitating karezes. Demand for water has
  season to season, or from day to night.                increased, lowering the water table. As a result, old irrigation systems are pro-
                                                         ducing less water. According to USAID, the karezes have been collapsing, forcing
                                                         villagers to find ways to clean or rebuild the water systems—a dangerous, time-
Source: USAID, response to SIGAR data call, 1/3/2011.
                                                         consuming job.345




                                                          104               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                 COUNTER-NARCOTICS




   The Shindand district in Herat has been facing acute difficulty with karezes.     FIGURE 3.29

This quarter, AWATT engineers designed a way to rehabilitate the district’s
                                                                                     AWATT PROJECTS BY PROVINCE
karezes, lining them with rock masonry and precast concrete slabs to eliminate
cave-ins and thus the need to clean the systems annually. In addition to the
repairs, engineers installed a gate at the end of the newly lined karezes so that
farmers can control the flow of the water from the systems.346

Roots of Peace
As of December 2010, nearly $3.5 million had been disbursed under the Roots
of Peace grant, according to USAID. Roots of Peace aims to increase income for
rural farmers by improving their production and shifting their focus to crops with
higher market value. The program operates in 16 southern, eastern, and central                                                 No Activity
provinces. According to USAID, the program had made the following progress:347                                                 Planning Projects
• High-market-value orchards: Some 645 hectares of orchards and vineyards                                                      Active Projects

   were planted by 4,000 farmers.
                                                                                     Source: New Mexico State University, “Afghanistan Water,
• Exporting and marketing fresh fruits: Grapes, pomegranates, mulberry,              Agriculture and Technology Transfer,” accessed online
                                                                                     1/9/2011.
   apricots, and apples were exported to Dubai, Tajikistan, India, Pakistan,
   the Netherlands, and Canada. Roots of Peace assistance with fruit storage
   enabled farmers and merchants to increase post-season sales. As a result,
   prices increased two- to threefold over four to five months.
• Gender activities: Women in 125 households began establishing small-scale
   poultry enterprises.

Eradication
Although the United States does not perform poppy eradication activities,
the GIRoA conducts some eradication through the Governor-Led Eradication
program. No poppy fields were eradicated this quarter because eradication is a
seasonal activity, conducted from February to May.348
   This quarter, the UNODC reported that eradication operations in 2010 had
affected only 2% of the area under cultivation. In Myanmar, operations in 2010
eradicated 22%.349




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011        105
TITLE OF THE SECTION




106    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           ANTI-CORRUPTION




ANTI-CORRUPTION
As of December 31, 2010, the United States had appropriated more than $16.15 bil-
lion to support governance and development in Afghanistan; governance includes
anti-corruption efforts.350                                                                     SIGAR AUDIT
    In an audit report issued last quarter, SIGAR noted that reconstruction funding
                                                                                                In an audit report released in August
was still being provided without a comprehensive anti-corruption strategy. This
                                                                                                2010, SIGAR found that the United
quarter, SIGAR received reports that the strategy was signed, but at press time had
                                                                                                States had provided relatively little
not received documentation confirming that the strategy had been finalized.
                                                                                                assistance to Afghan anti-corruption
    Transparency International ranked Afghanistan the third most corrupt country
                                                                                                entities charged with monitoring the
in the world in 2010.351 Although a 2010 Asia Foundation survey found that 78% of
                                                                                                proper use of reconstruction funds. For
Afghans have a positive opinion of their provincial governments, a Transparency
                                                                                                more information, see SIGAR, Audit
International survey published this quarter showed that Afghans are split in their
                                                                                                10-15, “U.S. Reconstruction Efforts in
opinions about government effectiveness in fighting corruption.352 The survey,
                                                                                                Afghanistan Would Benefit from a
which measured public perceptions of corruption in 86 countries, found that 39%
                                                                                                Finalized Comprehensive U.S. Anti-
of Afghans believe that the Government of the Islamic Republic of Afghanistan
                                                                                                Corruption Strategy,” available at
(GIRoA) has been ineffective in fighting corruption, as shown in Figure 3.30.353 The
                                                                                                www.sigar.mil.
barometer also showed that Afghans consider the judiciary to be the most corrupt
institution in the country—more corrupt than political parties, police forces, the
legislature, and the private sector.354 Survey results also indicated that petty bribery
is a common problem in Afghanistan: 61% of Afghans reported that they had paid a
bribe in the preceding 12 months.355
                                                                                            FIGURE 3.30


GIROA EFFORTS                                                                               AFGHAN PUBLIC PERCEPTION OF
According to the United Nations Assistance Mission in Afghanistan (UNAMA), the              THE GIRoA’S EFFORTS TO FIGHT
GIRoA has been increasing its focus on anti-corruption programming.356 For instance,        CORRUPTION (PERCENT)
on December 5, 2010, the Herat Provincial Council organized a two-day forum to
discuss streamlining anti-corruption efforts in the province. Speaking at that event,
the Director-General of the High Office of Oversight and Anti-Corruption (HOOAC,
previously referred to as the HOO) stated that civil society, provincial councils, and                       Effective       Ineffective
the public sector can all play a crucial role in improving anti-corruption efforts in the                    35              39

province. The forum received support from the UNAMA and other UN agencies.357
    The GIRoA’s anti-corruption efforts are divided between several agencies and                                         Neither
organizations that receive support from the United States and other international                                        26
donors. Table 3.8 on the next page provides an overview of each organization,
its areas of responsibility, the leader of the organization, and the U.S. agencies
                                                                                            Source: Transparency International, “Global Corruption
supporting it.                                                                              Barometer 2010,” 12/9/2010, p. 47.




         REPORT TO THE UNITED STATES CONGRESS    I   JANUARY 30, 2011            107
                                                                   ANTI-CORRUPTION




                                                                   High Office of Oversight and Anti-Corruption
                                                                   The HOOAC was established by President Hamid Karzai in July 2008. He charged it
                                                                   with the primary responsibility for overseeing and coordinating the implementation
                                                                   of the GIRoA’s anti-corruption strategy. The HOOAC is also responsible for imple-
                                                                   menting administrative procedural reform in Afghanistan.358
                                                                      In December 2010, the Director-General of the HOOAC stated that the GIRoA
                                                                   was working to revise Afghanistan’s anti-corruption laws so that they conform to
                                                                   the provisions of the United Nations Convention against Corruption.359
                                                                      In a report issued in November 2010, DoD noted that the HOOAC had begun
                                                                   publishing the asset declarations of senior GIRoA officials. However, some senior
                                                                   officials had refused to complete their declarations despite requests from the
                                                                   HOOAC and President Karzai. DoD reported that the HOOAC has also been slow to
                                                                   publish the declarations it received—an indication that the HOOAC is reluctant to
                                                                   undertake serious reforms when they are politically sensitive.360

                                                                   Progress on Corruption Cases
                                                                   This quarter, the U.S. Bureau of International Narcotics and Law Enforcement Affairs
                                                                   (INL) reported that it had been using case records from the Anti-Corruption Unit
                                                                   (ACU) to track the success of anti-corruption activities. Specifically, INL had tracked
                                                                   the number of corruption cases being developed, the speed with which they were
                                                                   handled, and their dispositions. However, the Afghan Attorney General, who leads the
                                                                   ACU, had subsequently refused to provide INL with updates on corruption cases. INL
                                                                   noted that until the Attorney General is willing to share these records with the interna-
                                                                   tional community, INL will not be able to track the progress of these cases.361
                                                                      The GIRoA has several law enforcement offices that specialize in anti-corruption
                                                                   cases. The Major Crimes Task Force (MCTF) investigates potential corruption crimes.
                                                                   When the MCTF makes arrests, the ACU prosecutes the cases in the Anti-Corruption
TABLE 3.8


GIROA ANTI-CORRUPTION ORGANIZATIONS
                                                                                                                            U.S. Support
Focus                   Organization                         Reports To                                                     Provided By          Mission
Preventive              High Office of Oversight and         President                                                      USAID                Coordinate and monitor the implementation of
Measures                Anti-Corruption (HOOAC),                                                                                                 preventive measures, including the Anti-Corruption
                        established 2008                                                                                                         Strategy, to help limit government corruption
Government              Control and Audit Office             President                                                      USAID,               Audit financial matters within the GIRoA
Oversight               (CAO), established 1981                                                                             Treasury
Prosecution             Anti-Corruption Unit (ACU),          Attorney General                                               DoJ, INL             Prosecute corruption cases
                        established 2009
Investigation           Major Crimes Task Force              Deputy Minister of Security (Ministry of Interior), Director   INL, DoJ, FBI        Investigate high-level corruption cases
                        (MCTF), established 2009             of Security General (National Directorate of Security)
Drug-Related Law        Criminal Justice Task Force          Ministry of Interior (Counter-Narcotics Police of              INL                  Investigate and prosecute drug-related crimes and
Enforcement             (CJTF), established 2005             Afghanistan), Ministry of Justice (prosecutors),                                    corruption
                                                             Supreme Court (Central Narcotics Tribunal)
Sources: HOOAC, “Who We Are?” accessed online 1/16/2011; U.S. Embassy Kabul, “Afghanistan Celebrates Anti-Corruption Day,” 12/15/2010; SIGAR, Audit 10-8, “Afghanistan’s Control and Audit Office
Requires Operational and Budgetary Independence, Enhanced Authority, and Focused International Assistance to Effectively Prevent and Detect Corruption,” 4/9/2010; DoS, “Clinton: Afghans Face Critical
Moment With Karzai’s Second Term,” 11/19/2010; INL, response to SIGAR data call, 1/6/2011; INL, “Afghanistan Program Overview,” accessed online 1/14/2011; DoJ, “Attorney General Travels to
Afghanistan for Meetings with U.S., Afghan Officials,” 6/30/2010; DoS, “Advancing Freedom and Democracy Reports,” 5/2009; CJTF, “Welcome to the CJTF Website,” accessed online 1/16/2011.




                                                                      108                            SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                           ANTI-CORRUPTION




Tribunal.362 Drug-related corruption cases are handled by the Criminal Justice Task
Force, a team of Afghan prosecutors and police investigators who investigate and
prosecute significant narcotics crimes and related crimes such as corruption and
money laundering. These crimes are tried before the Central Narcotics Tribunal.363

Major Crimes Task Force
As of December 2010, the MCTF had 100 investigators from the Ministry of Interior
(MoI), and 63 from the National Directorate of Security. According to INL, the
MCTF is operating at 70% capacity.364                                                  SIGAR AUDIT
   The MCTF receives counterterrorism and intelligence support from the U.S.
                                                                                       In an ongoing audit, SIGAR is examining
Federal Bureau of Investigation and mentoring support from the U.S. Department of
                                                                                       the effectiveness of U.S. efforts to
Justice (DoJ).365 The MCTF continued to pursue corruption cases for investigation
                                                                                       strengthen the capabilities of the
this quarter and has arrested officials who are believed to be corrupt, according to
                                                                                       Major Crimes Task Force. For more
INL. However, few of these cases have been brought to trial.366
                                                                                       information, see Section 1, page 16.
   In early 2010, the MCTF conducted an investigation of government official
Muhammad Zia Salehi, which led to his arrest in June for accepting a bribe for
releasing a detainee.367 Following the arrest, President Karzai ordered Salehi’s
release and demanded two investigations of the MCTF, for illegal activities and for
violations of Salehi’s human rights.368 The Attorney General dismissed the case,
despite evidence that the accused engaged in corruption. In December, according
to INL, the Attorney General discussed transferring two lead prosecutors on the
Salehi case to a provincial office.369

Anti-Corruption Unit
The ACU falls under the Afghan Attorney General’s Office. In the past, its prosecu-
tors and investigators (all Afghans) had DoJ mentors and specialists to provide
advice and mentoring support.370 However, according to INL, in July 2010, the          SIGAR AUDIT
Attorney General terminated all mentoring activities for the ACU and for the
                                                                                       In an audit report released in
Attorney General’s Office. The DoJ mentors were permitted to return to the ACU in
                                                                                       December 2009, SIGAR found that
December but were still restricted from assisting prosecutors on specific cases. INL
                                                                                       the HOO suffered from a limited
observed that more cases were being diverted away from the ACU and the Anti-
                                                                                       operational capacity. The audit also
Corruption Tribunal to other courts and prosecutors.371
                                                                                       found that the organization lacked
   Also in July, according to INL, the Attorney General issued a directive that
                                                                                       the independence required to meet
prohibited the use of polygraphs to vet prosecutors—a screening process that
                                                                                       international standards for an oversight
had been set in place to prevent corruption. Since July, the Attorney General
                                                                                       institution and that the United States
hired 50 prosecutors for the ACU, none of whom have been screened with poly-
                                                                                       had not designated a specific office to
graphs. The Supreme Court issued a similar directive prohibiting polygraphs; as
                                                                                       oversee or coordinate U.S. assistance
a result, only 5 of the 11 judges on the Anti-Corruption Tribunal have been vetted
                                                                                       to the HOO. For more information, see
with polygraphs.372
                                                                                       SIGAR, Audit 10-2, “Afghanistan’s High
   This quarter, the GIRoA secured eight corruption convictions of mid-level
                                                                                       Office of Oversight Needs Significantly
government officials, none of them through the Anti-Corruption Tribunal;
                                                                                       Strengthened Authority, Independence,
however, INL noted that these cases were under appeal. INL also noted that no
                                                                                       and Donor Support to become an
high-level government officials were prosecuted. The GIRoA initiated several
                                                                                       Effective Anti-Corruption Institution,”
investigations, but INL was not provided with details.373
                                                                                       available at www.sigar.mil.




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011            109
               Guarding the Roads
               A member of the Road Maintenance Team (RMT) scans
               the Tagab Valley for insurgent activity at a checkpoint in
               November 2010. This checkpoint was built by the RMT,
               civilians, and personnel from the International Security
               Assistance Force and the Afghan National Police. A SIGAR
               audit released this quarter found that many road projects
               are at risk because of inadequate planning for maintenance
               and sustainment. (ISAF photo, USAF SSgt Joseph Swafford)




110   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
4   OTHER AGENCY
    OVERSIGHT




       111
OTHER AGENCY OVERSIGHT




112    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
Each quarter, SIGAR requests updates from other agencies on completed and
ongoing oversight activities. These agencies are performing oversight activities in
Afghanistan and providing results to SIGAR:
• Department of Defense Office of Inspector General (DoD OIG)
• Department of State Office of Inspector General (DoS OIG)
• U.S. Government Accountability Office (GAO)
• U.S. Army Audit Agency (USAAA)
• U.S. Agency for International Development Office of Inspector General
   (USAID OIG)
The descriptions appear as they were submitted, with these changes for consis-
tency with other sections of this report: acronyms and abbreviations in place of
full names; standardized capitalization, hyphenation, and preferred spellings; and
third-person instead of first-person construction.

COMPLETED OVERSIGHT ACTIVITIES
Table 4.1 lists the five oversight projects related to reconstruction or security that
the participating agencies reported were completed this quarter.

TABLE 4.1


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES,
AS OF DECEMBER 31, 2010
Agency                   Report Number                    Date Issued           Project Title
DoS OIG-MERO             10-MERO-3002                   12/30/2010              Review of the Department of State’s Contract with PAE To Provide Operations and Maintenance
                                                                                to Embassy Kabul
GAO                      GAO-11-138                     11/15/2010              Afghanistan Development: U.S. Efforts To Support Afghan Water Sector Increasing, But Improvements
                                                                                Needed in Project Planning, Coordination, and Management
GAO                      GAO-11-1                         10/1/2010             Iraq and Afghanistan: DoD, State, and USAID Face Continued Challenges in Tracking Contracts,
                                                                                Assistance Instruments, and Associated Personnel
USAAA                    A-2011-0020-ALL                11/16/2010              Commander’s Emergency Response Program (CERP), U.S. Forces - Afghanistan (USFOR-A) (FOUO)
USAID OIG                F-306-11-001-S                   11/6/2010             Review of USAID/Afghanistan’s Ministerial Assessment Process
Note: MERO = Middle East Regional Office.
Sources: DoD OIG, response to SIGAR data call, 1/3/2011; DoS OIG, response to SIGAR data call, 1/4/2011; DoS OIG-MERO, response to SIGAR data call, 1/4/2011; GAO, response to SIGAR data call,
1/4/2011; USAAA, response to SIGAR data call, 1/5/2011; USAID OIG, response to SIGAR data call, 12/21/2010.




             REPORT TO THE UNITED STATES CONGRESS                      I   JANUARY 30, 2011                          113
OTHER AGENCY OVERSIGHT




U.S. Department of State Office of Inspector General–
Middle East Regional Office
Review of the Department of State’s Contract with PAE To Provide Operations and
Maintenance to Embassy Kabul
(Report No. 10-MERO-3002, Issued December 30, 2010)
The objectives of this performance evaluation are to determine: (1) the require-
ments and provisions of the contract and task orders, (2) the amount of funding
the Department has obligated and expended to provide embassy facility opera-
tions and maintenance through contracts for fiscal years 2005-2009, (3) the
effectiveness of PAE’s contract performance in providing facility operations and
maintenance to Embassy Kabul, (4) PAE’s controls for inventorying, record-
ing, and safeguarding U.S. government-furnished equipment and property in
Afghanistan, whether the equipment has been properly accounted for, and the
challenges to maintaining accountability, (5) how well the Department admin-
isters and manages the contract and task orders to provide oversight of PAE’s
performance in Afghanistan, (6) whether the contract includes FAR clause
52.222.50, which provides administrative remedies if, during the term of the
contract, the contractor or subcontractor engage in severe forms of trafficking in
persons, and (7) how the Department ensures that costs are properly allocated
and supported.

Government Accountability Office
During the last quarter, GAO released two reports—one pertaining to U.S. efforts
to support the Afghan water sector, and U.S. agencies’ implementation of the
Synchronized Predeployment and Operational Tracker in Afghanistan and Iraq.
• GAO’s report on U.S. efforts to support the Afghan water sector found that
    the goals outlined in the U.S. government’s 2010 Inter-Agency Water Strategy
    generally align with Afghan government strategic goals for the water sector. The
    Strategy identifies short-, medium-, and long-term goals to be achieved between
    2010 and 2014. Additionally, since 2002, the U.S. government has implemented a
    wide range of water projects throughout Afghanistan to improve access to safe
    drinking water and sanitation, agriculture irrigation, and water-sector manage-
    ment. These projects generally align with Afghan water-sector goals.
       The United States expects to accelerate development efforts in the water
    sector and estimates that an additional $2.1 billion will be needed to fund
    these efforts from FY 2010 through FY 2014. The Government Performance
    and Results Act and several U.S. strategic documents concerning opera-
    tions in Afghanistan emphasize the importance of inter-agency coordination.
    GAO has reported on the importance of inter-agency coordination and
    collaboration when multiple U.S. agencies are involved in U.S. counter-
    terrorism-related efforts.
       GAO’s review showed that the United States has taken steps to better
    coordinate water-sector development projects but that additional efforts are



 114                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                    OTHER AGENCY OVERSIGHT




  needed. For example, the U.S. government has developed an Infrastructure
  Working Group, an Inter-Agency Water Strategy, and has started to meet on
  a regular basis. However, an inter-agency implementation plan called for in
  the strategy has not been completed. Also, USAID and DoD have not devel-
  oped a centralized database to enhance coordination, which GAO previously
  recommended. Moreover, U.S. agencies generally do not meet on a regular
  basis with all the relevant ministries in the Afghan government, and they lack
  complete data concerning other donor projects to maximize the U.S. invest-
  ment in development projects.
     USAID’s Automated Directives System outlines USAID’s performance
  management and monitoring procedures. GAO found that gaps existed in
  USAID’s performance management and monitoring efforts for water sector
  projects in Afghanistan. For example, while four of the six implementers of
  projects GAO reviewed established performance indicators, some did not
  always establish targets for the indicators as required. In addition, although
  USAID collected quarterly progress reports from five of the six water project
  implementers for the projects GAO reviewed, it did not analyze and interpret
  this information as required. Finally, though USAID has identified several
  alternative monitoring procedures staff can use to help mitigate monitoring
  challenges in high-threat environments, USAID has not effectively ensured
  that such guidance was disseminated to staff in Afghanistan.
     The U.S. government has included a focus on building sustainability
  into U.S.-funded water projects in Afghanistan. Recent U.S. strategies have
  emphasized the importance of project sustainability. GAO has identified
  two key elements to ensuring water project sustainability: enhancing tech-
  nical and managerial capacity to maintain projects within the institutions
  with water-sector responsibilities, and ensuring funding is available to keep
  projects operational after they have been completed. Ongoing USAID water
  projects included in this review have incorporated sustainability initiatives.
  DoD guidance also emphasizes sustainability. However, DoD officials have
  acknowledged the difficulties of sustaining water projects in Afghanistan.
     GAO makes several recommendations to the USAID Administrator, in
  conjunction with DoD and other relevant agencies, to improve planning,
  coordination, and management of U.S.-funded water projects in Afghanistan.
  This includes developing an inter-agency plan and designating a centralized
  database. GAO also recommends steps the USAID Administrator needs to
  take to improve performance management. USAID and DoD generally con-
  curred with GAO’s recommendations (GAO-11-138).
• GAO’s report on U.S. agencies’ implementation of the Synchronized
  Predeployment and Operational Tracker (SPOT) found that while DoD,
  DoS, and USAID designated SPOT as their system for tracking statutorily
  required information in July 2008, SPOT still cannot reliably track informa-
  tion on contracts, assistance instruments, and associated personnel in Iraq
  or Afghanistan. As a result, the agencies relied on sources of data other
  than SPOT to respond to GAO requests for information. The agencies’



        REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011       115
OTHER AGENCY OVERSIGHT




   implementation of SPOT has been affected by some practical and technical
   issues, but their efforts also were undermined by a lack of agreement on
   how to proceed, particularly on how to track local nationals working under
   contracts or assistance instruments. The lack of agreement was due in part
   to agencies not having assessed their respective information needs and how
   SPOT can be designed to address those needs and statutory requirements.
      In 2009, GAO reported on many of these issues and recommended that
   the agencies jointly develop a plan to improve SPOT’s implementation. The
   three agencies reported to GAO that as of March 2010 there were 262,681
   contractor and assistance personnel working in Iraq and Afghanistan, 18% of
   whom performed security functions. Due to limitations with agency-reported
   data, caution should be used in identifying trends or drawing conclusions
   about the number of personnel in either country. Data limitations are attrib-
   utable to agency difficulty in determining the number of local nationals, low
   response rates to agency requests for data, and limited ability to verify the
   accuracy of reported data. For example, a DoS office noted that none of its
   Afghan grant recipients provided requested personnel data.
      While agency officials acknowledged not all personnel were being counted,
   they still considered the reported data to be more accurate than SPOT data.
   Only DoS and USAID tracked information on the number of contractor and
   assistance personnel killed or wounded in Iraq and Afghanistan during the
   review period. DoS reported 9 contractor and assistance personnel were killed
   and 68 wounded, while USAID reported 116 killed and 121 wounded. Both
   agencies noted that some casualties resulted from nonhostile actions. DoD still
   lacked a system to track similar information and referred GAO to Department
   of Labor data on cases filed under the Defense Base Act for killed or injured
   contractors. As GAO previously reported, Labor’s data provide insights but are
   not a good proxy for the number of contractor casualties.
      DoD, DoS, and USAID obligated $37.5 billion on 133,951 contracts and
   assistance instruments with performance in Iraq and Afghanistan during FY
   2009 and the first half of FY 2010. DoD had the vast majority of contract obli-
   gations. Most of the contracts were awarded during the review period and
   used competitive procedures. DoS and USAID relied heavily on grants and
   cooperative agreements and reported that most were competitively awarded.
      While DoD and DoS did not comment on the draft report, USAID com-
   mented on the challenges of implementing SPOT and provided revised
   personnel data that GAO reviewed and included in the report. In response to
   GAO’s 2009 report, DoD, DoS, and USAID did not agree with the recommen-
   dation to develop a plan for implementing SPOT because they felt ongoing
   coordination efforts were sufficient. GAO continues to believe a plan is
   needed to correct SPOT’s shortcomings and is not making any new recom-
   mendations (GAO-11-1).
In addition, GAO began a new engagement focusing on U.S. efforts to build the
Afghan government’s capacity to manage its budget and finances.




 116               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




U.S. Army Audit Agency
Commander’s Emergency Response Program (CERP), U.S. Forces -Afghanistan
(USFOR-A) (FOUO)
(Report No. A-2011-0020-ALL, Issued November 16, 2010)
This report is protectively marked For Official Use Only. The Deputy
Commanding General, USFOR-A requested the audit. USFOR-A agreed with the
report’s conclusions and recommendations and took action or was in the process
of taking action on the recommendations. The Assistant Secretary of the Army
(Financial Management and Comptroller) provided the official Army position and
agreed with the report’s finding and recommendations.

U.S. Agency for International Development Office
of Inspector General
Review of USAID/Afghanistan’s Ministerial Assessment Process
(Report No. F-306-11-001-S, Issued November 6, 2010)
The final report was issued on November 6, 2010. USAID OIG conducted this
review to determine whether USAID’s ministerial assessment process provides
reasonable assurance of identifying significant vulnerabilities that could result in
waste or misuse of U.S. government resources.
   Most of the assessments completed to date were based mainly on reviews of
written procedures, inquiries of ministry officials, and inspection of a limited
number of transactions. More testing of controls would have provided greater
assurance of detecting vulnerabilities that could result in waste or misuse of U.S.
government funds.
   The draft scopes of work for future assessments can be strengthened by tell-
ing reviewers what program(s) ministries may be asked to manage, assessing the
control environment, expanding coverage of controls over human resources and
fixed assets, and providing more detailed guidance to reviewers on how to assess
compliance with applicable laws and regulations.
   The report recommended that USAID/Afghanistan
 • Develop and implement suitable policies, procedures, and practices so that
    ministerial assessments will provide reasonable assurance of identifying
    significant vulnerabilities that could result in waste or misuse of U.S. govern-
    ment funds.
 • Make appropriate modifications to the scopes of work for future ministerial
    assessments as outlined in this report.
 • Rely on joint donor assessments of host government ministries to the degree
    that they meet USAID’s needs. If additional assessments are needed to meet
    USAID’s needs, the work should build on but not duplicate work already
    performed, to the extent possible.




         REPORT TO THE UNITED STATES CONGRESS    I   JANUARY 30, 2011        117
                                            OTHER AGENCY OVERSIGHT




                                            ONGOING OVERSIGHT ACTIVITIES
                                            As of December 31, 2010, the participating agencies reported 38 ongoing over-
                                            sight activities related to reconstruction or security in Afghanistan. The activities
                                            reported are listed in Table 4.2 and described in the following sections by agency.

                                            Department of Defense Office of Inspector General
                                            DoD continues to face many challenges in executing its Overseas Contingency
                                            Operations (OCO), formerly known as “the Global War on Terror.” DoD OIG has
TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF DECEMBER 31, 2010
Agency          Project Number           Date Initiated   Project Title
DoD OIG         D2011-D000FR-0089.000    11/30/2010       Internal Controls Over Distribution and Reconciliation of Funds for the Afghanistan National Army
                                                          Payroll
DoD OIG         D2011-D000JB-0068.000    11/17/2010       Requirements Development Process for Military Construction Projects in Afghanistan
DoD OIG         D2011-D000JA-0075.000      11/2/2010      DoD Oversight of the Northern Distribution Network
DoD OIG         D2011-D000AS-0030.000      10/1/2010      Management and Oversight for DoD Acquisition and Support of Non-Standard Rotary Wing Aircraft
DoD OIG and     D2011-D000JA-0009.000      9/30/2010      Afghan National Police Training Program (Joint)
DoS OIG         11AUD3001                    11/2010
DoD OIG         D2010-D000FL-0276.000       9/2/2010      Controls Over the Reporting and Propriety of Commander’s Emergency Response
                                                          Program Payments in Afghanistan
DoD OIG         D2010-D000JA-0165.001      6/21/2010      Implementation of Security Provisions of a U.S. Army Intelligence and
                                                          Security Command Contract for Linguist Support
DoD OIG         D2010-D000JO-0229.000      6/14/2010      Construction of the Detention Facility in Parwan, Afghanistan
DoD OIG         D2010-D000SPO-0198.000     4/19/2010      Assessment of Efforts To Train, Equip, and Mentor the Expanded Afghan National Police
DoD OIG         D2010-D000JA-0138.000      2/18/2010      Information Operations in Afghanistan
DoD OIG         D2010-D000JA-0091.000      12/9/2009      Force Protection Programs for U.S. Forces in Afghanistan
DoD OIG         D2008-D000CD-0256.000       8/7/2008      DoD Body Armor Contracts
DoS OIG/SIGAR   11AUD3003                    10/2010      Afghanistan Civilian Uplift (Joint)
DoS OIG-MERO    11-MERO-3007                 12/2010      Limited-Scope Review of the Needs Assessments and Facilities Conditions for Newly Developed
                                                          Department of State Positions in Afghanistan
DoS OIG-MERO    11-MERO-3003                 10/2010      Review of the Bureau of International Narcotics and Law Enforcement Affairs’ Facility Operations and
                                                          Maintenance Support Contract with the Major Crimes Task Force in Afghanistan (Contract Evaluation)
DoS OIG-MERO    11-MERO-3004                   9/2010     Review of the Bureau of Population, Refugees, and Migration (PRM) Program Effectiveness To
                                                          Reintegrate and Resettle Afghan Refugees
DoS OIG-MERO    11-MERO-3001                   9/2010     Review of the Bureau of International Narcotics and Law Enforcement Affairs’ Correction systems
                                                          support Program (CSSP) in Afghanistan
DoS OIG-MERO    10-MERO-3001                   2/2010     Review of the Department of State’s Contract with PAE To Provide Operations and Maintenance to
                                                          Afghan Counter-Narcotics Units in Afghanistan
GAO             351552                     12/9/2010      Marine Corps Equipping Strategies to Reset Equipment
GAO             320815                     11/5/2010      Afghan Capacity Building
GAO             351525                     8/13/2010      DoD Task Force for Business and Stability Operations (TFBSO)
GAO             320794                     7/21/2010      Accountability of U.S. Direct Funding to Afghanistan
GAO             351514                     6/14/2010      Army Advise and Assist Brigades
GAO             351492                     4/30/2010      Personnel, Equipment, and Supply Support for Operations in Afghanistan
GAO             351489                     4/26/2010      DoD Vetting in Afghanistan




                                               118                  SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                               OTHER AGENCY OVERSIGHT




TABLE 4.2 (CONTINUED)


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF DECEMBER 31, 2010
Agency                   Project Number                      Date Initiated          Project Title
GAO                      320766                                  4/1/2010            U.S. Civilian Surge in Afghanistan
GAO                      351463                                3/12/2010             Afghanistan ISR Capabilities
GAO                      320712                                  9/2/2009            U.S. Efforts To Develop Capable Afghan National Army (ANA) Forces
GAO                      351393                                8/21/2009             DoD Health Care Requirements for Contingency Operations
USAAA                    A-2011-ALL-0098.000                   10/9/2010             Bulk Fuel Operations in Afghanistan
USAAA                    A-2011-ALL-0135.000                   10/9/2010             Micro-Purchases of Field Ordering Officers - Afghanistan
USAAA                    A-2010-ALL-0480.000                   5/21/2010             Agreed-Upon Procedures Attestation for USFOR-A LOGCAP Course of Action - Afghanistan
USAAA                    A-2010-ALL-0421.000                     4/4/2010            LOGCAP IV Contract Requirements Determination-Afghanistan
USAAA                    A-2010-ALL-0103.000                    3/3//2010            Controls Over Vendor Payments Phase II - Afghanistan
USAID OIG                Not provided                          Not provided          Review of Cash Disbursement Practices Employed by Selected USAID/Afghanistan
                                                                                     Contractors and Grantees
USAID OIG                Not provided                          Not provided          Audit of USAID/Afghanistan’s Election Support Programs
USAID OIG                Not provided                          Not provided          Audit of USAID/Afghanistan’s Water, Agriculture and Technology Transfer (AWATT) Program
USAID OIG                Not provided                          Not provided          Audit of USAID/Afghanistan’s Construction of Health and Education Facilities (CHEF) Program
Sources: DoD OIG, response to SIGAR data call, 1/3/2011; DoS OIG, response to SIGAR data call, 1/4/2011; DoS OIG-MERO, response to SIGAR data call, 1/4/2011; GAO, response to SIGAR data call,
1/4/2011; USAAA, response to SIGAR data call, 1/5/2011; USAID OIG, response to SIGAR data call, 12/21/2010.




identified priorities based on those challenges and has responded by expand-
ing its coverage of OCO operations and its presence in Southwest Asia. As DoD
continues its OCO to include Operation Enduring Freedom (OEF), it will stay
focused on issues important to accomplish the mission and ensure the depart-
ment makes efficient use of its resources to support the warfighter.
    The DoD OIG-led Southwest Asia Joint Planning Group coordinates and
deconflicts federal and DoD OCO-related oversight activities. The Group held its
fifteenth meeting in November 2010.
    DoD OIG’s ongoing OEF-related oversight addresses the safety of personnel
with regard to construction efforts, force protection programs for U.S. personnel,
accountability of property, improper payments, contract administration, distri-
bution and reconciliation of funds for the Afghan National Army (ANA) payroll;
oversight of the contract for training the Afghan National Police (ANP); logistical
distribution within Afghanistan; information operations, armoring capabilities,
and acquisition planning and controls over funding for the Afghan National
Security Forces (ANSF).

Oversight Activities
For the first quarter of FY 2011, DoD OIG had 43 ongoing oversight activities and
issued 3 reports that support OEF. Of those 43 ongoing projects, 12 directly relate
to reconstruction or security operations in Afghanistan and are incorporated in
this quarterly report. Of the 3 issued reports, none directly relate to reconstruc-
tion or security operations in Afghanistan as defined by SIGAR and therefore are




             REPORT TO THE UNITED STATES CONGRESS                      I   JANUARY 30, 2011                          119
OTHER AGENCY OVERSIGHT




not incorporated in this quarterly report. These three reports address contract
administration matters and testing of assets that support DoD operations in
Afghanistan.

Internal Controls Over Distribution and Reconciliation of Funds
for the Afghanistan National Army Payroll
(Project No. D2011-D000FR-0089.000, Initiated November 30, 2010)
DoD OIG is determining whether adequate controls are in place to ensure that
the North Atlantic Treaty Organization Training Mission - Afghanistan/Combined
Security Transition Command - Afghanistan (NTM-A/CSTC-A) is distributing DoD
funds accurately and timely to the Afghanistan ministries for the ANA payroll. In
addition, DoD OIG is determining whether NTM-A/CSTC-A has implemented an
adequate mentoring process to assist Afghanistan ministries in providing accu-
rate payments to ANA personnel.

Requirements Development Process for Military Construction
Projects in Afghanistan
(Project No. D2011-D000JB-0068.000, Initiated November 17, 2010)
DoD OIG is evaluating the requirements development process for military con-
struction projects in Afghanistan. Specifically, DoD OIG is determining whether
the requirements development process results in statements of work that clearly
define required results, have measurable outcomes, and meet DoD needs.

DoD Oversight of the Northern Distribution Network
(Project No. D2011-D000JA-0075.000, Initiated November 2, 2010)
DoD OIG is assessing DoD oversight of the Northern Distribution Network and
evaluating the ability of DoD to plan, coordinate, and execute sustainment opera-
tions for Afghanistan through the Northern Distribution Network.

Management and Oversight for DoD Acquisition and Support of Non-Standard
Rotary-Wing Aircraft
(Project No. D2011-D000AS-0030.000, Initiated October 1, 2010)
DoD OIG is determining whether DoD officials properly and effectively managed
the acquisition and support of non-standard rotary-wing aircraft, such as the
Russian Mi-17 aircraft, to include those acquired using the Afghanistan Security
Forces Fund or any DoD-related requirements. Multiple projects may be initiated
under this objective.

Afghan National Police Training Program
(Project No. D2011-D000JA-0009.000) [D-S 11AUD3001], Initiated September 30, 2010)
DoD OIG and the DoS Inspector General (DoS OIG) are performing this joint
audit to meet an anticipated requirement in the FY 2011 National Defense
Authorization Act that will require DoD OIG, in consultation with DoS OIG, to




  120                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




issue a report on the ANP Training Program. DoD OIG/DOS IG is evaluating
DoD and DoS efforts to transfer contract administration for the ANP Program.
Specifically, DoD OIG/DoS OIG will assess the cost, performance measures, and
planning efforts associated with the transfer to ensure enhanced contract over-
sight, adequate funding and support, and effective program management. The
joint team also plans to follow up on the joint DoD OIG Report No. D-2010-042
and DoS OIG Report No. MERO-A-I O-6, “Department of Defense Obligations and
Expenditures of Funds Provided to the Department of State for the Training and
Mentoring of the Afghan National Police,” February 9, 2010.

Controls Over the Reporting and Propriety of Commander’s Emergency Response
Program Payments in Afghanistan
(Project No. D2010-D000FL-0276.000, Initiated September 2, 2010)
DoD OIG is determining whether the internal controls over CERP payments
made to support operations in Afghanistan are adequate. Specifically, DoD OIG
will review the controls to ensure payments are proper and that complete, accu-
rate, and meaningful data is reported to those decision-makers responsible for
managing the CERP. This audit is the second in a series of audits that addresses
the internal controls over the CERP payments made to support operations in
Afghanistan.

Implementation of Security Provisions of a U.S. Army Intelligence and Security
Command Contract for Linguist Support
(Project No. D2010-D000JA-0165.001, Initiated June 21, 2010)
DoD OIG is determining whether the security provisions of a U.S. Army
Intelligence and Security Command contract for linguist support in Afghanistan
(W911W4-07-D-0010) were implemented effectively. This project is one in a
series of reviews regarding linguist support in Afghanistan. Project D2010-
D000JA-0165.000 addresses whether contract for linguist support in Afghanistan
(W911W4-07-D-0010) included appropriate security provisions.

Construction of the Detention Facility in Parwan, Afghanistan
(Project No. D2010-D000JO-0229.000, Initiated June 14, 2010)
DoD OIG is determining whether the U.S. Army Corps of Engineers and
USFOR-A procured construction services and administered the construction
contract for the Detention Facility in Parwan, Afghanistan, in accordance with
the Federal Acquisition Regulation and other applicable laws and regulations.
Specifically, DoD OIG will determine whether the U.S. Army Corps of Engineers
properly monitored contractor performance during construction of the Detention
Facility in Parwan and whether the U.S. Army Corps of Engineers has taken or
should take recourse against the contractor because of potential latent defects,
negligence, or fraud.




         REPORT TO THE UNITED STATES CONGRESS     I   JANUARY 30, 2011     121
OTHER AGENCY OVERSIGHT




Assessment of Efforts to Train, Equip, and Mentor the
Expanded Afghan National Police
(Project No. D2010-D000SPO-0198.000, Initiated April 19, 2010)
DoD OIG is determining whether U.S. government, NATO/International Security
Assistance Force (NATO/ISAF), coalition, and Government of the Islamic
Republic of Afghanistan (GIRoA) goals, objectives, plans, guidance, and resources
to train, equip, and mentor the ANP are prepared, issued, operative, and relevant.
DoD OIG will also determine the status of actions taken in response to recom-
mendations made in DoD OIG Report Nos. SPO-2009-006 and SPO-2009-007, as
they pertain to the ANP.

Information Operations in Afghanistan
(Project No. D2010-D000JA-0138.000, Initiated February 18, 2010)
DoD OIG is evaluating the ability of U.S. Central Command and USFOR-A to
conduct information operations in Afghanistan. Additionally, DoD OIG will
assess the support provided by DoD organizations that enable those commands
to conduct information operations.

Force Protection Programs for U.S. Forces in Afghanistan
(Project No. D2010-D000JA-0091.000, Initiated December 9, 2009)
DoD OIG is reviewing the force protection programs for primary gathering facili-
ties and billeting areas of U.S. forces in Afghanistan. Specifically, it is assessing
the program support and resources that commanders have for facility planning,
antiterrorism, and safety programs protecting their forces. The audit is focus-
ing on Bagram Airfield, Kandahar Airfield, Camp Eggers, and the New Kabul
Compound.

DoD Body Armor Contracts
(Project No. D2008-D000CD-0256.000, Initiated August 7, 2008)
DoD OIG is examining the contracts and contracting process for body armor and
related test facilities. Specific objectives will include evaluating the background
and qualifications of the contractors, the criteria for awarding the contracts, the
quality assurance process, and any relationships that may exist between the con-
tractors and government officials. The review of the quality assurance process
will include reviewing the results of First Article Testing and Lot Acceptance
Testing for the body armor contracts. DoD OIG issued Report No. D-2010-029, on
December 21, 2009, discussing the contract award of DoD body armor contracts.
DoD OIG plans to issue additional reports related to this project.




  122                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Department of State Office of Inspector General
Oversight Activities

Audit of the Afghan National Police Training (Joint)
(Project No. 11AUD3001, Initiated November 2010)
Objectives: Per an anticipated requirement in the FY 2011 National Defense
Authorization Act that will require DoD OIG, in consultation with DoS OIG, to
issue a report on the ANP training program, DoS OIG’s objective is to evalu-
ate the DoD and DoS efforts to transfer contract administration for the ANP
Program. Specifically, DoS OIG will assess the cost, performance measures,
and planning efforts associated with the transfer to ensure enhanced contract
oversight, adequate funding and support, and effective program management.
DoS OIG also plans to follow-up on the joint DoD IG Report No. D-2010-042
and DoS IG Report No. MERO-A-10-6, “Department of Defense Obligations and
Expenditures of Funds Provided to the Department of State for the Training and
Mentoring of the Afghan National Police,” February 9, 2010.

Afghanistan Civilian Uplift (Joint)
(Project No. 11AUD3003, Initiated October 2010)
Objective: The objective of this audit is to determine the costs of the Civilian
Uplift in Afghanistan, including how much has been spent to date (2009 to
present) and an estimate of how much it will cost to sustain the effort (present
through 2012). DoS OIG’s work will focus on the costs associated with the hiring,
training, deployment, and necessary life and operational support of civilian uplift
personnel assigned to Afghanistan.

Department of State Office of Inspector General–
Middle East Regional Office
Oversight Activities

Limited-Scope Review of the Needs Assessments and Facilities Conditions for
Newly Developed Department of State Positions in Afghanistan
(Project No. 11-MERO-3007, Initiated December 2010)
Objectives: The primary objectives of this evaluation are to determine (1) the
degree to which DoS conducted needs assessments to identify, develop, and
staff new positions at Embassy Kabul and its constituent posts; and (2) whether
available office facilities and housing or that already provided to staff filling these
new positions are adequate, safe, and secure.




         REPORT TO THE UNITED STATES CONGRESS     I   JANUARY 30, 2011          123
OTHER AGENCY OVERSIGHT




Review of the Bureau of International Narcotics and Law Enforcement Affairs’
Facility Operations and Maintenance Support Contract with the Major Crimes
Task Force in Afghanistan (Contract Evaluation)
(Project No. 11-MERO-3003, Initiated October 2010)
Objectives: The primary objectives of this evaluation are to determine (1) the
requirements and provisions of the contract; (2) the amount of funding DoS
has obligated and expended to provide facility operations and maintenance;
(3) DynCorp’s contract performance in providing facility operations and mainte-
nance to the Major Crimes Task Force at Camp Falcon; and (4) how DoS ensures
that costs incurred are properly allocated and supported.

Review of the Bureau of Population, Refugees, and Migration (PRM) Program
Effectiveness to Reintegrate and Resettle Afghan Refugees
(Project No. 10-MERO-3004, Initiated September 2010)
Objectives: The objectives of this performance audit are to determine (1) the
requirements and provisions of agreements with the UN High Commissioner for
Refugees, the International Committee of the Red Cross, and nongovernmental
organizations; (2) how assistance requirements were calculated; (3) whether
assistance reached intended targets; (4) if program performance measures
were established and achieved; and (5) the effectiveness of Embassy Kabul and
Provincial Reconstruction Teams to manage and coordinate the humanitarian
response in Afghanistan.

Review of the Bureau of International Narcotics and Law Enforcement Affairs’
Correction Systems Support Program (CSSP) in Afghanistan (Contract Evaluation)
(Project No. 11-MERO-3001, Initiated September 2010)
Objectives: The primary objectives of this evaluation are to determine whether
(1) technical training, institutional capacity building, and leadership training for
corrections systems and Ministry of Justice officials are appropriate and effec-
tive; (2) new prison renovation and construction meets human and sustainable
standards and is being completed in a timely manner; (3) the prison classification
system separates common criminals from insurgents; (4) programs to reduce
radicalization of prisoners are effective; and (5) adequate correction facilities
exist to meet the needs of juveniles and women.

Review of the Department of State’s Contract with PAE to Provide Operations and
Maintenance to Afghan Counternarcotics Units in Afghanistan
(Project No. 10-MERO-3001, Initiated February 2010)
Objectives: The objectives of this performance audit are to determine (1) the
requirements and provisions of the contract and task orders; (2) the amount of
funding the Department has obligated and expended to provide embassy facil-
ity operations and maintenance through contracts for FY 2005–2009; (3) the
effectiveness of PAE’s contract performance in providing facility operations and




  124               SPECIAL INSPECTOR GENERAL   I    AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




maintenance to Afghan counter-narcotics units in Afghanistan; (4) PAE’s controls
for inventorying, recording, and safeguarding U.S. government-furnished equip-
ment and property in Afghanistan, whether the equipment has been properly
accounted for, and the challenges to maintaining accountability; (5) how well
DoS administers and manages the contract and task orders to provide oversight
of PAE’s performance in Afghanistan; (6) whether the contract includes FAR
clause 52.222.50, which provides administrative remedies if, during the term of
the contract, the contractor or subcontractor engage in severe forms of traffick-
ing in persons; and (7) how DoS ensures that costs are properly allocated and
supported.

Government Accountability Office
Oversight Activities

Marine Corps Equipping Strategies to Reset Equipment
(Project No. 351552, Initiated December 9, 2010)
This review will focus on the extent to which (1) the Marine Corps has a strategy
in place to manage the reset of ground and aviation equipment returning from Iraq
and Afghanistan; (2) the Marine Corps’ strategy for resetting equipment is aligned
with the Marine Corps’ plan for force modernization; (3) the Marine Corps is able
to determine the total reset costs for equipment used in operations in Iraq and
Afghanistan; and (4) the Marine Corps’ budget request from FY 2009–12 for equip-
ment reset is consistent with budget guidance.

Afghan Capacity Building
(Project No. 320815, Initiated November 5, 2010)
This review will focus on U.S. efforts to build Afghan capacity to manage and
oversee the budget and build a sound financial management system. Specifically,
the extent to which U.S. efforts are aligned with Afghan and international com-
munity goals and have improved the Afghan government’s capacity to manage its
budget and finances.

DoD Task Force for Business and Stability Operations (TFBSO)
(Project No. 351525, Initiated August 13, 2010)
This review will focus on DoD efforts to institutionalize the Task Force’s
mission, expand its scope to other countries, and evaluate its activities,
including establishing goals and metrics to measure outcomes.

Accountability of U.S. Direct Funding to Afghanistan
(Project No. 320794, Initiated July 21, 2010)
This review will focus on identifying total U.S. funding and direct assistance
provided to Afghanistan to support the lines of effort (security, governance,




          REPORT TO THE UNITED STATES CONGRESS     I   JANUARY 30, 2011      125
OTHER AGENCY OVERSIGHT




and development) and the extent to which U.S. agencies have implemented
internal controls and provided oversight over direct assistance.

Army Advise and Assist Brigades
(Project No. 351514, Initiated June 14, 2010)
This review will focus on the extent to which Army has defined the roles and
missions of augmented brigade combat teams; defined the training and resourc-
ing requirements for augmented brigade combat teams; been able to fill the
requirements for augmented brigade combat teams; and the extent to which
Army and DoD have assessed their use for security force assistance.

Personnel, Equipment, and Supply Support for Operations in Afghanistan
(Project No. 351492, Initiated April 30, 2010)
This review will focus on how DoD is supplying operations in Afghanistan in
accordance with established plans and timelines and any challenges faced in sup-
plying operations.

DoD Vetting in Afghanistan
(Project No. 351489, Initiated April 26, 2010)
This review will focus on DoD processes to award contracts to Afghan and
Pakistani firms. Specifically, the extent to which DoD has developed and imple-
mented a process to vet Afghan and Pakistani firms; shares information on
Afghanistan and Pakistan firms with DoS, USAID, NATO, and the UN; and has
assurance that armed Afghan private security contractor personnel are screened.

U.S. Civilian Surge in Afghanistan
(Project No. 320766, Initiated April 1, 2010)
This review focuses on the extent and processes through which U.S. agen-
cies are prioritizing and fulfilling staffing requirements for the civilian surge in
Afghanistan and the steps taken by U.S. agencies to prepare their personnel for
deployment.

Afghanistan ISR Capabilities
(Project No. 351463, Initiated March 12, 2010)
This review will focus on intelligence, surveillance, and reconnaissance (ISR)
support to military operations in Afghanistan. Specifically, DoD’s incorporation
of ISR capabilities and identification of ISR shortfalls for military operations in
Afghanistan into its planning efforts.

U.S. Efforts to Develop Capable Afghan National Army (ANA) Forces
(Project No. 320712, Initiated September 2, 2009)
This review focuses on how much U.S. and coalition partners have provided
toward the development of the ANA and how much estimated future funding will



  126                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




be needed to sustain the ANA; the extent to which U.S. and coalition partners
have made progress in increasing the size and capability of the ANA; and the
challenges encountered.

DoD Health Care Requirements for Contingency Operations
(Project No. 351393, Initiated August 21, 2009)
This review will focus on the extent to which DoD and the services identified
meet wartime health care personnel requirements for current operations; what
challenges they are encountering meeting those requirements; and to what
extent they have the tools needed to meet those requirements.

U.S. Army Audit Agency
Oversight Activities

Bulk Fuel Operations in Afghanistan
(Project Code A-2011-ALL-0098.000, Initiated October 9, 2010)
This audit will determine if Class III bulk fuel depot and terminal sites in
Afghanistan have sufficient internal controls over storage and distribution opera-
tions to ensure the accurate accountability of bulk fuel products and prevent the
unauthorized diversion of fuel.

Micro-Purchases of Field Ordering Officers - Afghanistan
(Project Code A-2011-ALL-0135.000, Initiated October 9, 2010)
This audit will determine whether procedures for micro purchases by field
ordering officers had sufficient controls in place to justify requirements and
accountability of purchases.

Agreed-Upon Procedures Attestation for USFOR-A LOGCAP Course of
Action-Afghanistan
(Project Code A-2010-ALL-0480.000, Initiated May 21, 2010)
This attestation is being performed in Afghanistan. It will determine if the correc-
tive actions presented in the USFOR-A LOGCAP course of action decision brief
were implemented and provide assurance that requirements were processed
through the appropriate review board.

LOGCAP IV Contract Requirements Determination-Afghanistan
(Project Code A-2010-ALL-0421.000, Initiated April 4, 2010)
This audit will determine if the requirements determination and validation
processes for the LOGCAP IV contract are in place and operating as intended.




          REPORT TO THE UNITED STATES CONGRESS     I   JANUARY 30, 2011      127
OTHER AGENCY OVERSIGHT




Controls Over Vendor Payments Phase II – Afghanistan
(Project Code A-2010-ALL-0103.000, Initiated March 3, 2010)
This audit will determine if the Army has effective controls to ensure the accuracy
of vendor payments for contingency operations in Southwest Asia (Afghanistan).

U.S. Agency for International Development Office
of Inspector General
Oversight Activities
During the quarter, USAID OIG issued three financial audits covering $22.8 mil-
lion in costs. The audits identified $943,875 in questioned costs and a shortfall
in required cost-sharing contributions of $688,901. Also during the quarter, four
additional financial audits were being planned or were in process, and task
orders for seven financial audits were in process of being awarded. Financial
audits of USAID/Afghanistan programs are performed by public accounting firms
and by DCAA, and USAID/OIG performs desk reviews and/or quality control
reviews of the audits and transmits the reports to USAID for action.

Review of Cash Disbursement Practices Employed by Selected
USAID/Afghanistan Contractors and Grantees
Objective: To determine whether the cash disbursement practices employed by
selected USAID/Afghanistan contractors and grantees ensure that disbursements
are reasonable, allocable, and allowable under the agreements.

Audit of USAID/Afghanistan’s Election Support Programs
Objective: To determine whether the Support for Increased Electoral
Participation in Afghanistan (IEP) and Support to the Electoral Process
(STEP) programs are achieving their main goals of building the capacity of the
Independent Election Commission and the Electoral Complaints Commission,
supporting voter registration and election administration, strengthening the
ability of political parties and independent candidates to participate in elections,
and strengthening the ability of Afghan citizens to effectively participate in the
electoral process.

Audit of USAID/Afghanistan’s Water, Agriculture and Technology Transfer
(AWATT) Program
Objective: To determine if the Water, Agriculture, and Technology Transfer
Program is achieving its main goals.




  128                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                OTHER AGENCY OVERSIGHT




Audit of USAID/Afghanistan’s Construction of Health and Education
Facilities (CHEF) Program
Objective: To determine if the activities funded under USAID/Afghanistan’s
CHEF program are achieving the program’s main goals of strengthening the
GIRoA’s ability to provide health service to its citizens and train competent
teachers by constructing provincial hospitals, midwife training centers, and
provincial teacher training centers.

OTHER AGENCY INVESTIGATIONS
SIGAR regularly coordinates with other government agencies conducting
investigations in Afghanistan to monitor the progress of those investigations.
As of December 31, 2010, three open cases were being investigated by DoS OIG
Investigations (DoS OIG-INV). Table 4.3 lists the number of open and closed
investigations as of December 31, 2010.


TABLE 4.3


INVESTIGATIVE ACTIVITIES: OTHER AGENCY INVESTIGATIONS
Agency                                           Open Cases              Closed Cases    Total Cases
DoS OIG-INV                                                   3                    2              5
Total                                                         3                    2              5
Source: DoS OIG-INV, response to SIGAR data call, 1/4/2011.




             REPORT TO THE UNITED STATES CONGRESS                 I   JANUARY 30, 2011      129
      The Official Seal of SIGAR
      The Official Seal of SIGAR represents the coordination of efforts
      between the United States and Afghanistan to provide accountability
      and oversight of reconstruction activities. The phrase along the top
      side of the seal’s center is in Dari and means “SIGAR.” The phrase
      along the bottom side of the seal’s center is in Pashtu and has the
      same meaning.




130   SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




       131
APPENDICES




APPENDIX A
CROSS-REFERENCE OF REPORT TO STATUTORY
REQUIREMENTS
This appendix cross-references the pages of this report to the quarterly reporting
and related requirements under SIGAR’s enabling legislation, the National Defense
Authorization Act for Fiscal Year 2008, P.L. No. 110-181, § 1229 (Table A.1).


TABLE A.1


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                           SIGAR Action                   Section
Supervision
Section 1229(e)(1)      The Inspector General shall report directly       Report to the Secretary of     All sections
                        to, and be under the general supervision          State and the Secretary of
                        of, the Secretary of State and the Secretary      Defense
                        of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN                          Review appropriated/           All sections
                        RECONSTRUCTION.—                                  available funds
                        It shall be the duty of the Inspector General
                        to conduct, supervise, and coordinate             Review programs,
                        audits and investigations of the treatment,       operations, contracts using
                        handling, and expenditure of amounts              appropriated/
                        appropriated or otherwise made available          available funds
                        for the reconstruction of Afghanistan, and
                        of the programs, operations, and contracts
                        carried out utilizing such funds, including
                        subsections (A) through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obliga-       Review obligations and         SIGAR
                        tion and expenditure of such funds                expenditures of appropri-      Oversight
                                                                          ated/available funds
                                                                                                         Funding
Section 1229(f)(1)(B)   The monitoring and review of reconstruction       Review reconstruction          SIGAR
                        activities funded by such funds                   activities funded by appro-    Oversight
                                                                          priations and donations
Section 1229(f)(1)(C)   The monitoring and review of contracts            Review contracts using         Note 1
                        funded by such funds                              appropriated and available
                                                                          funds
Section 1229(f)(1)(D) The monitoring and review of the transfer           Review internal and external   Appendix B
                      of such funds and associated information            transfers of appropriated/
                      between and among departments, agen-                available funds
                      cies, and entities of the United States, and
                      private and nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of          Maintain audit records         SIGAR
                        such funds to facilitate future audits and                                       Oversight
                        investigations of the use of such fund[s]                                        Appendix C
                                                                                                         Appendix D




  132                      SPECIAL INSPECTOR GENERAL              I     AFGHANISTAN RECONSTRUCTION
                                                                                   APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                              SIGAR Action                  Section
Section 1229(f)(1)(F)   The monitoring and review of the effective-          Monitoring and review         Audits
                        ness of United States coordination with              as described
                        the Governments of Afghanistan and
                        other donor countries in the implementa-
                        tion of the Afghanistan Compact and the
                        Afghanistan National Development Strategy
Section 1229(f)(1)(G) The investigation of overpayments such as              Conduct and reporting of      Investigations
                      duplicate payments or duplicate billing and            investigations as described
                      any potential unethical or illegal actions of
                      Federal employees, contractors, or affiliated
                      entities, and the referral of such reports, as
                      necessary, to the Department of Justice to
                      ensure further investigations, prosecutions,
                      recovery of further funds, or other remedies.
Section 1229(f)(2)      OTHER DUTIES RELATED TO OVERSIGHT.—                  Establish, maintain, and      All sections
                        The Inspector General shall establish,               oversee systems, proce-
                        maintain, and oversee such systems,                  dures, and controls
                        procedures, and controls as the Inspector
                        General considers appropriate to discharge
                        the duties under paragraph (1)
Section 1229(f)(3)      DUTIES AND RESPONSIBILITIES UNDER                    Duties as specified in        All sections
                        INSPECTOR GENERAL ACT OF 1978.—                      Inspector General Act
                        In addition,. . .the Inspector General shall
                        also have the duties and responsibilities
                        of inspectors general under the Inspector
                        General Act of 1978
Section 1229(f)(4)      COORDINATION OF EFFORTS.—                            Coordination with the         Other Agency
                        The Inspector General shall coordinate with,         inspectors general of         Oversight
                        and receive the cooperation of, each of the          DoD, DoS, and USAID
                        following: (A) the Inspector General of the
                        Department of Defense, (B) the Inspector
                        General of the Department of State, and (C)
                        the Inspector General of the United States
                        Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A) ASSISTANCE FROM FEDERAL AGENCIES.—                     Expect support as             All sections
                      Upon request of the Inspector General for              requested
                      information or assistance from any depart-
                      ment, agency, or other entity of the Federal
                      Government, the head of such entity shall,
                      insofar as is practicable and not in con-
                      travention of any existing law, furnish such
                      information or assistance to the Inspector
                      General, or an authorized designee




            REPORT TO THE UNITED STATES CONGRESS                       I   JANUARY 30, 2011                      133
APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                           SIGAR Action                  Section
Section 1229(h)(5)(B) REPORTING OF REFUSED ASSISTANCE.—                   None reported                 N/A
                      Whenever information or assistance
                      requested by the Inspector General is,
                      in the judgment of the Inspector General,
                      unreasonably refused or not provided, the
                      Inspector General shall report the circum-
                      stances to the Secretary of State or the
                      Secretary of Defense, as appropriate, and to
                      the appropriate congressional committees
                      without delay.
Reports
Section 1229(i)(1)      QUARTERLY REPORTS.—                               Report – 30 days after        All sections
                        Not later than 30 days after the end of each      the end of each calendar      Appendix B
                        fiscal-year quarter, the Inspector General        quarter
                        shall submit to the appropriate committees
                        of Congress a report summarizing, for the         Summarize activities of the
                        period of that quarter and, to the extent         inspector general
                        possible, the period from the end of such
                        quarter to the time of the submission of          Detailed statement of all
                        the report, the activities during such period     obligations, expenditures,
                        of the Inspector General and the activities       and revenues
                        under programs and operations funded
                        with amounts appropriated or otherwise
                        made available for the reconstruction of
                        Afghanistan. Each report shall include,
                        for the period covered by such report,
                        a detailed statement of all obligations,
                        expenditures, and revenues associated with
                        reconstruction and rehabilitation activities in
                        Afghanistan, including the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropri-         Obligations and expen-        Appendix B
                        ated/donated funds                                ditures of appropriated/
                                                                          donated funds
Section 1229(i)(1)(B)   A project-by-project and program-                 Project-by-project and        Funding
                        by-program accounting of the costs                program-by-program
                        incurred to date for the reconstruction of        accounting of costs. List     Note 1
                        Afghanistan, together with the estimate of        unexpended funds for each
                        the Department of Defense, the Department         project or program
                        of State, and the United States Agency for
                        International Development, as applicable,
                        of the costs to complete each project and
                        each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting            Revenues, obligations, and    Funding
                        of funds provided by foreign nations or           expenditures of donor funds
                        international organizations to programs
                        and projects funded by any department or
                        agency of the United States Government,
                        and any obligations or expenditures of
                        such revenues




  134                      SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                                  APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                             SIGAR Action                  Section
Section 1229(i)(1)(D)   Revenues attributable to or consisting of for-      Revenues, obligations, and    Funding
                        eign assets seized or frozen that contribute        expenditures of funds from
                        to programs and projects funded by any U.S.         seized or frozen assets
                        government department or agency, and any
                        obligations or expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities          Operating expenses of         Funding
                        receiving amounts appropriated or otherwise         agencies or any organiza-
                        made available for the reconstruction of            tion receiving appropriated   Appendix B
                        Afghanistan                                         funds
Section 1229(i)(1)(F)   In the case of any contract, grant,                 Describe contract details     Note 1
                        agreement, or other funding mechanism
                        described in paragraph (2)* —
                        (i) The amount of the contract or other fund-
                        ing mechanism;
                        (ii) A brief discussion of the scope of the
                        contract or other funding mechanism;
                        (iii) A discussion of how the department or
                        agency of the United States Government
                        involved in the contract, grant, agreement,
                        or other funding mechanism identified and
                        solicited offers from potential contractors
                        to perform the contract, grant, agreement,
                        or other funding mechanism, together with
                        a list of the potential individuals or entities
                        that were issued solicitations for the offers;
                        and
                        (iv) The justification and approval
                        documents on which was based the
                        determination to use procedures other than
                        procedures that provide for full and open
                        competition
Section 1229(i)(3)      PUBLIC AVAILABILITY.—                               Publish report                www.sigar.mil
                        The Inspector General shall publish on a            as directed
                        publically-available Internet website each                                        Dari and
                        report under paragraph (1) of this subsec-                                        Pashtu
                        tion in English and other languages that the                                      translation in
                        Inspector General determines are widely                                           process
                        used and understood in Afghanistan
Section 1229(i)(4)      FORM.—                                              Publish report                All sections
                        Each report required under this subsection          as directed
                        shall be submitted in unclassified form,
                        but may include a classified annex if the
                        Inspector General considers it necessary




           REPORT TO THE UNITED STATES CONGRESS                     I     JANUARY 30, 2011                      135
                                                           APPENDICES


                                                           APPENDIX B
                                                           U.S. GOVERNMENT APPROPRIATED FUNDS ($ MILLIONS)
                                                           Table B.1 lists appropriated funds by program, per year, for Afghanistan reconstruction
                                                           efforts, as of September 30, 2010, and the FY 2011 Presidential Budget Request.
                                                           TABLE B.1


                                                            U.S. FUNDING SOURCES                                                  AGENCY              TOTAL
                                                            SECURITY
                                                              Afghanistan Security Forces Fund (ASFF)                             DoD               27,833.24
                                                              Train & Equip (DoD)                                                 DoD                  440.00
                                                              Foreign Military Financing (FMF)                                    DoS                1,058.50
                                                              International Military Education and Training (IMET)                DoS                    8.30
                                                              NDAA Section 1207 Transfer                                          Other                  9.90
                                                            Total - Security                                                                       29,349.94
                                                            GOVERNANCE & DEVELOPMENT
                                                              Commander's Emergency Response Program (CERP)                       DoD                2,639.00
                                                              Afghanistan Infrastructure Fund                                     DoD                    0.00
                                                              Economic Support Fund (ESF)                                         USAID             11,143.41
                                                              Development Assistance (DA)                                         USAID                885.21
                                                              Afghanistan Freedom Support Act (AFSA)                              DoD                  550.00
                                                              Child Survival & Health (CSH + GHAI)                                USAID                486.42
                                                              Commodity Credit Corp (CCC)                                         USAID                 30.09
                                                              Freedom Support Act (FSA)                                           USAID                  5.00
                                                              USAID (other)                                                       USAID                 34.27
                                                              Non-Prolif, Antiterrorism, Demining, & Related (NADR)               DoS                  371.60
                                                              Provincial Reconstruction Team Advisors                             USDA                   5.70
                                                              Treasury Technical Assistance                                       Treasury               3.52
                                                            Total - Governance & Development                                                       16,154.22
                                                            COUNTERNARCOTICS
                                                              International Narcotics Control & Law Enforcement (INCLE)           DoS                2,853.75
                                                              Drug Interdiction & Counter-Drug Activities, (DoD CN)               DoD                1,511.17
                                                              Drug Enforcement Administration (DEA)                               DoJ                  127.37
                                                            Total - Counternarcotics                                                                4,492.29
                                                            HUMANITARIAN
                                                              PL 480 Title I                                                      USDA                   5.00
                                                              PL 480 Title II                                                     USAID                701.21
                                                              Disaster Assistance (IDA)                                           USAID                372.53
                                                              Transition Initiatives (TI)                                         USAID                 34.44
                                                              Migration and Refugee Assistance (MRA)                              DoS                  590.10
                                                              Voluntary Peacekeeping (PKO)                                        DoS                   69.30
                                                              Emergency Refugee & Migration Assistance (ERMA)                     DoS                   25.20
                                                              Food for Progress                                                   USDA                 109.49
                                                              416(b) Food Aid                                                     USDA                  95.18
                                                              Food for Education                                                  USDA                  50.49
Note: Numbers affected by rounding.
                                                              Emerson Trust                                                       USDA                  22.40
Sources: OMB, response to SIGAR data call, 1/20/2011;
DoD, response to SIGAR vetting, 10/22/2010; DoD,
                                                            Total - Humanitarian                                                                    2,075.34
responses to SIGAR data call, 10/20/2010, 10/15/2010,       INTERNATIONAL AFFAIRS OPERATIONS
10/6/2010, 10/14/2009, and 10/1/2009; FY 2010
Supplemental; FY 2010 Defense Explanatory Statement;        Oversight                                                                                   76.40
DoS, responses to SIGAR data call, 10/15/2010 and           Other                                                                                    3,955.80
10/12/2010; Treasury, response to SIGAR data call,
10/12/2010; OMB, responses to SIGAR data call,              Total - International Affairs Operations                                                4,032.20
10/19/2010 and 4/19/2010; USAID, responses to SIGAR
data call, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ,       TOTAL FUNDING                                                                          56,103.99
response to SIGAR data call, 7/7/2009; USDA, response to
SIGAR data call, 4/2009.                                    TOTAL FUNDING IF PRESIDENT'S BUDGET IS APPROVED                                          74,875.89




                                                             136                      SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                                               APPENDICES




                                                                                                                       FY 2011
                                                                                                                     PRESIDENTIAL
                                                                                                                       BUDGET
FY 2002       FY 2003      FY 2004     FY 2005         FY 2006     FY 2007      FY 2008     FY 2009     FY 2010        REQUEST

    0.00           0.00        0.00       995.00        1,908.13     7,406.40    2,750.00    5,606.94     9,166.77      11,619.30
    0.00           0.00      150.00       290.00            0.00         0.00        0.00        0.00         0.00           0.00
   57.00         191.00      413.70       396.80            0.00         0.00        0.00        0.00         0.00           0.00
    0.20           0.30        0.60         0.80            0.80         1.10        1.60        1.40         1.50           1.50
    0.00           0.00        0.00         0.00            0.00         0.00        9.90        0.00         0.00           0.00
  57.20         191.30      564.30     1,682.60        1,908.93     7,407.50    2,761.50    5,608.34     9,168.27      11,620.80

    0.00           0.00        40.00      136.00         215.00        209.00      488.33      550.67     1,000.00       1,100.00
    0.00           0.00         0.00        0.00           0.00          0.00        0.00        0.00         0.00         400.00
  117.51         239.29       893.88    1,280.57         473.39      1,210.71    1,399.51    2,182.55     3,346.00       3,316.30
   18.30          42.54       153.14      169.58         185.01        166.81      149.43        0.40         0.00           0.00
    0.00         165.00       135.00      250.00           0.00          0.00        0.00        0.00         0.00           0.00
    7.52          49.68        33.40       38.00          41.45        100.77       63.07       58.23        94.30          71.10
    7.30           1.33         0.00        0.00           0.00          0.00       13.02        4.22         4.22           0.00
    0.00           0.00         5.00        0.00           0.00          0.00        0.00        0.00         0.00           0.00
    0.00           0.50         5.00        0.00           0.00          0.00       22.32        3.55         2.90           0.00
   44.00          34.70        66.90       38.20          18.20         36.60       26.60       48.60        57.80          69.30
    0.00           0.00         0.00        0.00           0.00          0.00        0.00        5.70         0.00           0.00
    0.00           1.00         0.06        0.95           0.19          0.13        0.75        0.44         0.00           0.00
 194.63         534.04     1,332.38    1,913.30         933.24      1,724.02    2,163.03    2,854.36     4,505.22       4,956.70

   60.00            0.00     220.00      709.28          232.65       251.74      307.08      484.00       589.00          450.00
    0.00            0.00      71.80      224.54          108.05       290.97      189.64      235.06       391.11          354.60
    0.58            2.87       3.72       16.77           23.66        20.38       40.59       18.80         0.00            0.00
  60.58            2.87     295.52      950.59          364.36       563.09      537.31      737.86       980.11          804.60

    0.00           5.00        0.00        0.00            0.00         0.00        0.00        0.00         0.00            0.00
  159.50          46.10       49.20       56.60           60.00        60.00      177.00       65.41        27.40           15.50
  197.09          85.77       11.16        4.22            0.04         0.03       17.01       27.28        29.93            0.00
    8.07          11.69       11.22        1.60            0.00         0.00        0.00        0.87         0.99            0.00
  135.47          61.50       63.30       47.10           36.00        53.80       44.25       76.79        71.89           65.00
   23.90           9.90       20.00       15.50            0.00         0.00        0.00        0.00         0.00            0.00
   25.00           0.00        0.00        0.00            0.00         0.00        0.00        0.20         0.00            0.00
    0.00           4.96        9.08       30.10           23.24         9.47       20.55       12.09         0.00            0.00
   46.46          14.14       34.58        0.00            0.00         0.00        0.00        0.00         0.00            0.00
    0.00           9.27        6.12       10.02           25.08         0.00        0.00        0.00         0.00            0.00
    0.00           0.00        0.00        0.00            0.00         0.00       22.40        0.00         0.00            0.00
 595.49         248.33      204.66      165.14          144.36       123.30      281.21      182.64       130.21           80.50

    0.00            0.00       0.00        0.00            0.00         2.50       14.30        25.20        34.40          44.70
  155.60           35.30     207.60      136.10          131.90       207.80      434.40     1,047.60     1,599.50       1,264.60
 155.60           35.30     207.60      136.10          131.90       210.30      448.70     1,072.80     1,633.90       1,309.30
1,063.50       1,011.84    2,604.46    4,847.73        3,482.79    10,028.21    6,191.75 10,456.00      16,417.71
 1,063.50       1,011.84    2,604.46    4,847.73        3,482.79    10,028.21    6,191.75   10,456.00    16,417.71      18,771.90




            REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2011              137
APPENDICES




APPENDIX C
SIGAR AUDITS
Completed Audits
During this reporting period, SIGAR completed two audits, as listed in Table C.1.

TABLE C.1


COMPLETED SIGAR AUDITS AS OF JANUARY 30, 2011
Report Identifier   Report Title                                                                 Date Issued
SIGAR-Audit-11-7    Commander’s Emergency Response Program in Laghman Province Provided               1/2011
                    Some Benefits, but Oversight Weaknesses and Sustainment Concerns Led to
                    Questionable Outcomes and Potential Waste
SIGAR-Audit-11-6    Inadequate Planning for ANSF Facilities Increases Risks for $11.4 Billion         1/2011
                    Program




New Audits
During this reporting period, SIGAR initiated five new audits, as listed in Table C.2.

TABLE C.2


NEW SIGAR AUDITS AS OF JANUARY 30, 2011
Audit Identifier    Project Title                                                               Date Initiated
SIGAR-041A          USAID Local Governance and Community Development Projects                     1/13/2011
SIGAR-040A          Construction at the Afghan Defense University                                  1/3/2011
SIGAR-039A          Infrastructure Projects at the Kabul Military Training Center               11/30/2010
SIGAR-038A          Review of Four USAID and State Department Programs in a Select Afghan       11/19/2010
                    Province
SIGAR-037A          Use and Accountability of U.S. Funds Contributed to the Afghanistan         11/13/2010
                    Reconstruction Trust Fund (ARTF)




  138                   SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                               APPENDICES




Ongoing Audits
SIGAR has 11 audits in progress, as listed in Table C.3.

TABLE C.3


ONGOING SIGAR AUDITS AS OF JANUARY 30, 2011
Audit Identifier   Project Title                                                                        Date Initiated
SIGAR-031A         Accountability of ANSF Vehicles                                                      11/10/2010
SIGAR-036A         U.S. and International Donor Assistance for Development of the Afghan Banking        10/18/2010
                   Sector and Afghan Currency Control Systems
SIGAR-035A         U.S. Assistance To Develop Afghanistan’s Agricultural Sector                         10/15/2010
SIGAR-034A         Implementation and Sustainability of the U.S. Civilian Uplift in Afghanistan (con-   10/14/2010
                   ducted jointly with the DoS Office of Inspector General)
SIGAR-033A         Implementation of the Defense Base Act Insurance Program for Contractors in            8/26/2010
                   Afghanistan
SIGAR-032A         U.S. Efforts To Strengthen the Capabilities of the Afghan Major Crimes Task Force      8/24/2010
SIGAR-029A         Review of USAID’s Cooperative Agreement with CARE International for the                7/15/2010
                   Community Development Program for Kabul
SIGAR-013A         Afghan National Police (ANP) Personnel Management Processes and Systems                6/25/2010
SIGAR-017A         Reconstruction Security Support Services from Global Strategies Group Inc.             6/14/2010
SIGAR-025A         Review of U.S. Air Force Center for Engineering and the Environment Infrastructure      5/5/2010
                   Projects in Mazar-e Sharif and Herat
SIGAR-023A         Afghanistan’s National Solidarity Program                                              4/13/2010




Forensic Audits
SIGAR has three forensic audits in progress, as listed in Table C.4.

TABLE C.4


SIGAR FORENSIC AUDITS AS OF JANUARY 30, 2011
Audit Identifier   Project Title                                                                        Date Initiated
SIGAR-027A         Forensic Review of DoS Transaction Data Related to Afghanistan Reconstruction          6/24/2010
SIGAR-026A         Forensic Review of USAID Transaction Data Related to Afghanistan Reconstruction        6/24/2010
SIGAR-022A         Forensic Review of DoD Data Related to Afghanistan Reconstruction                      2/25/2010




            REPORT TO THE UNITED STATES CONGRESS                  I   JANUARY 30, 2011                        139
                                                             APPENDICES




                                                             APPENDIX D
FIGURE D.1
                                                             SIGAR INVESTIGATIONS AND HOTLINE
SIGAR INVESTIGATIONS: NEW INVESTIGATIONS,                    SIGAR Investigations
OCTOBER 1–DECEMBER 31, 2010                                  This reporting period, SIGAR opened 35 new investigations, bringing the total of
                                                             open investigations to 105. Of the new investigations, most involve corruption
                         Total: 35                           and procurement/contract fraud, as shown in Figure D.1. SIGAR closed 7 investi-
                                                             gations this quarter, as shown in Figure D.2.

                       Procurement/
                                                             FIGURE D.2
                       Contract Fraud
                       19
                                                             SIGAR INVESTIGATIONS: CLOSED INVESTIGATIONS, OCTOBER 1–DECEMBER 31, 2010
               Theft                              Other
               4            Public                2
                            Corruption                                                                                                       Total: 7
                            9
  Assessment
  1                                                           Procurement/Contract Fraud                                                                                       3
                                                                           Public Corruption                                                                2
Source: SIGAR Investigations Directorate, 1/18/2011.
                                                                                        Theft                                                               2

                                                                                                0                           1                           2                  3

                                                             Source: SIGAR Investigations Directorate, 1/18/2011.




                                                             SIGAR Hotline
                                                             Of the 131 Hotline complaints received last quarter, most were submitted by
FIGURE D.3
                                                             e-mail or telephone, as shown in Figure D.3. Of these complaints, most were
SOURCE OF SIGAR HOTLINE COMPLAINTS,                          closed, referred to other agencies, or assigned, as shown in Figure D.4.
OCTOBER 1–DECEMBER 31, 2010
                                                             FIGURE D.4

                         Total: 131
                                                             STATUS OF SIGAR HOTLINE COMPLAINTS: OCTOBER 1–DECEMBER 31, 2010

                                                                                                                                Total: 131
                           E-mail
                           109

                                                                     Closed                                                                                               73
                                                               Referred Out                                         26
                                 Phone                            Assigned                                     23
                                 15                          Coordinationa                  9

              Walk-in                 Written (not e-mail)                                              20                           40                         60                 80
              4                       3
                                                             a. Case has been reviewed, and SIGAR is obtaining additional information.
Source: SIGAR Investigations Directorate, 1/12/2011.         Source: SIGAR Investigations Directorate, 1/12/2011.




                                                                140                         SPECIAL INSPECTOR GENERAL                    I   AFGHANISTAN RECONSTRUCTION
                                                                          APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS

ACRONYM OR
ABBREVIATION               DEFINITION
ABP                        Afghan Border Police
ACU                        Anti-Corruption Unit
AED                        Afghanistan Engineering District
AFCEE                      Air Force Center for Engineering and the Environment (U.S.)
AGOAS                      Attorney General’s Office Assistance Section
AIB                        Afghanistan International Bank
AIF                        Afghanistan Infrastructure Fund
AIHRC                      Afghanistan Independent Human Rights Commission
AIP                        Afghanistan Infrastructure Program
AJSRP                      Afghanistan Justice Sector Reform Project (World Bank)
ALP                        Afghan Local Police
ANA                        Afghan National Army
ANCOP                      Afghan National Civil Order Police
ANP                        Afghan National Police
ANSF                       Afghan National Security Forces
APRP                       Afghan Peace and Reintegration Plan
AQM                        Office of Acquisitions and Management (U.S.)
ARP                        Afghanistan Reintegration Program (U.S.)
ARTF                       Afghanistan Reconstruction Trust Fund
ASFF                       Afghanistan Security Forces Fund
ASIU                       Afghan Shafafiyat Investigative Unit
AT/AP                      anti-tank/anti-personnel ordnance
AUP                        Afghan Uniformed Police
AVIPA                      Afghanistan Vouchers for Increased Productive Agriculture
AWATT                      Afghanistan Water, Agriculture, and Technology Transfer
AWOL                       absent without leave
C-JTSCC                    CENTCOM Joint Theater Support Contract Command
CAO                        Control and Audit Office (Afghan)
CDP-K                      Community Development Program for Kabul
CENTCOM                    Central Command (U.S.)
CERP                       Commander’s Emergency Response Program
CJIATF-435                 Combined Joint Interagency Task Force-435
CJTF                       Criminal Justice Task Force
CNPA                       Counter-Narcotics Police - Afghanistan
CSSP                       Correctional System Support Program
CSTC-A                     Combined Security Transition Command - Afghanistan
CUAT                       Commander’s Unit Assessment Tool
CWD                        Conventional Weapons Destruction
DAB                        Da Afghanistan Bank




             REPORT TO THE UNITED STATES CONGRESS             I   JANUARY 30, 2011       141
APPENDICES




ACRONYM OR
ABBREVIATION               DEFINITION
DABS                       Afghan national utility company
DFAS                       Defense Finance and Accounting Service (U.S.)
DIAG                       Disbandment of Illegal Armed Groups
DoD                        Department of Defense (U.S.)
DoD CN                     Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S)
DoJ                        Department of Justice (U.S.)
DoS                        Department of State (U.S.)
ECC                        Electoral Complaints Commission
ESF                        Economic Support Fund
FEFA                       Free and Fair Election Foundation of Afghanistan
FMS                        Foreign Military Sales
FY                         fiscal year
FY 2010 Supplemental       FY 2010 Supplemental Appropriations Act
GAO                        Government Accountability Office (U.S.)
GIRoA                      Government of the Islamic Republic of Afghanistan
HCMS                       SIGAR Hotline and Complaints Management System
HMMWV                      high-mobility, multi-purpose wheeled vehicle
HOOAC                      High Office of Oversight for Anti-Corruption (Afghan)
ICAO                       International Civil Aviation Organization
IDIQ                       indefinite-delivery/indefinite-quantity
IDP                        internally displaced person
IEC                        Independent Election Commission (Afghan)
IJC                        International Security Assistance Force Joint Command
IMF                        International Monetary Fund
INCLE                      International Narcotics Control and Law Enforcement (U.S)
INL                        Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
ISAF                       International Security Assistance Force
JCMB                       Joint Coordination and Monitoring Board
JSSP                       Justice Sector Support Program
kg                         kilogram
km                         kilometer
LGCD                       Local Governance and Community Development
LOTFA                      Law and Order Trust Fund for Afghanistan
  2
m                          square meters
MACCA                      Mine Action Coordination Center of Afghanistan (UN)
MAIL                       Ministry of Agriculture, Irrigation, and Livestock (Afghan)
MCTF                       Major Crimes Task Force (Afghan)
MoD                        Ministry of Defense (Afghan)
MoF                        Ministry of Finance (Afghan)
MoI                        Ministry of Interior (Afghan)
MoPH                       Ministry of Public Health (Afghan)
MT                         metric ton
NADR                       Non-Proliferation, Anti-Terrorism, Demining, and Related Programs
NATO                       North Atlantic Treaty Organization




    142                SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                        APPENDICES




ACRONYM OR
ABBREVIATION              DEFINITION
NDAA                      National Defense Appropriations Act
NDS                       National Directorate of Security
NGO                       non-governmental organization
NRVA                      National Risk and Vulnerability Assessment
NSP                       National Solidarity Program
NTM-A                     NATO Training Mission - Afghanistan
O&M                       operations and maintenance
OCO                       Overseas Contingency Operations
OEF                       Operation Enduring Freedom
OSD                       Office of the Secretary of Defense (U.S.)
PDY                       present for duty
PECC                      Provincial Electoral Complaints Commission (Afghan)
PM/WRA                    Bureau of Political-Military Affairs - Office of Weapons Removal and Abatement
PPRC                      Provincial Peace and Reintegration Committee
PRM                       Bureau of Population, Refugees, and Migration
PRST                      Provincial Reintegration Support Teams
PRT                       Provincial Reconstruction Team
PSC                       private security contractor
PTS                       Program Takhim-E-Solh (Afghan)
RC Window                 Recurrent Cost Window
RMT                       Road Maintenance Team
SAA                       small-arms ammunition
SAO-A                     Security Assistance Office - Afghanistan
SEPS                      Southeast Electrical Power System
SMDC                      U.S. Army Space and Missile Defense Command
SOF                       Special Operations Force (Afghan)
SY                        solar year
TAPI pipeline             Turkmenistan-Afghanistan-Pakistan-India pipeline
TFBSO                     Task Force on Business and Stability Operations in Afghanistan
Treasury                  Department of the Treasury (U.S.)
UN                        United Nations
UNAMA                     UN Assistance Mission in Afghanistan
UNDP                      UN Development Programme
UNHCR                     UN High Commissioner for Refugees
UNICEF                    UN Children’s Fund
UNODC                     UN Office on Drugs and Crime
USAAA                     U.S. Army Audit Agency
USACE                     U.S. Army Corps of Engineers
USAID                     U.S. Agency for International Development
USDA                      U.S. Department of Agriculture
USFOR-A                   U.S. Forces - Afghanistan
UXO                       unexploded ordnance
VEGA                      Volunteers for Economic Growth Alliance
VSO                       Village Stability Operations




            REPORT TO THE UNITED STATES CONGRESS             I   JANUARY 30, 2011                    143
                                                         ENDNOTES




1.    DoD, response to SIGAR data call, 1/4/2011.
2.    Lisbon Summit Declaration, Issued by the Heads of State and Governments Participating in the Meeting of the North Atlantic Council in
      Lisbon, 11/20/2010.
3.    Declaration by the Heads of State and Government of Nations Contributing to the UN-Mandated, NATO-Led International Security Force
      (ISAF) in Afghanistan, 11/20/2010.
4.    Declaration by the Heads of State and Government of Nations Contributing to the UN-Mandated, NATO-Led International Security Force
      (ISAF) in Afghanistan, 11/20/2010.
5.    Declaration by the Heads of State and Government of Nations Contributing to the UN-Mandated, NATO-Led International Security Force
      (ISAF) in Afghanistan, 11/20/2010.
6.    Overview of the Afghanistan and Pakistan Annual Review.
7.    White House, Office of the Press Secretary, “Statement by the President on the Afghanistan-Pakistan Annual Review,” 12/16/2010.
8.    White House, Office of the Press Secretary, “Statement by the President on the Afghanistan-Pakistan Annual Review,” 12/16/2010.
9.    White House, Office of the Press Secretary, “Statement by the President on the Afghanistan-Pakistan Annual Review,” 12/16/2010.
10.   Overview of the Afghanistan and Pakistan Annual Review.
11.   FY 2011 National Defense Authorization Act (P.L. 111-383), Section 1212.
12.   SIGAR, Audit 09-5, “Increased Viability, Monitoring, and Planning Needed for Commander’s Emergency Response Program in Afghanistan,”
      9/9/2009.
13.   SIGAR, Audit 09-5, “Increased Viability, Monitoring, and Planning Needed for Commander’s Emergency Response Program in Afghanistan,”
      9/9/2009.
14.   SIGAR Audit 11-7, “Commander’s Emergency Response Program in Laghman Province Provided Some Benefits, but Oversight Weaknesses and
      Sustainment Concerns Led to Questionable Outcomes and Potential Waste,” 1/2011.
15.   Joint Explanatory Statement of the Committees on Armed Services of the U.S. Senate and House of Representatives on H.R. 6523, Ike Skelton
      National Defense Authorization Act for Fiscal Year 2011.
16.   FY 2011 National Defense Authorization Act (P.L. 111-383), Section 1217.
17.   FY 2011 National Defense Authorization Act (P.L. 111-383), Section 1217.
18.   FY 2011 National Defense Authorization Act (P.L. 111-383), Section 1217.
19.   FY 2011 National Defense Authorization Act (P.L. 111-383), Section 1216.
20.   FY 2011 National Defense Authorization Act (P.L. 111-383), Section 1219.
21.   FY 2011 National Defense Authorization Act (P.L. 111-383), Sections 831, 832, and 833.
22.   In June 2010, the Joint Contracting Command-Iraq/Afghanistan (JCC-I/A) was re-designated the CENTCOM Contracting Command. In
      November 2010, the Deputy Secretary of Defense named C-JTSCC as the successor organization to JCC-I/A and expanded the organization’s
      contracting mission to include Kuwait and Pakistan.
23.   AED was divided into two sections on August 3, 2009. AED-South, based in Kandahar, is in charge of construction in Regional Command-South
      and Regional Command-West. AED-North, based in Kabul, manages construction in Regional Command-North and Regional Command-East.
24.   P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.
25.   DoD, response to SIGAR vetting, 7/20/2009; NTM-A, press release, “New NATO Command Activated in Kabul; Continues Afghan Training,”
      11/23/2009.
26.   DoD, response to SIGAR data call, 1/11/2011.
27.   DoD, response to SIGAR data call, 1/11/2011.
28.   DoD, response to SIGAR data call, 1/11/2011.
29.   DoD, response to SIGAR data call, 1/11/2011.
30.   DoD, response to SIGAR data call, 1/11/2011.
31.   DoD, response to SIGAR data call, 1/11/2011.
32.   DoD, response to SIGAR data call, 1/11/2011.
33.   DoD, Financial Management Regulation, “Commander’s Emergency Response Program: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
34.   DoD, responses to SIGAR vetting, 1/21/2011 and 4/21/2010.
35.   See Appendix B of this report.
36.   DoD, response to SIGAR data call, 1/18/2011.




                                                  144                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




37.   DoD, response to SIGAR data call, 1/18/2011.
38.   DoD, “Drug Interdiction and Counter-Drug Activities, Defense FY 2009 Supplemental Request Drug Interdiction and Counterdrug Activities,”
      accessed online 4/13/2010.
39.   See Appendix B of this report.
40.   DoD, response to SIGAR data call, 1/11/2011.
41.   DoD, response to SIGAR vetting, 7/16/2009.
42.   USAID, response to SIGAR data call, 1/20/2011.
43.   USAID, response to SIGAR data call, 1/20/2011.
44.   USAID, response to SIGAR data call, 1/20/2011.
45.   DoS, response to SIGAR data call, 10/13/2009.
46.   DoS, response to SIGAR data call, 1/10/2011.
47.   DoS, response to SIGAR data call, 1/10/2011.
48.   DoS, response to SIGAR data call, 1/10/2011.
49.   SIGAR, Audit 11-5, “Actions Needed To Mitigate Inconsistencies in and Lack of Safeguards over U.S. Salary Support to Afghan Government
      Employees and Technical Advisors,” 10/29/2010, p. ii.
50.   MoF, “Donor Financial Review,” 11/2009; SIGAR, “Quarterly Report to the U.S. Congress,” 10/30/2010, p. 10.
51.   SIGAR, “Quarterly Report to the U.S. Congress,” 7/30/2010, p. 51.
52.   World Bank, “Quarterly Country Update: Afghanistan,” 1/2011, p. 17.
53.   World Bank, “Quarterly Country Update: Afghanistan,” 1/2011, p. 17.
54.   World Bank, “Quarterly Country Update: Afghanistan,” 1/2011, p. 17.
55.   World Bank, “Quarterly Country Update: Afghanistan,” 1/2011, p. 17.
56.   CSTC-A, “Law and Order Trust Fund for Afghanistan Phases I through V,” 10/2010.
57.   UNDP, “Law and Order Trust Fund for Afghanistan, 3rd Quarter Project Progress Report (July–September 2010),” 9/30/2010, p. 5.
58.   UNDP, “Law and Order Trust Fund for Afghanistan, 3rd Quarter Project Progress Report (July–September 2010),” 9/30/2010, p. 5.
59.   White House, “Overview of the Afghanistan and Pakistan Annual Review,” 12/16/2010, accessed online 1/7/2011.
60.   White House, “Overview of the Afghanistan and Pakistan Annual Review,” 12/16/2010, accessed online 1/7/2011.
61.   NATO, “Lisbon Summit Declaration,” 11/20/2010, accessed online 1/8/2011.
62.   See Appendix B of this report.
63.   U.S. Army, Combined Arms Center, “Handbook 09-27: Afghanistan Security Forces Fund, Chapter 14,” 4/2009, accessed online 1/7/2011.
64.   ISAF-IJC, PERSTAT, 11/21/2010; CSTC-A, response to SIGAR data call, 10/4/2010; CSTC-A, response to SIGAR data call 1/4/2011.
65.   SIGAR, “Record of Meeting - CJ1 Follow-up,” 11/17/2010 and 12/14/2010, pp. 1–2.
66.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 1/2011, p. 17; London Conference on Afghanistan, “The Afghanistan
      Compact,” 2/1/2006, p. 5.
67.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 11/2010, p. 7.
68.   UN, “The Situation in Afghanistan and its Implications for International Peace and Security,” 12/10/2010.
69.   UN, “The Situation in Afghanistan and its Implications for International Peace and Security,” 12/10/2010, p. 4.
70.   UN, “The Situation in Afghanistan and its Implications for International Peace and Security,” 12/10/2010, pp. 3–4.
71.   CSTC-A, responses to SIGAR data call, 10/4/2010 and 1/4/2011; SIGAR, Audit-11-6, “Inadequate Planning for ANSF Facilities Increases Risk for
      $11.4 Billion Program,” 1/2011, p. iii.
72.   ISAF-IJC, PERSTAT, 12/30/2010.
73.   ISAF-IJC, PERSTAT, 12/30/2010; ISAF-IJC, PERSTAT, 9/30/2010.
74.   ISAF-IJC, PERSTAT, 12/30/2010.
75.   IJC, response to SIGAR data call, 1/4/2011.
76.   IJC, response to SIGAR data call, 1/4/2011.
77.   IJC, response to SIGAR data call, 1/4/2011.
78.   CSTC-A, response to SIGAR data call, 1/4/2011.
79.   NTM-A/CSTC-A, “Afghan Army Instructor, Recruits Optimistic after Graduation in Kandahar,” 11/15/2010, accessed online 12/15/2010.
80.   NTM-A/CSTC-A, “Thousands of Afghans Compete for Military Academy Admission,” 11/4/2010, accessed online 12/14/2010.




        REPORT TO THE UNITED STATES CONGRESS          I   JANUARY 30, 2011                145
                                                            ENDNOTES




81.    IJC, response to SIGAR data call, 1/4/2011.
82.    CSTC-A, response to SIGAR data call, 1/4/2011.
83.    CSTC-A, response to SIGAR data call, 1/4/2011.
84.    CSTC-A, response to SIGAR data call, 1/4/2011.
85.    USACE, “New O&M Contracts to Sustain Facilities, Provide Job Training in Afghanistan,” 10/28/2010, accessed online 12/27/2010.
86.    NTM-A, “ANSF Receives Training, Equipment from NTM-A,” 1/7/2011, accessed online 1/11/2011.
87.    CSTC-A, response to SIGAR data call, 1/4/2011; CSTC-A, response to SIGAR data call, 1/13/2010.
88.    IJC, response to SIGAR data call, 1/4/2011.
89.    UNDP, “LOTFA-Phase V, 3rd Quarter Project Progress Report,” 9/2010, p. 5.
90.    CSTC-A, “Law and Order Trust Fund Phases I through V,” 10/2010.
91.    ISAF-IJC, PERSTAT, 11/21/2010.
92.    IJC, response to SIGAR data call, 1/4/2011.
93.    SIGAR, record of meeting with CSTC-A CJ1, 11/17/2010 and 12/14/2010; NTM-A/CSTC-A, ANP PERSTAT SOP, 11/18/2010, p. 2; ISAF-IJC,
       PERSTAT, 11/21/2010.
94.    IJC, response to SIGAR data call, 1/4/2011.
95.    IJC, response to SIGAR data call, 1/4/2011.
96.    CSTC-A, response to SIGAR data call, 1/4/2011.
97.    CSTC-A, response to SIGAR data call, 1/4/2011.
98.    CSTC-A, response to SIGAR data call, 1/4/2011.
99.    NTM-A/CSTC-A, “Afghan Recruits Learn Police, Military Techniques,” 12/3/2010, accessed online 12/14/2010.
100.   CSTC-A, response to SIGAR data call, 10/4/2011.
101.   NTM-A, response to SIGAR data call, 1/4/2011.
102.   NTM-A, response to SIGAR data call, 1/4/2011.
103.   NTM-A, response to SIGAR data call, 1/4/2011.
104.   NTM-A, response to SIGAR data call, 1/4/2011.
105.   CSTC-A, response to SIGAR data call, 1/4/2011.
106.   CSTC-A, response to SIGAR data call, 1/4/2011.
107.   CSTC-A, response to SIGAR data call, 1/4/2011.
108.   CSTC-A, response to SIGAR data call, 1/4/2011.
109.   USACE, “New O&M Contracts to Sustain Facilities, Provide Job Training in Afghanistan,” 10/28/2010, accessed online 12/27/2010.
110.   CSTC-A, responses to SIGAR data call, 1/4/2011 and 1/13/2011.
111.   CSTC-A, response to SIGAR data call, 1/4/2011; CSTC-A, response to SIGAR data call, 1/13/2010.
112.   IJC, response to SIGAR data call, 1/4/2011.
113.   OSD, response to SIGAR data call, 1/11/2011.
114.   OSD, responses to SIGAR data call, 10/14/2010 and 1/11/2011.
115.   OSD, response to SIGAR data call, 1/11/2011; DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 11/2010, p. 67.
116.   OSD, response to SIGAR data call, 1/11/2011.
117.   OSD, response to SIGAR data call, 1/11/2011.
118.   OSD, response to SIGAR data call, 1/11/2011.
119.   NTM-A/CSTC-A, “MOI Procurement – Competent and Compliant,” 12/12/10, accessed online 12/14/2010.
120.   NTM-A/CSTC-A, “MOI Procurement – Competent and Compliant,” 12/12/10, accessed online 12/14/2010.
121.   USFOR-A, response to SIGAR data call, 1/4/2011; CENTCOM, response to SIGAR data call, 10/4/2010.
122.   OMB, response to SIGAR data call, 1/20/2011.
123.   DoS, PM-WRA, response to SIGAR data call, 1/3/2011.
124.   DoS, PM-WRA, response to SIGAR data call, 1/3/2011.
125.   DoS, PM-WRA, response to SIGAR data call, 1/3/2011.
126.   DoS, PM-WRA, response to SIGAR data call, 1/3/2011.
127.   See Appendix B of this report.




                                                    146                   SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




128. IEC, “The IEC Releases Final Results,” accessed online 12/08/2010; UN, “Report of the Secretary-General,” 12/10/2010.
129. UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010, p. 2; CSIS, “Preliminary Results for
     Afghanistan’s Wolesi Jirga Election,” 10/26/2010, accessed online 1/18/2011; National Democratic Institute, “2010 Wolesi Jirga Elections,”
     http://2010.afghanistanelectiondata.org, accessed online 1/19/2011.
130. DoS, “Announcement of Certified Results in the Afghan Parliamentary Elections,” 11/24/2010, accessed online 12/6/2010.
131. FEFA, press release, “Electoral Reform Must Start Now,” 11/24/2010.
132. FEFA, “Fifth Observation Report of the 2010 Election Observation Mission: From Counting to Preliminary Results,” 11/3/2010, accessed online
     12/14/2010.
133. FEFA, “Fifth Observation Report of the 2010 Election Observation Mission: From Counting to Preliminary Results,” 11/3/2010.
134. UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010, pp. 2–3.
135. UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010, p. 2; CRS, Katzman, Kenneth,
     “Afghanistan: Government Formation and Performance,” 1/6/2009, p. 8.
136. UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010 p. 3; USAID, “Support to the Electoral
     Process (STEP) in Afghanistan, Monthly Report - November 2010,” 12/15/2010.
137. UNAMA, press release, “Welcoming Joint Statement by Afghan Independent Election Authorities,” 11/11/2010.
138. World Bank, “Quarterly Country Update: Afghanistan,” 1/2011.
139. UNAMA, “Leading Stories in Today’s Afghan Media,” 1/19/2011, accessed online 1/19/2011.
140. UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010, p. 2.
141. ECC, press release, 11/6/2010.
142. IEC/ECC, “Joint Statement,” 11/11/2010.
143. UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010, p. 2.
144. ECC, press release, “Breaches of the IEC Campaign Finance Regulation,” 12/8/2010.
145. USAID, response to data call, 12/27/2010.
146. USAID, response to data call, 1/3/2011.
147. NDI, “Afghanistan: Supporting Increased Electoral Participation,” 11/2010.
148. NATO, “Declaration by the North Atlantic Treaty Organization (NATO) and the Government of the Islamic Republic of Afghanistan on an
     Enduring Partnership Signed at the NATO Summit in Lisbon, Portugal,” 11/20/2010; UN, “The Situation in Afghanistan and Its Implications
     for International Peace and Security,” 12/10/2010; White House, “Fact sheet: President Obama’s Participation in the Nato Summit Meetings in
     Lisbon,” 11/20/2010.
149. NATO, “Declaration by the North Atlantic Treaty Organization (NATO) and the Government of the Islamic Republic of Afghanistan on an
     Enduring Partnership Signed at the NATO Summit in Lisbon, Portugal,” 11/20/2010.
150. NATO, “Declaration by the North Atlantic Treaty Organization (NATO) and the Government of the Islamic Republic of Afghanistan on an
     Enduring Partnership Signed at the NATO Summit in Lisbon, Portugal,” 11/20/2010.
151. NATO, “Declaration by the North Atlantic Treaty Organization (NATO) and the Government of the Islamic Republic of Afghanistan on an
     Enduring Partnership Signed at the NATO Summit in Lisbon, Portugal,” 11/20/2010.
152. UN, “Afghan President Gains Regional Support at Istanbul Summit,” 11/27/2010, accessed online 12/10/2010.
153. DoS, “Remarks to the Press by U.S. Ambassador Karl W. Eikenberry,” 11/22/2010.
154. DoD OSD, response to data call, 1/6/2011.
155. NDU, Tarzi, Armin, “Recalibrating the Afghan Reconciliation Program,” PRISM, 9/2010, p. 67.
156. DoD OSD, response to SIGAR vetting, 1/14/2011.
157. Asia Foundation, “Afghanistan 2010: A Survey of the Afghan People,” 11/9/2010.
158. GIRoA, Office of the President, “Burhanuddin Rabbani Chosen as Chairman of the High Council for Peace,” 12/10/2010.
159. UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010.
160. EU, Press Release, 11/7/2010; UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010, p. 5.
161. DoS, response to SIGAR data call, 1/12/2011.
162. DoD OSD, response to SIGAR vetting, 1/13/2011.
163. UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010, p. 6.
164. UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010.




        REPORT TO THE UNITED STATES CONGRESS          I   JANUARY 30, 2011                147
                                                         ENDNOTES




165.   UN, press release, “UN Sets Up Expert Group to Support Afghan Peace Efforts,” 10/31/2010, p. 16.
166.   DoD, “DoD News Briefing with British Army Maj. Gen. Carter via Teleconference from Afghanistan,” 10/28/2010.
167.   DoS, “Special Briefing on Trip to Afghanistan,” 10/29/2010.
168.   DoD OSD, response to SIGAR data call, 1/6/2011.
169.   DoD OSD, response to SIGAR data call, 1/6/2011.
170.   DoD OSD, response to SIGAR data call, 1/6/2011.
171.   DoS, response to SIGAR data call, 1/12/2011.
172.   UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010.
173.   DoD OSD, response to SIGAR data call, 1/6/2011.
174.   DoS, response to SIGAR data call, 1/12/2011.
175.   DoD OSD, response to SIGAR data call, 1/6/2011.
176.   DoD OSD, response to SIGAR data call, 1/6/2011.
177.   DoD/DoS, “DoD Background Briefing with Senior Officials at the Pentagon,” 11/23/2010.
178.   DoD, “Joint Chief of Staff Speech,” 12/17/2010.
179.   DoD, “Joint Chief of Staff Speech,” 12/17/2010.
180.   Asia Foundation, “Afghanistan 2010: A Survey of the Afghan People,” 11/9/2010.
181.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 11/2010.
182.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 11/2010.
183.   DoD, “DoD News Briefing with British Army Maj. Gen. Carter via Teleconference from Afghanistan,” 10/28/2010.
184.   USAID, response to data call, 12/27/2010.
185.   DoD/DoS, “DoD Background Briefing with Senior Officials at the Pentagon,” 11/23/2010.
186.   American Forces Press Service, “Elders Could Fuel Stability in Kandahar, General Says,” 10/28/2010.
187.   DoD/DoS, “DoD Background Briefing with Senior Officials at the Pentagon,” 11/23/2010.
188.   Armed Forces Press Service, “Helmand Province Sees Improvements,” 10/5/2010.
189.   DoS, “Multinational Effort Advances Governance and Development in Helmand, Afghanistan,” 11/8/2010.
190.   DoD, “DoD News Briefing with Maj. Gen. Mills and Governor Mangal via Teleconference from Afghanistan,” 12/7/2010.
191.   DoD/DoS, “DoD Background Briefing with Senior Officials at the Pentagon,” 11/23/2010.
192.   DoD, “DoD News Briefing with Maj. Gen. Mills and Governor Mangal via Teleconference from Afghanistan,” 12/7/2010.
193.   USAID, response to SIGAR data call, 1/3/2011; USAID: Afghanistan, Fact Sheet, “Local Governance and Community Development,” 6/2010.
194.   USAID, response to SIGAR data call, 1/3/2011.
195.   USAID, response to SIGAR data call, 1/3/2011.
196.   USAID, response to SIGAR data call, 1/3/2011.
197.   DoD OSD, response to SIGAR data call, 1/11/2011.
198.   DoD OSD, response to SIGAR data call, 1/11/2011.
199.   DoD OSD, response to SIGAR data call, 1/11/2011.
200.   DoD OSD, response to SIGAR data call, 1/11/2011.
201.   UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010, p. 10.
202.   UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010, pp. 8–9.
203.   Independent Reform and Civil Service Commission, “More Appointment Authority to IARCSC,” accessed online 12/20/2010.
204.   Asia Foundation, “Afghanistan 2010: A Survey of the Afghan People,” 11/9/2010.
205.   EU, Press Release, 10/10/2010.
206.   DoD OSD, response to SIGAR data call, 1/7/2011.
207.   USAID, response to SIGAR data call, 1/3/2011.
208.   USAID, response to SIGAR data call, 12/27/2010.
209.   USAID, response to SIGAR data call, 1/3/2011.
210.   ISAF, press release, New Courthouse Strengthens Kapisa Rule of Law,” 11/15/2010.
211.   UN, press release, “Legal and Judicial Awareness Programme Launched in Khowst,” 10/10/2010.
212.   UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010, p. 10.




                                                  148                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                           ENDNOTES




213.   Asia Foundation, “Afghanistan 2010: A Survey of the Afghan People,” 11/9/2010.
214.   INL, response to SIGAR data call, 1/6/2011.
215.   INL,“JSSP: Welcome,” accessed online 7/7/2010.
216.   INL, response to SIGAR data call, 1/6/2011; GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 16.
217.   INL, response to SIGAR data call, 1/6/2011; INL response to SIGAR data call, 7/10/2010; INL response to SIGAR data call, 9/29/2010.
218.   INL, response to data call, 1/6/2011.
219.   INL, response to data call, 1/6/2011.
220.   DoD/OSD, response to data call, 1/6/2011; DoD/OSD, response to SIGAR vetting, 1/18/2011.
221.   CENTCOM, “Detainees Prepare for Return to Afghan Society,” 11/10/2010.
222.   DoD OSD, response to SIGAR data call, 1/6/2011.
223.   INL, response to SIGAR data call, 1/3/2011.
224.   INL, response to SIGAR data call, 1/3/2011.
225.   UNHCR, “United States of America,” www.unhcr.org, accessed online 1/21/2011; UNHCR, “Global Appeal 2011 Update,” 12/1/2010.
226.   UNHCR, “Global Appeal 2011 Update,” 12/1/2010.
227.   UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/10/2010.
228.   UNHCR, “Global Appeal 2011 Update,” 12/1/2010; DoS, response to SIGAR vetting, 1/17/2011.
229.   UNAMA, press release, “Harmful Traditional Practices that Violate Women’s Rights Widespread in Afghanistan: Speedy Implementation of the
       Law on Elimination of Violence Against Women Needed,” 12/9/2010; UNAMA, “Harmful Traditional Practices and Implementation of the Law
       on Elimination of Violence against Women in Afghanistan,” 12/9/2010.
230.   UNAMA, press release, “Harmful Traditional Practices that Violate Women’s Rights Widespread in Afghanistan: Speedy Implementation of the
       Law on Elimination of Violence Against Women Needed,” 12/9/2010; UNAMA, “Harmful Traditional Practices and Implementation of the Law
       on Elimination of Violence against Women in Afghanistan,” 12/9/2010.
231.   AIHRC, press release, “AIHRC Is Concerned About the Condition of Children’s Human Rights in the Country,” 11/20/2010.
232.   AIHRC, press release, “AIHRC Is Concerned About the Condition of Children’s Human Rights in the Country,” 11/20/2010.
233.   UNICEF, “UNICEF Calls for a Comprehensive Child Act in Afghanistan,” 11/23/2010.
234.   UNICEF, “UNICEF Calls for a Comprehensive Child Act in Afghanistan,” 11/23/2010.
235.   See Appendix B of this report.
236.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/2010, pp. i, 18.
237.   World Bank, “Afghanistan Economic Update,” 10/2010, p. 1.
238.   World Bank, “Afghanistan Economic Update,” 10/2010, p 2.
239.   World Bank, “Afghanistan Economic Update,” 10/2010, pp. 2–3.
240.   USAID, press release, “USAID Grants $30 Million to Champion Afghan Farmers,”2/4/2010.
241.   World Bank, “Afghanistan Economic Update,” 10/2010, p. 3.
242.   World Bank, “Afghanistan Economic Update,” 10/2010, pp. 13, 14.
243.   World Bank, “Afghanistan Economic Update,” 10/2010, p. 5.
244.   World Bank, “Afghanistan Economic Update,” 10/2010, pp. 4–5.
245.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/2010, p. i.
246.   USAID, response to SIGAR data call, 1/5/2011.
247.   USAID, response to SIGAR data call, 1/5/2011.
248.   USAID, response to SIGAR data call, 1/5/2011.
249.   DoS, U.S. Embassy Kabul, “Afghan Farmers Gain More Access to Credit Through New $100 Million Agricultural Development Fund,” 7/21/2010.
250.   USAID, response to SIGAR data call, 1/5/2011.
251.   World Bank, “Afghanistan Economic Update,” 10/2010, pp. 1, 10.
252.   Treasury, response to SIGAR data call, 1/4/2011.
253.   Treasury, response to SIGAR data call, 1/4/2011.
254.   Treasury, response to SIGAR data call, 1/4/2011.
255.   World Bank, “Afghanistan Economic Update,” 10/2010, p. 10.
256.   Treasury, response to SIGAR data call, 1/4/2011.




         REPORT TO THE UNITED STATES CONGRESS        I   JANUARY 30, 2011               149
                                                            ENDNOTES




257. World Bank, “Afghanistan Economic Update,” 10/2010, p. 10; Treasury, response to SIGAR data call, 1/4/2011.
258. CITI, “CITI and Afghanistan International Bank Enter into Banking Agreement,” 10/13/2010.
259. CITI, “CITI and Afghanistan International Bank Enter into Banking Agreement,” 10/13/2010.
260. World Bank, “Afghanistan Economic Update,” 10/2010, p. 10.
261. World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Public Expenditure Trends and Fiscal Sustainability,” p. 2.
262. IMF, “Regional Economic Outlook: Middle East and Central Asia,” 10/2010, p. 63.
263. DoD, “Report on Progress Toward Security and Stability in Afghanistan” (1230), 11/2010, p. 73.
264. DoD, “Report on Progress Toward Security and Stability in Afghanistan” (1230), 11/2010, p. 73.
265. DoD, “Report on Progress Toward Security and Stability in Afghanistan” (1230), 11/2010, p. 73.
266. USAID, press release, “Afghanistan Civil Service Commission and U.S. Government Sign Memorandum of Understanding to Begin Civil Service
     Support Program,” 2/22/2010.
267. DoS, U.S. Embassy Kabul, press release, “Afghan National Customs Academy Inaugural Graduation, Kabul,” 3/15/2010; Treasury, response to
     SIGAR data call, 1/4/2011.
268.   World Bank, “Afghanistan Economic Update,” 10/2010, p. 6.
269.   Treasury, response to SIGAR data call, 1/4/2011.
270.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy, 1/2010, p. 18.
271.   UNDP, Human Development Report 2010, 11/4/2010, p. 50.
272.   UNDP, Human Development Report 2010, 11/4/2010, pp. 145, 159, 163, 171, 200.
273.   DoD, Report on Progress Toward Security and Stability in Afghanistan, 4/2010, pp. 13, 24.
274.   CENTCOM, response to SIGAR data call, 1/4/2011.
275.   CENTCOM, response to SIGAR data call, 1/7/2011.
276.   CENTCOM, response to SIGAR data call, 1/4/2011.
277.   U.S. Congress, Joint Explanatory Statement of the Committees on Armed Services of the U.S. Senate and House on H.R. 6523, 12/22/2010,
       pp. 122–123.
278.   GIRoA, Office of the President, “Brief Remarks by H.E. Hamid Karzai, President of the Islamic Republic of Afghanistan at the TAPI Summit
       Meeting,” 12/11/2010; MoM, press release, “Afghanistan Finalizes and Signs Gas Pipeline Framework Agreement from Turkmenistan to
       Afghanistan, India and Pakistan,” 9/22/2010.
279.   IAGS, Journal of Energy Security, “Afghanistan, the TAPI Pipeline, and Energy Geopolitics,” by John Foster, 3/23/2010, p. 6; ADB, Technical
       Assistance Consultant Report, “Islamic Republic of Afghanistan: Preparing the Natural Gas Development Project (Project #37085),” 12/2007, p. 9.
280.   Voice of Russia, “Gazprom to Bid for Trans-Afghan Pipeline,” 10/22/2010.
281.   USAID, response to SIGAR data call, 1/5/2011.
282.   USAID, response to SIGAR data call, 1/3/2011.
283.   USAID, response to SIGAR data call, 1/3/2011.
284.   USAID, response to SIGAR data call, 1/3/2011.
285.   USAID, response to SIGAR data call, 1/3/2011.
286.   GAO, Audit-11-138, “U.S. Efforts to Support Afghan Water Sector Increasing, But Improvements Needed in Planning and Coordination,”
       11/2010, p. 1.
287.   EU, “National Risk and Vulnerability Assessment 2007/8: A Profile of Afghanistan,”10/2009, p. iii.
288.   World Bank, Afghanistan Development Forum 2007, “Afghanistan: Challenges and Progress,” accessed online 1/12/2011.
289.   GAO, Audit-11-138, “U.S. Efforts to Support Afghan Water Sector Increasing, but Improvements Needed in Planning and Coordination,”
       11/2010, pp. 1, 5.
290.   GAO, Audit-11-138, “U.S. Efforts to Support Afghan Water Sector Increasing, but Improvements Needed in Planning and Coordination,”
       11/2010, p. 43.
291.   USAID, response to SIGAR data call, 1/5/2011.
292.   USAID, response to SIGAR data call, 1/5/2011; USAID, response to SIGAR data call, 1/13/2011.
293. ISAF, press release, ”Road Maintenance Teams Up and Running in Tagab District,” 11/29/2010.
294. USAID, response to SIGAR data call, 1/5/2011.
295. CIMIC, “Special Report on Infrastructure in Afghanistan: The Rise of the Afghan Rails,” 11/18/2010, pp. 1, 4; ADB, “ADB Members, Capitol




                                                     150                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                             ENDNOTES




     Stock and Voting Power as of December 31, 2009,” accessed online 1/13/2011.
296. CIMIC, “Special Report on Infrastructure in Afghanistan: The Rise of the Afghan Rails,” 11/18/2010, pp. 1, 3, 4.
297. CIMIC, “Special Report on Infrastructure in Afghanistan: The Rise of the Afghan Rails,” 11/18/2010, pp. 3, 4.
298. CIMIC, “Special Report on Infrastructure in Afghanistan: The Rise of the Afghan Rails,” 11/18/2010, p. 3; Arzu TV Afghanistan, transcript, “U.S.
     Envoy Visits Northern Afghanistan City to Open Consulate, 2/14/2010.
299. CIMIC, “Special Report on Infrastructure in Afghanistan: The Rise of the Afghan Rails,” 11/18/2010, pp. 3–4.
300. EU, press release, “Commission Updates List of Banned Air Carriers, 11/23/2010; EU, Legal Notice, Updated List of Banned Carriers, 11/23/2010.
301. EU, Legal Notice, Updated List of Banned Carriers, 11/23/2010.
302. SAFI, news update, “EU Ban for Afghan Registered Aircraft Results in Suspension of Safi Airways Flights Between Kabul and Frankfurt,”
     12/20/2010.
303. World Bank, “Afghanistan Economic Update,” 10/2010, p. 10.
304. Dow Jones, “Nokia Siemens Networks Gets Afghanistan Mobile Network Deal,” 11/2/2010; MCIT website, list of GSM mobile operators in
     Afghanistan, accessed online 12/30/2010; Afghanistan Telecom Regulatory Authority (ATRA), “A Glance at the Telecom Developments in
     Afghanistan,” accessed online 1/12/2011.
305. MCIT, “Telecom Statistics End June 2010,” accessed online 12/30/2010; Afghanistan Telecom Regulatory Authority, “What is a 3G Network,”
     accessed online 12/30/2010; National Defense University, “Information and Communication Technologies for Reconstruction and
       Development: Afghanistan Challenges and Opportunities,” 1/2008, p. 28.
306.   Radio Azadi, press release, “Radio Azadi Launches Interactive SMS Service in Afghanistan,” 11/18/2010.
307.   Radio Free Europe/Radio Liberty website, Radio Free Afghanistan, accessed online 12/29/2010.
308.   CENTCOM, response to SIGAR data call, 1/4/2011.
309.   CENTCOM, response to SIGAR data call, 10/4/2010.
310.   CIMIC, “Afghanistan-Security: The Private Security Companies (PSCs) Dilemma in Afghanistan,” 12/20/2010, p. 4.
311.   VOA, “Karzai Shelves Plans to Ban Private Security Firms,” 12/6/2010, accessed online 12/22/2010.
312.   USDA, press release, “USDA Outlines Efforts to Improve Food Security in Afghanistan,” 11/5/2010.
313.   USAID, DCHA/OFDA, Fact Sheet #1, Fiscal Year 2011, “Afghanistan-Complex Emergency,” 12/9/2010.
314.   VEGA, “VEGA Awarded $36 million towards Afghanistan Agricultural Revitalization with USDA,” 1/3/2011.
315.   USAID, “Request for Proposal No. 306-10-0031: Land Reform in Afghanistan (LARA) Project,” 7/29/2010, p. 6.
316.   World Bank, “Doing Business 2011: Afghanistan,”11/3/2010.
317.   World Bank, “Doing Business 2011: Afghanistan,” 11/3/2010, p. 24.
318.   World Bank, “Doing Business 2011: Making a Difference for Entrepreneurs,” 11/3/2010, pp. 63–68.
319.   See Appendix B of this report.
320.   UNODC, “First Afghan to Afghan Training in CNTA,” 12/7/2010; UNODC, “Afghanistan Opium Survey 2009: Survey Findings,” 9/2009, p. 1.
321.   DoD, response to SIGAR vetting, 1/13/2011.
322.   UNODC, “South East Asia: Opium Survey 2010,” 12/2010, p. 9.
323.   UNODC, “South East Asia: Opium Survey 2010,” 12/2010, p. 57.
324.   UNODC, “South East Asia: Opium Survey 2010,” 12/2010, pp. 11.
325.   INL, response to SIGAR data call, 1/6/2011; UNODC, “Afghanistan Opium Survey 2009: Survey Findings,” 9/2009, p. 1.
326.   INL, response to SIGAR data call, 1/6/2011.
327.   UNODC, “South East Asia: Opium Survey 2010,” 12/2010, pp. 45, 63.
328.   UNODC, “First Afghan to Afghan Training in CNTA,” 12/7/2010.
329.   INL, response to SIGAR data call, 1/6/2011.
330.   DoD, response to SIGAR data call, 1/6/2011.
331.   DoD, response to SIGAR data call, 1/6/2011.
332.   DoD, response to SIGAR data call, 1/6/2011.
333.   DoD, response to SIGAR data call, 1/6/2011.
334.   DoD, response to SIGAR data call, 1/6/2011.
335.   UNODC, “UNODC and Alternative Development,” accessed online 12/14/2010; INL, response to SIGAR data call, 1/6/2011.
336.   INL, response to SIGAR data call, 1/6/2011.




         REPORT TO THE UNITED STATES CONGRESS          I   JANUARY 30, 2011                151
                                                           ENDNOTES




337. GIRoA, “Afghanistan and Pakistan Regional Stabilization Strategy,” 12/2009, p. 5.
338. USAID, response to SIGAR data call, 1/3/2011.
339. USAID, “AVIPA Plus,” accessed online 1/14/2011.
340. USAID, response to SIGAR data call, 1/3/2011.
341. USAID, response to SIGAR data call, 1/3/2011. Note: IDEA-NEW stands for Incentives Driving Economic Alternatives-North, East, West.
342. INL, “Afghanistan: Drug Flow/Transit,” 3/2003; USAID, response to SIGAR data call, 1/3/2011.
343. USAID, response to SIGAR data call, 1/3/2011; USAID, “FY2010 Annual Report: AWATT,” 9/30/2010, p. 9.
344. USAID, response to SIGAR data call, 1/3/2011; NM State University, “Afghanistan Water, Agriculture and Technology Transfer,” accessed online
     1/9/2011.
345. USAID, response to SIGAR data call, 1/3/2011; NM State University, “Afghanistan Water, Agriculture and Technology Transfer,” accessed online
     1/9/2011.
346. New Mexico State University, “Afghanistan Water, Agriculture and Technology Transfer,” accessed online 1/9/2011; USAID, response to SIGAR
     data call, 1/3/2011.
347. USAID, response to SIGAR data call, 1/3/2011.
348. INL, response to SIGAR data call, 1/6/2011.
349. UNODC, “South East Asia: Opium Survey 2010,” 12/2010, p. 68.
350. See Appendix B of this report.
351. UNAMA, “People’s Support Needed to Fight Corruption in Herat: Government,” accessed online 12/14/2010.
352. Asia Foundation, “Afghanistan in 2010: A Survey of the Afghan People,” 11/9/2010, p. 79; Transparency International, “Global Corruption
     Barometer 2010,” 12/9/2010, p. 47.
353. Transparency International, “Global Corruption Barometer 2010,” 12/9/2010, p. 47.
354. Transparency International, “Global Corruption Barometer 2010,”12/9/2010, p. 43.
355. Transparency International, “Global Corruption Barometer 2010,” 12/9/2010, p. 46.
356. UNAMA, “People’s Support Needed to Fight Corruption in Herat: Government,” accessed online 12/14/2010.
357. UNAMA, “People’s Support Needed to Fight Corruption in Herat: Government,” accessed online 12/14/2010.
358. HOOAC, “Who We Are?” accessed online 12/14/2010.
359. UNAMA, “People’s Support Needed to Fight Corruption in Herat: Government,” accessed online 12/14/2010.
360. DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 11/2010, pp. 63–64.
361. INL, response to SIGAR data call, 1/6/2011.
362. INL, response to SIGAR data call, 1/6/2011; DoJ, “Attorney General Travels to Afghanistan for Meetings with U.S., Afghan Officials,” 6/30/2010.
363. DoJ, “Attorney General Travels to Afghanistan for Meetings with U.S., Afghan Officials,” 6/30/2010.
364. INL, response to SIGAR data call, 1/6/2011.
365. DoJ, “Attorney General Travels to Afghanistan for Meetings with U.S., Afghan Officials,” 6/30/2010.
366. INL, response to SIGAR data call, 1/6/2011.
367. INL, response to SIGAR data call, 1/6/2011.
368. DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 11/2010, p. 63.
369. INL, response to SIGAR data call, 1/6/2011.
370. DoJ, “Attorney General Travels to Afghanistan for Meetings with U.S., Afghan Officials,” 6/30/2010.
371. INL, response to SIGAR data call, 1/6/2011.
372. INL, response to SIGAR data call, 1/6/2011.
373. INL, response to SIGAR data call, 1/6/2011.




                                                    152                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
Cover Captions (clockwise from left):
Commando Radio-Kabul’s first woman disc
jockey speaks to listeners during a radio
broadcast at Camp Morehead, Afghanistan.
Funded by the United States, the station pro-
vides information on Commando operations.
It is operated by Afghans who have gradu-
ated from a U.S. training program. (U.S. Army
photo, SFC Marcus Quarterman)
Afghan quality assurance representatives
visit a waste treatment plant under construc-
tion in Kabul province, as part of a U.S. Army
Corps of Engineers training session. As of July
2010, the United States had provided $250
million to rebuild Afghanistan’s water sector.
(USAF photo, SSgt Stacey Haga)
School is in session at the Nad e Ali Central
School in Helmand province. In 2010, U.S.
programs provided 21.5 million textbooks to
students throughout Afghanistan. By the end
of 2011, the United States plans to provide
$25 million for primary school textbooks
alone. (RAF photo, SAC Neil Chapman)
A weaver in Jalalabad continues the ancient
tradition as he works on a charpoy, a versatile
daybed common throughout Afghanistan,
                                                  Young musicians perform at the first winter music academy of the Afghan National Music
Pakistan, and India. One key focus of the U.S.
                                                   Institute. The Institute was founded to revive the musical tradition in Afghanistan: under
reconstruction program is to encourage the
                                                     the Taliban, music was banned. The institute is supported by contributions from the
growth of local industry. (photo by Aimal Azem)
                                                              United States and the donor community. (U.S. Embassy Kabul photo)
SIGAR
SPECIAL INSPECTOR GENERAL


                                                                                                         SIGAR                  Special Inspector General for   JAN 30




                                 SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | JAN 30, 2011
FOR AFGHANISTAN RECONSTRUCTION
                                                                                                                                Afghanistan Reconstruction       2011
400 Army Navy Drive
Arlington, VA 22202-4704




                                 1                                                                       QUARTERLY REPORT TO THE UNITED STATES CONGRESS
